<html>
<title> - OMBUDSMAN'S OFFICE AT THE EPA, AND OTHER PROGRAM IMPROVEMENTS</title>
<body><pre>[Senate Hearing 106-965]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 106-965
 
     OMBUDSMAN'S OFFICE AT THE EPA, AND OTHER PROGRAM IMPROVEMENTS
=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2000
                               __________

                                   ON

            S. 1763, OMBUDSMAN REAUTHORIZATION ACT OF 1999;
            S. 1915, SMALL COMMUNITY ASSISTANCE ACT OF 1999;
                S. 2296, PROJECT SEARCH ACT OF 2000; AND
 S. 2800, STREAMLINED ENVIRONMENTAL REPORTING AND POLLUTION PREVENTION 
                              ACT OF 2000

  Printed for the use of the Committee on Environment and Public Works







                        U.S. GOVERNMENT PRINTING OFFICE
71-526                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001
















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED SIXTH CONGRESS
                             second session
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)














                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 26, 2000

                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     8
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     9
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     7

                               WITNESSES

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     3
Baumann, Jeremiah, environmental health advocate, U.S. Public 
  Interest Research Group........................................    17
    Prepared statement...........................................    50
    Responses to additional questions from Senator Smith.........    53
Bisbee, George Dana, assistant commissioner, New Hampshire 
  Department of Environmental Services, on behalf of Data 
  Management Workgroup and Local Government Forum of the 
  Environmental Council of the States............................    15
    Prepared statement...........................................    43
    Responses to additional questions from Senator Smith.........    46
Bruzelius, Ken, executive director, Midwest Assistance Program...    25
    Prepared statement...........................................    57
Cooper, Ben, senior vice president of Government Affairs, 
  Printing Industries of America.................................    29
    Prepared statement...........................................    66
    Response to additional question from Senator Smith...........    69
Prescott, B. Roy, chairman, Jerome County, Idaho, Board of 
  Commissioners..................................................    63
    Prepared statement...........................................    63
    Responses to additional questions from Senator Smith.........    64
Sanchez, Deborah Spaar, cofounder and administrator, Overland 
  Neighborhood Environmental Watch...............................    23
    Prepared statement...........................................    55
Thompson, Diane E., Associate Administrator for Congressional and 
  Intergovernmental Relations, Environmental Protection Agency; 
  accompanied by: Michael Shapiro, Principal Deputy Assistant 
  Administrator for Solid Waste and Emergency Response; Margaret 
  N. Schneider, Principal Deputy Assistant Administrator for 
  Environmental Information......................................    38
    Prepared statement...........................................    69
    Regulation, Draft Guidance for National Hazardous Waste 
      Ombudsman, Federal Register................................    82
    Responses to additional questions from:
        Senator Baucus...........................................    78
        Senator Smith............................................    76

                          ADDITIONAL MATERIAL

Articles:
    Finally, A Logical Move by EPA...............................   102
    Vigilance Wins in Superfund..................................   101
Letters:
    Chalmet, Roger A.............................................    89
    Giles, Glendas...............................................    88
    Giles, Robert................................................    88










Letters-Continued
    Olympic Environmental Council................................    99
    Pi-Pa-TAG, Inc...............................................   100
    South Central Idaho Tourism and Recreation Development 
      Association................................................    93
    USPIRG.......................................................    97
Statements:
    Brian, Danielle, executive director, Project on Government 
      Oversight..................................................    86
    Dunham, Frances, Citizens Against Toxic Exposure.............    90














     OMBUDSMAN'S OFFICE AT THE EPA, AND OTHER PROGRAM IMPROVEMENTS

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2000

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m., in 
room 406, Senate Dirksen Building, the Hon. Robert C. Smith 
(chairman of the committee) presiding.
    Present: Senators Smith, Crapo, Warner, Baucus, and 
Lautenberg.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo [assuming the chair]. This hearing will come 
to order. Before I proceed, I would like to indicate that 
Chairman Smith has been delayed briefly. Because of some time 
pressures that Senator Allard is facing, we wanted to get going 
as quickly as we could. So, Senator Allard, we will begin.
    Before I do that, however, I want to indicate that today's 
hearing might be cut short. For those of you who are here, 
ready for other panels and for other testimony, I should 
indicate to you that the Minority has invoked what is called 
the Two Hour Rule. The rule prohibits a Senate committee from 
meeting for more than 2 hours past the time that the Senate 
begins its daily session.
    I hope that we will be able to conclude this hearing by 
then, but I am not sure that we will. In order to help ensure 
that the committee can hear from all witnesses, I will not ask 
any questions at this point, or during my time period, to help 
the witnesses move forward as quickly as possible.
    I think the chairman is intending to waive his time, as 
well. We will wait until he gets here, to see if he does do 
that.
    We hope to ensure that we can hear from all witnesses who 
have come today, some of whom have traveled a long distance, in 
order to testify.
    In addition, because of this procedural objection, we need 
to change the order of testimony of the witnesses. Ordinarily, 
we have representatives of the Federal Government testify after 
hearing from any member or officer of Congress.
    Today, however, in order to ensure that our witnesses from 
places such as New Hampshire, Idaho, and Minnesota, who have 
traveled so far, can testify before the committee, we will 
allow them to testify before we hear from the EPA. The Federal 
witnesses who live here in town will, therefore, appear on the 
last panel.
    In addition, one of our colleagues could not speak here 
today on behalf of the bill because of the Minority's 
procedural objection. Senator Jeffords had planned to speak on 
behalf of S. 1955, the Small Community Assistance Act of 1999, 
but has been unable to make it to the hearing because of other 
procedural problems. We expect that he will submit testimony 
for the record.
    [The prepared statement of Senator Crapo follows:]
   Statement of Hon. Mike Crapo, U.S. Senator from the State of Idaho
    Mr. Chairman, I want to express my appreciation for your holding 
this important hearing on pending legislation making improvements to 
the Environmental Protection Agency (EPA).
    This is a critical issue and one close to my heart, not just 
because I am either a sponsor or co-sponsor of all the bills before us 
today. Each of these measures attempts to fix an overlooked problem 
within the EPA and each does takes a unique approach to problem-
solving. Although I am a strong supporter of each bill, I would like to 
take few moments here to specifically address S. 2296 and S. 1763.
    As many here today know, I have been working with the EPA National 
Ombudsman in his investigation of allegations of long-term agency 
wrong-doing in North Idaho. Each effort made by the Ombudsman in this 
case to date has turned up further evidence of questionable behavior by 
agency officials. The North Idaho community has welcomed the 
Ombudsman's interest and has willingly provided much information 
critical to the Ombudsman's investigation.
    I am sure that all of us here today recognize the importance of 
accountability and responsibility by Federal agency officials. Without 
public confidence in the agencies charged with protecting the 
environment and allocating scarce taxpayer resources properly, it will 
be difficult for any community to support Federal policies. In North 
Idaho, a long history of EPA intransigence and lack of cooperation with 
the community has all but eroded the confidence of the public in the 
conduct of agency officials. It is my understanding that this chasm of 
trust exists in many other communities where the EPA has used the 
Superfund Program.
    The activities of the National Ombudsman provide a real opportunity 
to restore the confidence of the public. If the Ombudsman can correct 
agency mistakes and highlight inappropriate behavior that is ultimately 
corrected, communities will have a greater confidence that agency 
officials are acting with their best interests at heart. If the 
Ombudsman discovers that the EPA is acting appropriately, the public 
will also breathe easier.
    Now, however, we have reports that the EPA is attempting to 
restrict the autonomy of the Ombudsman and this has raised alarm in 
many communities across the country. If the so-called watchdog of the 
Superfund program is not allowed to fully and freely investigate 
allegations of wrong-doing, the public will be the ultimate loser. We 
cannot allow the Ombudsman to be silenced in the proper conduct of his 
responsibilities.
    For this and other reasons, S. 1763 would provide the assurances we 
all need to know that the Ombudsman is working to protect communities 
and taxpayer dollars. I call on this committee to demonstrate the 
importance of this measure by quickly enacting this much-needed reform 
of the EPA.
    S. 2296 would authorize a national environmental grants program for 
small communities called Project SEARCH. The national Project SEARCH 
(Special Environmental Assistance for the Regulation of Communities and 
Habitat) concept is based on a demonstration program that has been 
operating with great success in Idaho in 1999 and 2000. In short, the 
bill establishes a simplified application process for communities of 
under 2,500 individuals to receive assistance in meeting a broad array 
of Federal, State, or local environmental regulations. Grants would be 
available for initial feasibility studies, to address unanticipated 
costs arising during the course of a project, or when a community has 
been turned down or underfunded by traditional sources. The grant 
program would require no match from the recipients.
    Some of the major highlights of the program are:
    <bullet> A simplified application process--no special grants 
coordinators required;
    <bullet> No unsolicited bureaucratic intrusions into the 
decisionmaking process;
    <bullet> Communities must first have attempted to receive funds 
from traditional sources;
    <bullet> It is open to studies or projects involving any 
environmental regulation;
    <bullet> Applications are reviewed and approved by citizens panel 
of volunteers;
    <bullet> The panel chooses number of recipients and size of grants;
    <bullet> The panel consists of volunteers representing all regions 
of the State; and
    <bullet> No local match is required to receive the SEARCH funds.
    Over the past several years, it has become increasingly apparent 
that small communities are having problems complying with environmental 
rules and regulations due primarily to lack of funding, not a 
willingness to do so. They, like all of us, want clean water and air 
and a healthy natural environment. Sometimes, they simply cannot 
shoulder the financial burden with their limited resources.
    In addition, small communities wishing to pursue unique 
collaborative efforts might be discouraged by grant administrators who 
prefer conformity. Some run into unexpected costs during a project and 
have borrowed and bonded to the maximum. Others are in critical habitat 
locations and any affected project may have additional costs, which may 
not be recognized by traditional financial sources. Still others just 
need help for the initial environmental feasibility study so they can 
identify the most effective path forward.
    In 1999, a $1.3 million EPA demonstration grant program for Idaho's 
small communities with populations of 2,500 or less was created. 
Idaho's program does not replace other funding sources, but serves as a 
final resort when all other means have been exhausted.
    The application process was simplified so that any small town 
mayor, county commissioner, sewer district chairman, or community 
leader could manage it without hiring a professional grant writer. An 
independent citizens committee with statewide representation was 
established to make the selections and get the funds on the ground as 
quickly as possible. No uninvited bureaucratic or political intrusions 
were permitted.
    Although the EPA subsequently insisted that grants be limited to 
water and wastewater projects, 44 communities in Idaho ultimately 
applied, not including 2 that failed to meet the eligibility 
requirements. Ultimately, 21 communities were awarded grants in several 
categories, and ranged in size from $9,000 to $319,000. Communities 
serving a number of Native Americans and migrant groups and several 
innovative collaborative efforts were included in the successful 
applicants. The communities that were not selected are being given 
assistance in exploring other funding sources and other advice.
    The response and feedback from all participants has been 
overwhelming positive. Environmental officials from the State and EPA 
who witnessed the process have stated that the process worked well and 
was able to accomplish much on a volunteer basis. There was even 
extraordinary appreciation from other funding agencies because some 
communities that they were not able to reach were provided funds for 
feasibility studies. The only negative comments were from those who 
wished that the EPA had not limited the program to water and wastewater 
projects.
    The conclusion of all participants was that Project SEARCH is a 
program worthy of being expanded nationally. So many small communities 
in so many States can benefit from a program that assists underserved 
and often overlooked communities.
    I would like now to take a moment to welcome Roy Prescott, a Jerome 
County, Idaho, county commissioner, who will be testifying on the third 
panel. Roy has had extensive experience with Idaho's Project SEARCH 
program and will be sharing many of the highlights of the program. He 
has been instrumental in proving that a volunteer-based grant program 
can function effectively and respond to real-world problems. I 
appreciate his participation in the process and know that many small 
communities in Idaho are in his debt.
    Thank you, Mr. Chairman.

    Senator Crapo. Without anything further, so we can move on 
as quickly as possible, we will turn to you now, Senator 
Allard, and you can make any statement that you would like to 
make.

STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE STATE OF 
                            COLORADO

    Senator Allard. Thank you, Senator Crapo, or I might say, 
Chairman Crapo.
    Senator Crapo. For the time being.
    Senator Allard. It is good to be here before this committee 
to testify. I thank you and the regular chairman, Mr. Smith, 
for the opportunity to testify on behalf of Senate bill 1763. 
It is legislation that I recently introduced to reauthorize the 
Office of Ombudsman of the Environmental Protection Agency.
    I would like to keep my remarks brief, just for the very 
reasons that you shared with everybody, because I have to 
testify at 10 o'clock before the Commerce Committee, and then I 
have my own committee hearing at 10:30, so I am under the gun, 
myself.
    I want to share with the committee my reasoning and 
interest in this issue. I introduced the legislation because of 
an ongoing battle between the citizens of a Denver 
neighborhood, and the Environmental Protection Agency, 
concerning the Shattuck Superfund site. Only through the work 
of the Ombudsman's Office did the truth finally become known.
    The story surrounding the Shattuck side in the Overland 
Park neighborhood in Southwest Denver and what the EPA did to 
this community will have a lasting impact, not only on the 
residents of the Overland Park neighborhood, but on each and 
every one of us who looks to the EPA to be the guardian of our 
Nation's environmental health and safety.
    In 1997, after several years of EPA stonewalling, the 
residents of Overland Park in Denver brought their concerns 
about a Superfund Site in their neighborhood and their 
frustrations with the Environmental Protection Agency to my 
attention. I learned that the neighborhood had run into a wall 
of bureaucracy that was unresponsive to the very public it is 
charged with protecting. I requested the Ombudsman's 
intervention.
    In early 1999, the Ombudsman's Office began an 
investigation and quickly determined that the claims made by 
the residents were not only meritorious, but that EPA officials 
had engaged in an effort to keep documents hidden from the 
public, thereby placing their health in danger.
    The Shattuck saga has been a frustrating and often 
disheartening experience for all involved. It is an example of 
what can happen when a Government entity goes unchecked. For 
the residents of Denver, the Office of Ombudsman has afforded 
the only opportunity to reveal the truth, and for the health 
and safety of the public to be given proper priority.
    In fact, the Ombudsman was so successful at uncovering the 
facts surrounding Shattuck, his investigation has resulted in 
EPA officials now looking at restructuring the office, so its 
actions may be restricted and its independence compromised.
    In essence, I fear that the EPA may be moving to gut the 
Ombudsman's Office. In effect, this means the EPA's actions and 
decisions in future cases like Shattuck may go unchecked, and 
citizens in other States might not have a public avenue to 
address concerns and get answers from the EPA.
    Mr. Chairman, this cannot be allowed to happen. Without the 
Ombudsman's investigation at Shattuck, the residents of 
Overland Park would have never learned the truth. The 
Ombudsman's investigation brought integrity back into the 
process. Without the Ombudsman's work, a trusted Federal agency 
would have been able to successfully hide the truth from the 
very people it is charged to protect.
    The Shattuck issue is a decade long example of why 
citizens' trust in their Government has waned. My bill would 
preserve the only mechanism within the EPA that the public can 
trust to protect their health and safety.
    I am not alone in my concerns, and the Shattuck case is not 
unique. Many of my fellow Senators and Representatives have 
experienced similar battles with the EPA in their States. There 
is companion legislation in the House.
    I would also like to point out to the committee that the 
project on Government oversight and independent Government 
watchdog organizations has submitted written testimony in which 
they cite many other examples of EPA interference in Ombudsman 
inquires of other Superfund cases. I would like to ask that 
this testimony be included in the record.
    Senator Crapo. Without objection, it will be.
    Senator Allard. Let me make it clear that my main priority 
in introducing this bill is to keep the EPA Ombudsman's Office 
open for business. I want to make sure that the EPA does not 
pull the plug on this office. God only knows what would have 
happened at Shattuck without it.
    I believe that in the future, my colleagues may find 
themselves in a similar situation, and I want to make sure that 
they have every assurance that the public's safety is 
protected, its voice is heard, its questions are answered, and 
that its concerned are addressed.
    Mr. Chairman, those are my brief comments for the 
committee. Senator Smith, thank you for allowing me to testify. 
I expressed my thankfulness to Senator Crapo and the whole 
committee for allowing me to testify.
    There is going to be Deb Sanchez from the Overland Park 
neighborhood, and you have got her scheduled to testify on the 
fourth panel. I think you have moved that up. She is going to 
give a very heart-rendering testimony on her experiences with 
the Environmental Protection Agency and the cleanup of this 
site.
    I realize that there is work to do on this particular 
legislation. That is why we have hearings. Your having this 
hearing today expresses the committee's and your interest, Mr. 
Chairman, and profound concern about this particular issue, and 
is helping to move this forward. I really appreciate that.
    Thank you.
    Senator Crapo. Well, thank you very much, Senator Allard. 
As I indicated, because of the time pressures that we are 
under, we will not ask you any questions at this point in time. 
But I did want to tell, on a personal level, that I strongly 
support the legislation that you have introduced. As you know, 
I am the co-sponsor.
    Senator Allard. Yes.
    Senator Crapo. You indicated in your testimony that you 
were concerned that other communities in the country might face 
the same thing. In fact, in a community in North Idaho, we are 
concerned that we may also be facing the same type of thing. We 
have actually dealt with efforts by the Justice Department to 
tell the EPA that they had to muzzle the Ombudsman in hearings 
that the Ombudsman was holding in North Idaho.
    Fortunately, the EPA did not follow that recommendation 
from Justice, and we were pleased with that. But we are aware 
that the EPA is now developing guidelines and rules for the 
Ombudsman's Office. We think it is entirely appropriate that 
the Ombudsman operate under the American Bar Association's 
standards, rather than specific standards that we feel could be 
far too restrictive.
    So I am very concerned about the issues that you raise 
here. I look forward to doing everything possible to help this 
legislation move along on an orderly path.
    Senator Allard. Senator Crapo, you have been a very strong 
agent in helping me with this particular legislation. Our 
staffs have been working together, and I appreciate your 
support.
    Senator Crapo. Well, thank you.
    At a later point in the hearing, if it turns out that we do 
have time, I am going to make a longer statement on this issue. 
But we would release you at this time, and encourage you to get 
over to the next hearing where you have to testify on time.
    Senator Allard. Thank you.
    [The prepared statement of Senator Allard follows:]
Statement of Hon. Wayne Allard, U.S. Senator from the State of Colorado
    Mr. Chairman, thank you for the opportunity to testify on behalf of 
S. 1763, legislation I introduced to reauthorize the Office of 
Ombudsman of the Environmental Protection Agency.
    I'd like to keep my remarks brief, but I want to share with the 
committee my reasoning and interest in this issue. I introduced the 
legislation because of an ongoing battle between the citizens of a 
Denver neighborhood and the EPA concerning the Shattuck Superfund site. 
Only through the work of the Ombudsman's office, did the truth finally 
become known.
    The story surrounding the Shattuck site in the Overland Park 
neighborhood in southwest Denver and what the EPA did to this community 
will have a lasting impact not only on the residents of the Overland 
Park neighborhood, but on each and every one of us who looks to the EPA 
to be the guardian of our nation's environmental health and safety. In 
1997, after several years of EPA stonewalling, the residents of 
Overland Park in Denver brought their concerns about a Superfund site 
in their neighborhood and their frustrations with the EPA to my 
attention. I learned that the neighborhood had run into a wall of 
bureaucracy that was unresponsive to the very public it is charged with 
protecting and I requested the Ombudsman's intervention. In early 1999, 
the Ombudsman's office began an investigation and quickly determined 
that the claims made by residents were not only meritorious, but that 
EPA officials had engaged in an effort to keep documents hidden from 
the public thereby placing their health in danger.
    The Shattuck saga has been a frustrating and often disheartening 
experience for all involved. It is an example of what can happen when a 
government entity goes unchecked. For the residents of Denver, the 
Office of Ombudsman afforded the only opportunity to reveal the truth, 
and for the health and safety of the public to be given proper 
priority. In fact, the Ombudsman was so successful at uncovering the 
facts surrounding Shattuck, his investigation has resulted in EPA 
officials now looking at restructuring his office so that its actions 
may be restricted, and its independence compromised. In essence, I fear 
that the EPA may be moving to gut the Ombudsman's office. In effect, 
this means that the EPA's actions and decisions in future cases like 
Shattuck, may go unchecked and citizens in other states may not have a 
public avenue to address concerns and get answers from the EPA. Mr. 
Chairman, this cannot be allowed to happen.
    Without the Ombudsman's investigation on Shattuck, the residents of 
Overland Park would have never learned the truth. The Ombudsman's 
investigation brought integrity back into the process. Without the 
Ombudsman's work, a trusted Federal agency would have been able to 
successfully hide the truth from the very people it is charged to 
protect. The Shattuck issue is a decade long example of why citizens' 
trust in their government has waned. My bill will preserve the only 
mechanism within the EPA that the public can trust to protect their 
health and safety.
    I am not alone in my concerns and the Shattuck case is not unique. 
Many of my fellow Senators and Representatives have experienced similar 
battles with the EPA in their States. There is companion legislation in 
the House. I would also like to point out to the committee that the 
Project on Government Oversight, an independent government watchdog 
organization, has submitted written testimony in which they cite many 
other examples of EPA interference in Ombudsman inquiries of other 
Superfund cases. I would like to ask that this testimony be included 
into the record.
    Let me make it clear that my main priority in introducing this 
bill, is to keep the EPA Ombudsman Office open for business. I want to 
make sure that the EPA doesn't pull the plug on this office. God only 
knows what would have happened at Shattuck without it. I believe that 
in the future, my colleagues may find themselves in a similar situation 
and I want to make sure that they have every assurance that the 
public's safety is protected, that its voice is heard, that its 
questions are answered and that its concerns are addressed.
    Thank you Mr. Chairman.

    Senator Crapo. Before I turn the chair over to Senator 
Smith, I am going to launch the next panel. Then we will 
proceed from there.
    In our haste to get going here, I did not actually describe 
the hearing. This is the hearing on Environmental Protection 
Agency Improvements. It is a hearing on S. 1763, the Ombudsman 
Reauthorization Act of 1999; S. 1915, the Small Community 
Assistance Act of 1999; S. 2296, the Project SEARCH Act of 
2000; and S. 2800, the Streamlined Environmental Reporting and 
Pollution Prevention Act of 2000. We will have witnesses who 
will be testifying on one or the other of each of these bills 
on the panels that follow.
    For the Senators who just arrived, I want to repeat what I 
indicated before, as we began the hearing. That is, because we 
are now operating under the Two Hour Rule, we are going to let 
the witnesses who are from out of town testify first, so that 
those who traveled long distances are not deprived of the 
opportunity to testify.
    I will announce the next panel. While the next panel is 
being seated, I will then turn to either of the two Senators 
who have just joined us, to see if they would like to make an 
opening statement.
    But while we are doing that, let us have the next panel 
come up. It would be the panel identified as Panel III in the 
schedule, which is Mr. George Dana Bisbee, the Assistant 
Administrator of the New Hampshire Department Services on 
behalf of the Environmental Council of the States; and Mr. 
Jeremiah Baumann of the Environmental Health Advocate of the 
U.S. Public Interest Research Group.
    Gentlemen, if you would come forward. While you are doing 
so, I will turn first to Senator Smith, to see if he would like 
to make any statement.
    Senator Smith. I have an opening statement, which I will 
place in the record. I want to thank you for filling in for me, 
as I battled the Washington traffic this morning. I am going to 
ask you if you would please just stay right there, since I have 
not had a chance to really look through the materials as much 
as I wanted to. I appreciate you filling in for me.
    [The prepared statement of Senator Smith follows:]
      Statement of Hon. Bob Smith, U.S. Senator from the State of 
                             New Hampshire
    Welcome to all the witnesses, especially those who traveled some 
distance to be here today. In particular, I would like to welcome Dana 
Bisbee, the assistant commissioner of the New Hampshire Department of 
Environmental Services. I look forward to hearing Dana's testimony, as 
well as the testimony of our other witnesses, on four bills aimed at 
making improvements within the Environmental Protection Agency.
    Although there is little time left in this Congress, I want to take 
advantage of the time that does remain by looking at a few bills that 
fit into the long-term authorization process. As you may know, at the 
full committee level I have initiated an oversight effort into EPA's 
budget that will ultimately lead to an EPA authorization bill in a 
future Congress. We have held hearings on that subject already, and I 
expect that we will hold additional ones in the future. In fact, we 
have another one scheduled for next week. This hearing is a step in 
that process.
    Although the bills before us today address separate problems, I 
would characterize them as an attempt to help the ``little guy'' deal 
with issues related to the environment. Small businesses and small 
communities are especially burdened by the onslaught of far-reaching, 
complex, and sometimes unnecessary Federal laws. In addition, the large 
number of complex regulations places an especially weighty burden on 
small businesses and communities. Large businesses and large 
governments have greater resources than small businesses and small 
communities to deal with the never-ending growth of the Federal code. 
Bearing witness to that fact is that no large business was interested 
in testifying before the committee today.
    I would like to speak briefly about the four bills on today's 
agenda. S. 1763 is the Ombudsman Reauthorization Act of 1999, 
introduced by Senator Allard. It would reauthorize, for 10 years, the 
Office of the Ombudsman within the EPA Office of Solid Waste. This 
Ombudsman's Office has provided communities across the country with an 
opportunity to voice their concerns. In my home State, issues 
surrounding the incineration of waste and landfill space in Claremont 
and Newport as well as Bethlehem are the sort of issues that small 
communities could raise with the Ombudsman's Office.
    S. 1915 is the Small Community Assistance Act of 1999, introduced 
by Senator Jeffords and other members. It would direct the EPA to 
establish a Small Community Advisory Committee and within each region, 
a small community ombudsman. This bill would help small communities to 
be heard in the regulatory process and provide a contact in each region 
as an advocate for small community issues.
    S. 2296 is the Project SEARCH Act of 2000 introduced by Senator 
Crapo. It would authorize the EPA to fund environmental projects in 
small communities in each State through an independent citizens' 
council. The State of Idaho has had some experience with a program like 
this one, and, from what I understand, the results have been positive.
    S. 2800 is the Streamlined Environmental Reporting and Pollution 
Prevention Act of 2000 introduced by Senator Lautenberg, Senator Crapo, 
and others members. It directs EPA to integrate and streamline 
environmental reporting requirements to ensure simplicity and 
consistency in reporting.
    Before I turn to my colleague, the distinguished ranking member 
from Montana, Senator Baucus, I would like to make a few other points:
    Today's hearing might be cut short. The minority has invoked what 
is known as the ``two-hour'' rule. That rule prohibits a Senate 
committee from meeting for more than 2 hours past the time that the 
Senate begins its daily session. I hope that we will be able to 
conclude this hearing by then, but I am not sure that we will. In order 
to help ensure that the committee can hear from all of the witnesses, I 
will not ask questions during my time period. By waiving my time, I 
hope to ensure that we can hear from all of the witnesses, some of whom 
have traveled quite a distance to testify before us today.
    In addition, because of the minority's procedural objection, we 
need to change the order of testimony for the witnesses. Ordinarily, we 
have the representatives of the Federal Government testify after 
hearing from any member or Officer of Congress. Today, however, in 
order to ensure that our witnesses from places such as New Hampshire, 
Idaho, and Minnesota can testify before the committee, we will allow 
them to testify before we hear from the EPA. The Federal witnesses 
therefore will appear on the last panel.

    Senator Crapo. Thank you very much.
    Senator Baucus.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Mr. Chairman, in the interest of time, I 
will have mine inserted in the record, too. I have just a 
couple of points.
    First, there is a fellow here who is very instrumental in 
Montana. His name is Ken Bruzellius. Where is Ken? There he is. 
He is coming up later. I look forward to Ken's statement.
    Second, I am interested in the role of EPA Ombudsman. That 
is basically because a few years ago, a train derailed in 
Alberton, MT, losing tons of chlorine and other chemicals. 
Frankly, we have had a hard time getting documents. I think 
that the Ombudsman is a process which makes some sense.
    Also, even though he is not here, Senator Lautenberg does 
not have many more days remaining in this committee. I was 
going to praise him for his efforts in helping the Superfund, 
the Community Right to Know, and his very keen interest in the 
communities. I will wait until he arrives. There he is. I will 
give a more flowery statement at a later time.
    Senator Crapo. All right, thank you, we have had two other 
Senators join us. I would advise the Senators that we are 
operating under the Two Hour Rule, because of the objection 
that has been made on the floor. Therefore, we have encouraged 
the Senators to shorten their opening statements, if possible, 
but we certainly would give you the opportunity to make one, so 
that we can make time for the witnesses who have traveled a 
long distance.
    Senator Baucus. Do they know what the Two Hour Rule is?
    Senator Crapo. Yes, I explained it to them.
    Senator Baucus. Good.
    Senator Lautenberg. John was a step ahead of me in front of 
the door. Frankly, I do not mind acknowledging seniority.
    Senator Warner. No, no, do not worry about seniority. I 
just want to add my accolades to my distinguished colleague, as 
he winds down another chapter of his career. We are sort of 
contemporaries. We both served in the tail end of World War II, 
and came to the Senate about the same time.
    Senator Lautenberg. I thought I was in Vietnam, were you 
not?
    Senator Warner. I was there as Secretary of the Navy, but 
anyway, not as a soldier.
    You have made great contributions. We have served together, 
particularly, in the highway areas. You have been instrumental 
in TEA-21 and other pieces of legislation.
    We have had our combative hours on the floor, but also I 
have joined him on some of his crusades in terms of, while not 
directly related to this committee, smoking on aircraft. You 
are the man that eliminated that throughout the United States 
of America. There is no question about that.
    Now we take it for granted, and we all accept the improved 
quality of life on our aircraft. But I can remember when that 
was a tough battle to get through the Congress of the United 
States. You have also spearheaded some legislation on alcohol 
and highway, which I have joined you on, I think, most of the 
time.
    So you have left your mark in the Senate, my good friend, 
as you go on to another chapter of another distinguished 
career, whatever it may be.
    Senator Lautenberg. Thank you very kindly.
    Senator Crapo. Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman.
    I would like to just get a little time extension. First, I 
want to thank you, Mr. Chairman, for holding a hearing on these 
bills, especially on the section that we have called the 
Streamlined Environmental Reporting and Pollution Prevention 
Act, which was introduced by Senator Crapo and myself.
    For a moment, I want to just say thanks to those who have 
had nice things to say, particularly my good friend from 
Virginia. We do go back to World War II, even though I think we 
fared fairly well over the long period of time.
    I have enjoyed serving with Senator Warner. We see each 
other on an occasional social moment, and we enjoy that. I am 
going to miss our contact in the future, as I am with all of my 
colleagues, here.
    I have worked closely with Senator Baucus. We have searched 
for lights at night from an airplane over Montana. I am was 
amazed at the paucity of illumination there. But when you do 
not have any people, you do not have many lights.
    Senator Baucus. Amazed is an understatement. You were 
apoplectic.
    [Laughter.]
    Senator Lautenberg. I have been out in the country before. 
I once hiked 5 miles from the city. It was quite a trip.
    [Laughter.]
    Senator Lautenberg. And I have got to say to Senator Smith, 
I looked at that bill on the Everglades. It is a massive piece 
of critical legislation.
    I know that in New Hampshire, it is not the New York Times, 
but is it the Manchester Leader that is the big paper up there; 
but the New York Times was very nice in their article, Mr. 
Chairman, today, and I commend you for it.
    So Senator Crapo, we have been dealing with a couple of 
things. I love your State. I love those streams that I once 
fished for salmon. I think it was a long time ago, but now I 
understand you can get canned salmon easily in the local 
markets.
    [Laughter.]
    Senator Crapo. Unfortunately, it is not salmon reared in 
Idaho. We are looking to improve that.
    Senator Lautenberg. Yes, and I love those mountains, as 
well.
    So I just want to say that EPA has no bigger fan, I do not 
think, in the Senate, than me. I have watched the improvements 
in efficiency and productivity there. I am pleased to note it. 
I think the Administrator, Carol Browner, has done a superb 
job, as well as the heads of the various departments.
    I believe that the quality of life in the United States, 
the health of the public and the environment, and even the 
health of our economy has been increased immeasurably by the 
work of the Environmental Protection Agency.
    The bill that I propose would advance EPA information and 
management reform. It is offered in this spirit of continued 
improvement.
    Further, the bill addresses a problem that largely the 
Congress is making. That is kind of the fragmentation of EPA's 
environmental programs. The intent of EPA's creation, three 
decades ago, was to gather the Federal Government's many 
environmental programs into one agency, to eliminate their 
piecemeal nature.
    However, today, we have at EPA, an air office, a water 
office, a solid waste office, pesticide office, each of which 
do excellent and essential work in their own bailiwick, but do 
not always work together as we would like to see them do.
    One by-product of this piecemeal approach is the additional 
administrative burdens borne by businesses reporting 
environmental information to EPA. For example, a work group 
convened under EPA's common sense initiative discovered that 48 
different EPA reporting and record keeping requirements might 
apply to one given manufacturer.
    But what is the price of requiring a business to find and 
read through 48 complicated requirements, and to find those 
handfuls which apply? There is obviously an economic cost of 
business, but there is also some needless confusion.
    The result of the cost and confusion is, in some cases, 
under-compliance and even inaccurate information. When we 
weaken EPA's information base, we weaken the very foundation of 
sound environmental policy.
    Obviously, nobody wants such a situation, either within EPA 
or outside EPA. EPA, itself, has tried for over 20 years, under 
Republican and Democratic Administrations, to fix this 
fragmentation. If their efforts have fallen short, we in the 
Congress have to take some of the responsibility. After all, 
Congress wrote the air, water, waste, and pesticide laws each 
with its distinct approach, and has rarely examined the intra-
sections.
    My bill will compliment the existing laws. Under it, EPA 
will continue to implement the laws, but present itself to 
industry with one voice. Doing so will not only lighten the 
load for hundreds of thousands of businesses, but it will 
improve environmental information, and with it, environmental 
policy.
    This is a win/win situation, endorsed by business and 
environmental organizations and by EPA, itself. So today we are 
going to hear about some excellent work being done, both by EPA 
and State agencies, on this issue. My bill will ensure that 
this work comes to fruition.
    Mr. Chairman, just as you have graciously granted us this 
hearing, I hope you will give us the opportunity to report this 
bill out of committee, so we can get to its enactment.
    My bill is one of four bills that we are going to be 
discussing today, two of which I have co-sponsored. The other 
bill amends the Solid Waste Disposal Act, which is in the 
jurisdiction of the subcommittee, for which I am the ranking 
member.
    I would like to briefly note that although I remain an 
advocate for giving communities a meaningful voice at all 
hazardous waste sites, there are technical issues which I would 
like to see resolved before we take action on that bill.
    So Mr. Chairman, I will take a moment, and I am talking to 
both the chairman and the chair and the committee chairman, and 
I would like to take another moment to reflect on this last 
time that I participate in a hearing on EPA.
    I am enormously proud to have served on this committee for 
over 18 years. It is a particular honor to have served with 
you, Senator Smith.
    At the risk of repeating some of the things that I said 
earlier today, I say that since becoming chairman of the 
committee, you have demonstrated true leadership qualities. 
While we may not a have agreed on every issue, I think it is 
fair to say you have shown fairness and respect in dealing with 
the many different interests that those of us on this committee 
represent.
    After I am gone, I hope that you will continue the proud 
tradition of New Englanders from your side of the aisle, who 
have led this committee: the late friend of all of us, Senator 
Chafee, and Senator Stafford during my tenure. It was very able 
leadership. I know that they would be proud of the work you are 
doing to continue their legacy.
    So I thank you for this and for your assistance in passing 
the Beach bill. I have been working on that legislation to 
protect our coastal waters for 9 years. Things do not always 
move in a hasty fashion around here. It is wonderful to see it 
finally working, and moving toward enactment.
    There are other things that we have worked on, the members 
of this committee, to protect our environment, cleaning up 
toxic waste sites, Brownfield sites, stopping ocean dumping of 
sewage, sludge, and plastics, and making sure citizens have the 
right to know about what toxic chemicals are in their 
communities, protecting the public health from radon gas, and 
improving transportation in our Nation.
    So I want to thank the members of the staff, both the 
Republican and Democratic side, who worked very hard to advance 
the environmental agenda. Then I talked particularly about the 
folks on my team, Amy Marin, Nicki Roy, Lisa Hagee, and Mitch 
Warren.
    With that, I thank all of you for your indulgence. I 
apologize for having taken those extra minutes. But just think 
about this, you will not have to listen to me again next year.
    [Laughter.]
    [The prepared statement of Senator Lautenberg follows:]
 Statement of Hon. Frank R. Lautenberg, U.S. Senator from the State of 
                               New Jersey
    I would like to thank the chairman for holding a hearing on these 
bills and especially on the Streamlined Environmental Reporting and 
Pollution Prevention Act, introduced by myself and Senator Crapo.
    EPA has no bigger fan in the Senate than me. I believe the quality 
of life in the United States, the health of the public and the 
environment, and even the health of our economy have been increased 
immeasurably by the work of the Environmental Protection Agency.
    My bill, which would advance EPA information management reform, is 
offered in the spirit of continuous improvement. Furthermore, the bill 
addresses a problem that is largely of Congress's making the 
fragmentation of EPA's environmental programs.
    The intent of EPA's creation three decades ago was to gather the 
Federal Government's many environmental programs into one agency to 
eliminate their piecemeal nature. However, today we have at EPA an Air 
Office, a Water Office, a Waste Office, and a Pesticide Office, each of 
which do excellent and essential work in their own bailiwick, but do 
not always work together as well as we wish they would.
    One byproduct of this piecemeal approach is additional 
administrative burden borne by businesses reporting environmental 
information to EPA. For example, a work group convened under EPA's 
Common Sense Initiative discovered that 48 different EPA reporting and 
recordkeeping requirements might apply to one given manufacturer.
    What's the price of requiring a business to find and read through 
48 complicated requirements to find those handful which apply? There's 
obviously an economic cost to the business, but there's also needless 
confusion.
    The result of the cost and confusion is, in some cases, under 
compliance and even, inaccurate information. And when we weaken EPA's 
information base, we weaken the very foundation of sound environmental 
policy.
    Obviously, nobody wants such a situation, either within EPA or 
without. EPA itself has tried for over 20 years, under Republican and 
Democratic Administrations, to fix the fragmentation. If their efforts 
have fallen short, Congress must take some of the responsibility. After 
all, Congress wrote the air, water, waste, and pesticide laws, each 
with its distinct approach, and has rarely examined the intersections.
    My bill will complement the existing laws. Under it, EPA will 
continue to implement the laws, but present itself to industry with one 
voice. Doing so will not only lighten the load for hundreds of 
thousands of businesses, it will improve environmental information, 
and, with it, environmental policy. This is a win-win bill, which is 
endorsed by business and environmental organizations, and by EPA 
itself.
    Today we will hear about excellent work being done by both EPA and 
State agencies on this issue. My bill will ensure that this work comes 
to fruition.
    Mr. Chairman, just as you have graciously granted us this hearing, 
I hope you will also give us the opportunity to report this bill out of 
committee, so we can seek its enactment.
    Mr. Chairman, my bill is one of four bills we will be discussing 
today, two of which I've cosponsored. The other bill amends the Solid 
Waste Disposal Act, which is in the jurisdiction of the subcommittee 
for which I am the ranking member.
    I would like to briefly note that, although I remain an advocate 
for giving communities a meaningful voice at all hazardous waste sites, 
there are some technical issues which I would like to see resolved 
before we take action on the bill.
    Mr. Chairman, I would like to take another moment to reflect on 
what will be the last time I participate in a hearing of the 
Environment and Public Works Committee. I am enormously proud to have 
served on this committee for over 16 years.
    It's been a special honor to have served with you, Mr. Chairman. At 
the risk of repeating some of the things I said at our committee 
meeting last week, I want to say that, since becoming chairman of the 
committee, you have demonstrated true leadership qualities.
    While we may not have agreed on every issue, you have shown 
fairness and respect in dealing with the many different interests that 
those of us on this committee represent. After I am gone I hope that 
you will continue the proud tradition of New Englanders from your side 
of the aisle who have led this committee: the late Senator Chafee and 
Senator Stafford during my tenure.
    I know that they would be very proud of the work you are doing to 
continue their legacies.
    I want to thank you and Senator Baucus for all of your assistance 
in passing the Beach bill. I've been working on this legislation to 
protect our coastal waters for 9 years.
    It's wonderful to see it finally moving toward enactment. There are 
so many other issues I've worked on with the members of this committee 
to protect our environment: cleaning up toxic waste sites, bringing 
brownfields sites back to productive use; stopping ocean dumping of 
sewage sludge and plastics, making sure citizens have the right-to-know 
about what toxic chemicals are in their communities; protecting the 
public health from radon gas; and improving transportation in our 
nation.
    I also want to thank the members of my staff who have worked very 
hard to help advance my environmental agenda: Amy Maron, Nikki Roy, 
Lisa Haage, and Mitch Warren.

    Senator Crapo. Senator, we are not concerned about that. We 
all appreciate your service and the opportunity to work with 
you. I believe Senator Smith wanted to add one more comment.
    Senator Smith. Yes, thank you, Mr. Chairman. I would like 
to say, Senator Lautenberg, we politically probably do not have 
a lot in common, but we were both born in New Jersey. We both 
went to college on the GI bill which, without it, I probably 
would not have been able to go to college, in my case.
    But it has been a pleasure to work with you, over the 
years. I remember, I guess, 3 or 4 years of constant 
negotiations with you on Superfund. It never really came to 
fruition, but it was not for lack of trying and working 
together in a spirit of cooperation and bi-partisanship.
    You do have a great legacy. I respect you for it. I am 
proud of the things that you have accomplished, especially, I 
think, in the area of expansion of parks, refuges, open space. 
You mentioned the Right to Know, as well as the beaches, and 
beaches are very important in New Jersey, as you and I both 
know.
    So, you know, I hate to always say goodbye, but I want to 
say that in a spirit of friendship. It has been a pleasure to 
work with you.
    Senator Lautenberg. Thank you very much.
    Senator Baucus. Mr. Chairman?
    Senator Crapo. Senator Baucus.
    Senator Baucus. I know you are pressed for time for the 
hearing. But I would like to say to everyone in this room and 
in the world, in fact, that anyone who appreciates no smoking 
on an airline, and I dare say that is a good number of people, 
has Senator Lautenberg to thank.
    Senator Lautenberg spearheaded that effort. He was an 
indefatigable champion to get rid of smoke on airlines. He 
started it. He pursued it. He finished it. I think we all owe a 
deep, deep sense of gratitude to the Senator from New Jersey. 
He is the one.
    Another is the Community Right to Know. If there is any 
recent provision in environmental law, that has been a major 
breakthrough to help cleanup the air and the water, 
particularly air, it is the Community Right to Know issue.
    That is where companies have to disclose the pollutants 
that they put out in the air. It is just the mere fact of 
disclosure. That is all it is, the mere fact of closure. It has 
been a major, major, major help in cleaning up the environment.
    Again, that is Senator Lautenberg. That was his idea. He 
pursued it. He pushed it. It is an indication of a guy who (a) 
knows a good idea when he sees one; (b) pushes it; and (c) 
aggressively. I mean, he is no wall flower. He is no shrinking 
violet. He gets the job done.
    There are others, but those are the two that I will always 
remember him by, as long as I live. I think all of us are 
deeply grateful for it.
    Senator Lautenberg. I thank you very much. I was 
anticipating these tie-ups in airplane traffic, and just 
thought how horrible it would be to sit 3 hours before you take 
off, with the pilot fighting with the passengers saying, give 
us a chance to smoke, with the pilot making these life and 
death decisions.
    Senator Smith. Now in your retirement, get to work on some 
of these European Airlines, where they still smoke.
    [Laughter.]
    Senator Lautenberg. They are doing better, Mr. Chairman. In 
many of the countries, I know that you can fly across the 
Pacific or across the Atlantic.
    Senator Baucus. That is right.
    Senator Lautenberg. Competition is what drove them there, 
once people saw how good it was.
    Senator Baucus. That is right. Even on an Air France flight 
recently across the Atlantic, I was amazed.
    Senator Lautenberg. There are some Japan Airlines flights 
that have it. Those people do not want to be drowned in smoke 
any more than we do. They would rather drown you in pates and 
things like that. We do not. I am not going to try to develop 
legislation against those kinds of things, I promise you.
    [Laughter.]
    Senator Crapo. Well, Senator Lautenberg, as one who spends 
about 10 to 12 hours a week on airplanes, I join with the 
millions of American who thank you for that work of yours.
    I would also note that although we come from a different 
political perspective, you and I have found opportunities to 
work together on issues where we find common ground. I was a 
joint sponsor together with you on your S. 2800 today. I think 
we have found some good common ground to improve environmental 
work there.
    Senator Lautenberg. That is absolutely true.
    Senator Crapo. Let us proceed now to the witnesses. To not 
only this panel, but all panelists, I would like to remind you, 
especially today, because we are under such a short timeframe, 
to watch the clock.
    We know that you have a lot more to say than you will have 
time to say in your 5 minutes. We have your written testimony. 
We have reviewed it, and we will review it carefully.
    So we ask you to please watch the clock. The green light 
means you have got time to speak. Yellow means you have got 1 
minute left. When the red light comes on, we ask you if you 
would please wrap up your thoughts at that point, and trust us 
that we will review any items that you have not been able to 
cover.
    With that, let us start with you, Mr. Bisbee.
    Senator Smith. Mr. Chairman, before Mr. Bisbee starts, I 
just want to say to you that today is Dana Bisbee's wedding 
anniversary. He flew all the way down here for this hearing. So 
we want to make sure he gets the opportunity. That is real 
dedication.
    Senator Crapo. Maybe it is appropriate then that he is the 
first witness.
    Senator Smith. Yes.
    Senator Baucus. Did your wife join you?
    Mr. Bisbee. She is not here.
    Senator Crapo. We better cut him loose early.
    Senator Smith. You should wrap up soon and get back home.
    Mr. Bisbee. That is right.
    Senator Crapo. Please proceed.

 STATEMENT OF GEORGE DANA BISBEE, ASSISTANT COMMISSIONER, NEW 
 HAMPSHIRE DEPARTMENT OF ENVIRONMENTAL SERVICES, ON BEHALF OF 
  DATA MANAGEMENT WORKGROUP AND LOCAL GOVERNMENT FORUM OF THE 
              ENVIRONMENTAL COUNCIL OF THE STATES

    Mr. Bisbee. Thank you very much, Mr. Chairman.
    Mr. Chairman and members of the committee, it is a pleasure 
to be here this morning. I do very much appreciate the courtesy 
of putting us out-of-State witnesses on early here.
    If I may, in my small way, Senator Lautenberg, offer my 
thanks and congratulations to you, as well.
    Senator Lautenberg. Thank you.
    Mr. Bisbee. I am here to address three of the four bills 
before you this morning. The bulk of my 5 minutes will be 
devoted to S. 2800, and the remainder of my time will be on the 
two small community assistance bills.
    I am here as the Deputy Commissioner in the State of New 
Hampshire for the Environmental Services Department. I am also 
chair of the Environmental Council of the State's Data 
Management Work Group. I am speaking on behalf of that work 
group this morning on S. 2800, and also on behalf of the Local 
Government Forum at ECOS, the Environmental Council of the 
States, on the two small community bills.
    On S. 2800, I want to say first that we strongly support 
the general concepts and actions that are required by the bill. 
We agree fully with the one stop reporting concept, the 
integrated reporting component of that, the electronic 
reporting component of that, and the consolidated reporting 
aspect to an integrated data reporting scheme.
    We also fully agree with the notion that data standards are 
at the core of any new integrated data system. We believe and 
we trust that the integrated reporting system that S. 2800 
incorporates is consistent with the work that we are doing 
jointly right now, the States with EPA, on developing a 
national environmental information exchange network.
    I do have three general observations and related concerns, 
however, that I would like to address. The first is that while 
this bill is necessarily focused on EPA, and Senator Crapo, you 
made that remark earlier, I believe, there is a significant 
State role in this whole data management arena.
    The States are very active in data management. Roughly 
speaking, the States provide roughly 94 percent of the data 
that is maintained in the national data bases at EPA.
    The States have made a significant investment in IT 
infrastructure. It is essential that this bill not undermine 
the State role in any way in the data management arena, and 
that it also be flexible enough to accommodate the different 
infrastructure needs that the States have. We should not 
mandate a one-size-fits-all approach in this bill.
    The second point I wish to make is that it is important to 
the States that S. 2800 fully support the notion of the 
partnership that has developed between the States and EPA in 
recent years in the data management area.
    We really have developed an effective working relationship. 
We formalized it some 3 years ago with the creation of a joint 
work group between the States and EPA on information 
management. We have already created a Data Standards Council, 
and that council is hard at work now in developing 
environmental data standards.
    We also are jointly engaged right now in the design and 
development of this national environmental information exchange 
network, that we believe is consistent with the integrated 
reporting system that S. 2800 provides for.
    The concern we have is that we make sure that nothing in S. 
2800 inadvertently is inconsistent with the network approach 
that we are jointly developing by either creating an 
unnecessary hurdle in the creation of this network, or in 
delaying it. We want to make sure that any of the language in 
S. 2800 does not provide for any unintended consequences in 
that regard.
    The last point on S. 2800 is the simple question of 
resources. I just want to say that there is a significant 
initial investment required to do what we are doing. There are 
State infrastructure needs that have to be addressed. There are 
EPA internal capacity needs that have to be addressed. There is 
joint development work with the States and EPA, and the tribes 
are included, that needs to be supported as well.
    We strongly encourage this committee to authorize the 
funding to make this happen.
    If I may use the remainder of my time, Mr. Chairman, to 
address the two small community assistance bill. On behalf of 
the Local Government Forum at ECOS, let me simply say that we 
support the general concepts and the underlying principles in 
both S. 1915 and S. 2296.
    It's importance to our small communities we see first-hand. 
It is important that they have a strong role in the development 
of regulatory programs. EPA is making progress in this area, 
and we believe that S. 1915 should enhance that effort.
    Furthermore, on the funding side, in S. 2296, while we are 
concerned that the other current funding programs that are in 
place--most particularly the SRFs, the State revolving fund 
programs are not undermined--we believe that targeted 
assistance for the smallest of our communities does make sense. 
We are supportive of that notion.
    Thank you very much, Mr. Chairman.
    Senator Crapo. Thank you very much, Mr. Bisbee.
    Mr. Baumann.

 STATEMENT OF JEREMIAH BAUMANN, ENVIRONMENTAL HEALTH ADVOCATE, 
              U.S. PUBLIC INTEREST RESEARCH GROUP

    Mr. Baumann. Thank you, Mr. Chairman and Mr. Lautenberg. It 
is an honor to be here to testify in support of two bills, 
today, the Ombudsman Reauthorization bill and the Streamlined 
Environmental Reporting bill.
    First, let me introduce myself. My name is Jeremiah 
Baumann. I am an environmental health advocate for U.S. PIRG, 
which is the National Advocacy Office for the State Public 
Interest Research Groups, a nationwide network of public 
interest advocacy organizations, active on issues including 
health care, environmental protection, and consumer protection.
    We welcome the opportunity to testify in support of these 
two bills. I have submitted comprehensive testimony, but would 
like to just take a few minutes to briefly comment on the two 
bills, and what we see as the public interest priorities, as 
these reforms are made.
    First, I will discuss S. 2800, the streamlined 
Environmental Reporting and Pollution Prevention Act, 
introduced by Senators Lautenberg and Crapo.
    U.S. PIRG supports this bill as an essential reform at EPA 
that makes some very critical improvements in EPA's information 
systems. It addresses one specific long-standing problem at 
EPA, which is that the agency collects an enormous wealth of 
information, over the course of years, or in some cases multi-
year cycles, but various pieces and types of information are 
collected by different programs and different offices at EPA, 
held by different programs and offices at EPA.
    Those parties who do the reporting often are reporting at 
different times of the year, resulting in some pieces of 
information, or similar pieces of information, being held more 
than once, and some critical pieces of information not being 
held at all.
    This bill could not only address that problem and directly 
improve EPA's environmental information management, but by 
doing so, would actually improve EPA's work in protecting the 
environment, specifically by encouraging providing 
opportunities for facilities and States to promote pollution 
prevention.
    One way that it does this is simply by consolidating these 
reporting requirements into one system, it would give those 
reporting, whether it is facilities or States, the opportunity 
to view all of that information at one time, which is critical 
to assessing their own environmental impacts, and then 
identifying ways that they can reduce their environmental 
impacts.
    This bill, however, even goes a step further by providing 
those people, providing EPA with information, the information 
for the facility or the State to use on pollution prevention 
opportunities. So the reporting party can both see their 
environmental impacts, and identify their own ways of reducing 
their pollution, but then also is provided with additional 
information from the agency on how to reduce that pollution 
through pollution prevention.
    The bill would also, we believe, encourage pollution 
prevention, simply by making it easier to report more 
accurately and more consistently. Reporting all information 
through one system and one point of contact would make it 
easier to identify and correct errors before the data is even 
submitted to EPA, which would inherently increase data 
accuracy.
    It would also make it easier for facilities and States to 
increase compliance, simply by reducing the confusion created 
by a myriad of reporting requirements at EPA. All of these 
things would lead to better policymaking by EPA for the long 
term.
    Our one concern about this bill is that by not requiring 
reporting parties to use the system, and by allowing EPA to 
establish different methods of providing that information, it 
could create problems of data consistency and data 
comparability. We think these problems are very easy to avoid.
    The major problem would be that if some parties are using 
the system and others are not using the system, EPA or the 
legislation needs to take strong steps to ensure that the data 
will be consistent and will be comparable, which could be as 
simple as allowing facilities who chose not to use an 
electronic reporting system to use the same integrated 
reporting system, but in paper format, so that information 
could easily be integrated with the larger data system.
    My final thought is, as many of you are familiar with, U.S. 
PIRG and the State PIRGs have long advocated for improving 
EPA's information resources by increasing information collected 
by EPA, filling in gaps in EPA's information resources.
    This bill does not do that but, instead, improves EPA's 
information, simply by making it easier to report, by making 
reporting more efficient, and without adding any new reporting 
requirements.
    We see this bill, however, as a much needed reform that we 
strongly support, and hope it is enacted into law before the 
Congress leaves.
    I will comment just very briefly on the Ombudsman 
Reauthorization Act of 1999. The most important aspect of this 
bill is its most basic act, simply reauthorizing the Office of 
the Ombudsman, who provides an important service to communities 
around the country, affected by problems of hazardous waste, 
and who sometimes do not feel their concerns are appropriately 
addressed by EPA.
    Senator Allard mentioned some of the major concerns, both 
in getting EPA's attention, and having the concerns addressed; 
and then, also, in EPA's interactions with the Ombudsman.
    We fully support extending the Ombudsman's independence and 
authority in compliance with the American Bar Association's 
model Ombudsman statute.
    A couple of recommendations would be to consider adopting 
those reforms, especially in this legislation, rather than 
requiring the administrator to consider it, or to adopt the 
reforms to the best of her ability, to ensure that all of the 
Ombudsmen are publicly available; all the Ombudsmen's findings 
and recommendations are publicly available; and then in order 
to avoid having the Ombudsmen become entangled in turf battles 
or political wrangling, to ensure that Ombudsmen's mission is 
the same as the EPA's mission, which is to protect human health 
and the environment.
    Thank you very much.
    Senator Crapo. Thank you.
    Senator Smith would like to make a very quick announcement.
    Senator Smith. We had planned to have a business meeting 
off the floor, during this vote, in order to pass out the bills 
that we had the meeting on last week. We were unable to do it, 
because we did not have enough members.
    I am going to cancel that or postpone that meeting for the 
benefit of members and staffs, so that I can go down and vote, 
come back, and then Senator Crapo can stay. Then he can leave. 
That way, it is at a deference to the witnesses and the time 
constraints we are in. So we will postpone that meeting. I will 
go ahead and go down and vote. You can go when I get back.
    Senator Lautenberg. Then, Senator Crapo, may I just ask a 
couple of questions here while Senator Smith goes to vote, and 
we will kind of sequence this?
    Senator Crapo. Yes, I was going to withhold any of my 
questions. If you have a few questions, we would be glad to do 
so.
    Senator Lautenberg. I have just a couple of quick ones, I 
promise. I thank each of the witnesses, Mr. Bisbee and Mr. 
Baumann, for your comments.
    I think we are on the right track, as evidenced by your 
testimony. The fact is, Mr. Bisbee, some of the questions you 
raise, I think, some are already taken care of, I believe, and 
a review of the bill would help establish that. If not, we 
would look forward to working with you, to try and get it done.
    In terms of the funding, the resources, and you mentioned 
that in your commentary, as well, there is a request for some 
$30 million to get this done.
    I would ask each of you, in short form, what would be the 
effect, because we do not have it provided on the House side, 
of not providing the financial resources? What do you think the 
result might be if we did not?
    Mr. Bisbee. If I may address that first, we are talking 
about an area of technology that is changing so rapidly that 
the concept is to take advantage of it as soon as possible.
    My personal view is the time is ripe and the time is right 
to invest in this technology to make happen what we know the 
technology will allow.
    The harm that will come from delayed funding or no funding 
is a longer time for us to be able to put in place the kinds of 
data reporting processes that we feel can work, and will be a 
tremendous improvement over what the current system is.
    Mr. Baumann. I would only add that EPA has had information 
reform and integration and electronic reporting on its agenda 
for several years now. After several years of working with the 
Agency, most of those reforms have not actually come about.
    As a result, in response to many industry requests for 
burden reductions, EPA has been forced to respond reactively 
with proposals to cut important information requirements and 
other vital public interest information resources.
    We feel this is a great proactive approach to reducing the 
burden, and it would make reporting more efficient. Having the 
necessary funding to enact these reforms immediately is crucial 
to prioritizing this at the agency.
    Senator Lautenberg. I think timing in this case is really 
critical. If we are agreed that this has value, that we want to 
get to kind of a one stop approach, then we ought to get on 
with it. Delaying it, for whatever the reason, does not help 
anything or anybody.
    I think that when we have an opportunity to bring business 
and the environment community and citizens generally together, 
I think that is the time that you move on these. I am hopeful 
that we can get the funding done.
    I had one other question, and the chairman mentioned this 
also, I think. That is whether or not there has to be a degree 
of conformity to the reporting structures. Why could we not, as 
we go through this, establish a relatively common format, to 
get the data moving in and out? Do you think that would be a 
serious problem?
    I come out of the computer business. The problem is that it 
was 18 years ago. I am still considered a pioneer, but I do not 
know in what.
    [Laughter.]
    Senator Lautenberg. Our experience goes back to the 
earliest 1950's, and uniformity was always a problem, in 
companies that operated in all the States and several countries 
around the world, besides ours.
    Do you not think that a good effort could be made to reduce 
the differences, without imposing too heavy a hand in there, to 
make sure we get the information that we want?
    Mr. Bisbee. Again, I will be happy to address that, first. 
I do agree with you. There is an absolute need for consistency. 
The data standards are at the heart of that effort.
    By creating data standards that are adopted by those 
reporting parties who participate in the system and in the 
network, that will allow for the integration of the data, and 
the usability of the information across Government lines, State 
to Federal, and across State lines, as well. That is really 
driving our efforts here.
    So on one hand, there is very much a strong need for the 
underlying creation of data standards to allow for the 
integration to occur.
    There is work being engaged in right now, Senator, along 
those lines. A tremendous amount of work is happening within 
Government. It parallels work that is happening in the e-
commerce arena, outside of Government. Our effort is to take 
advantage of what is being learned in e-commerce and apply it 
to Government.
    So, yes, there is definitely a need for this type of 
standardization. I would not call it, necessarily, uniformity. 
It is happening. It can happen. It relates to the resource 
question, as well, with an infusion of additional resources for 
the States and EPA. That effort can be hastened significantly.
    But I do want to mention, too, that we are talking about 
standardization of the tools needed to transfer the information 
and integrate the information. That is different from 
uniformity in the underlying data bases that the States have.
    There has to be flexibility to allow for different kinds of 
platforms at the State level, so that we do not mandate a 
particular type of system at every State. That is unlikely to 
work as a practical matter, and it does not need to happen, 
because the technology will allow for that type of flexibility.
    Senator Lautenberg. I agree.
    Do you have any comment on that, Mr. Baumann?
    Mr. Baumann. I would just add that the consistency of data 
standard performance is one of the most important aspects of 
this kind of integration. I think especially between States and 
EPA making data more comparable and more consistent, it is 
crucial, especially in issues raised by the Ombudsman 
Reauthorization bill, making EPA and State agencies more 
accessible to citizens at the local level.
    Senator Lautenberg. I agree. I think that we can continue 
to allow the States to maintain their own data bases, as they 
see fit, but there has to be some commonality, some formatting 
that is consistent, so that you can patch the information with 
ease and reliability.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much, Senator.
    As I indicated, I will withhold my questions, so we can 
move to the next panel. I did want to say something, however, 
with regard to the comments provided by both of you.
    Mr. Bisbee, I am the main sponsor of the Project SEARCH 
legislation. I appreciate the support that you indicated for 
it. You did raise the question of wanting to be sure that the 
money was not diverted from other funds that are also helpful 
to the States. Certainly, that is not the intent of the 
legislation.
    It would be my intent that that legislation would not only 
authorize the additional funding for the small communities, but 
that that funding be additional funding, so that we can 
continue strengthening these communities. So your point is well 
taken. I appreciate your support and your comments.
    Mr. Baumann, you made a comment that I wanted to follow-up 
on quickly. In fact, I might break my rule and ask you a real 
short question.
    You said that you supported the Ombudsman legislation, but 
that you thought that maybe an improvement could be made by 
having us, in the legislation, adopt the ABA standards. Did I 
understand you correctly, there?
    Mr. Baumann. Yes.
    Senator Crapo. I like that suggestion. The question I had 
was, do you believe that the legislation, as it is written 
right now, does not assure that the EPA has to adopt those 
standards?
    Mr. Baumann. We believe that by directing the Administrator 
to adopt them to the maximum extent possible, given the 
inherent conflicts that the Ombudsman is intended to 
investigate the agency and the Administrator, it would probably 
make more sense for a third party, i.e., this committee or 
Congress, to legislate those standards, and especially to adopt 
those to the office, seems most appropriate.
    Senator Crapo. You know, I think that is a very good 
comment on the legislation, because to the maximum extent 
possible still leaves the potential that they could be adjusted 
somewhat in ways that the conflict you identified could become 
expressed. I do not think that would be appropriate.
    So I appreciate that suggestion. It is one that I will 
encourage the committee to consider. With that, thank you very 
much, both of you, and we would excuse this panel at this time.
    Senator Lautenberg, I intend to stay here until Senator 
Smith comes back, if possible. I know that we are getting close 
to the late time on the vote.
    Senator Lautenberg. No, we are still going.
    Senator Crapo. We will hang in there.
    We will call up the next panel now. The panel is identified 
as Panel IV: Ms. Deborah Sanchez, the co-founder and 
administrator of the Overland Neighborhood Environmental Watch; 
Mr. Ken Bruzellius, executive director of the Midwest 
Assistance Program from Minnesota; Mr. B. Roy Prescott, 
chairman of the Jerome County Board of Commissioners, from my 
home State, Idaho; and Mr. Ben Cooper, senior vice president of 
Government Affairs of Printing Industries of American, from 
here in Alexandria, VA.
    We welcome all of you to the panel. You have heard all of 
the instructions so far. I would just again remind you to 
please try to watch the clock, so that we will make it through.
    It is possible that if the chairman is delayed, we may have 
to delay the hearing for just a few moments until he gets back, 
while we run over to vote.
    Senator Lautenberg. I would like to hear the full 
testimony.
    Senator Crapo. Yes, hopefully, we will be able to make it 
through. So without any further delay, we will begin in the 
order that you were announced.
    Ms. Sanchez.

       STATEMENT OF DEBORAH SPAAR SANCHEZ, COFOUNDER AND 
    ADMINISTRATOR, OVERLAND NEIGHBORHOOD ENVIRONMENTAL WATCH

    Ms. Sanchez. My name is Deborah Spaar Sanchez. I live 500 
West Jewell Avenue in Denver, CO, approximately 300 yards from 
the Shattuck Chemical Superfund site, a toxic radioactive waste 
dump. I am a founding member of Overland Neighborhood 
Environmental Watch, a community organization of concerned 
citizens.
    I am honored that you have invited me to speak today. I am 
also honored to be representing my community, and am grateful 
that they have funded my trip here.
    I also want to honor the work of this committee, of 
industry, of EPA, and of the citizens of this country, for 
doing what I believe to be the sacred work of restoring to 
wholeness and protecting the life-giving systems of this earth 
and this Nation.
    I will do my best to tell my own and my community's story 
in the time I have been given, but if you have questions, 
please call me. If I cannot answer them, I will put you in 
touch with those who can.
    I have come to voice my strong support for Senate bill 
1763, the EPA Ombudsman Reauthorization Act. I am convinced 
that continued funding and independence of the EPA Ombudsman 
Office is the only way to ensure that citizens and communities 
across our country have a voice in the Superfund process, and 
in decisions which directly affect them, their families, and 
the environment.
    I have also come to share my thoughts with you about my 
community's experience with EPA National Ombudsman, Robert 
Martin. By the time Senator Allard had asked EPA Ombudsman 
Martin to help our community in early 1999, I personally had 
been in a war with Region 8, EPA, for 12 years.
    I had been given misinformation. The EPA FOIA officer wrote 
me a letter in response to a request that I made in 1987 
telling me that there were no national priority list sites in 
my zip code, when, in fact, Shattuck had the same zip code as 
me, and had been placed on this list 5 to 7 years before.
    Mistakes had been made, and there was no interest in 
correcting them. When I pointed out that a flood plain map used 
to determine that the site was not in danger of flooding, 
actually showed water running uphill, EPA seemed unconcerned 
and did not offer any further explanation, even though the 
community asked for new research to be done.
    There were constant contradictions in the information being 
given to my community. At one point, the EPA project manager 
told us at a meeting not to eat the fruits and vegetables from 
our gardens, and then without doing further research, later 
told us that it was OK to eat them.
    Our State Health Department and the EPA sent us a proposed 
plan with a preferred remedy to excavate and remove, and we 
were told that this was the only remedy which would ensure the 
health and safety of our community.
    Then, after closed meetings with EPA, State Health, and the 
PRP, a ROD was signed, ordering the company to treat and bury 
the radioactive soil in our neighborhood. They did this without 
coming back to our community to tell us that they had changed 
their minds.
    When we asked to see the documents and records of the 
meetings that would explain to us why they changed their minds, 
we found that the documents had now been classified and were 
being kept from public scrutiny.
    I was suspicious. I was exhausted. My husband had died 
suddenly of a heart attack the year before, and I was living 
with unspeakable fears that the health problems my son, Lucas 
have, were as a result of radium contamination.
    I felt assaulted by the Government that I had been raised 
to trust. I had become like a citizen in one of those other 
countries where people can never relax. They go to bed at 
night, fearing that, at any moment, their Government will make 
a decision which will put them and their families in harm's 
way.
    I did not feel seen. I did not once feel heard. I felt 
completely disregarded, as if I were invisible. I wanted to 
take my son and move out of the beautiful, passive solar home 
my late husband had designed and built for us, but even that 
thought brought fear. I could not think of trying to sell our 
home without disclosing to a buyer that somehow our Government 
had allowed a powerful company to bury radioactive toxic waste 
in the middle of our lovely neighborhood.
    My next fear was that I might not be able to find a new 
home that was not also potentially contaminated by some other 
toxic waste. I could ask, like I did last time, but since I had 
received misinformation before I could not trust that I would 
not receive more misinformation.
    The EPA Ombudsman first got involved in this issue 
approximately 10 years after the community began dealing with 
it. The first thing that he did was to listen to us. He and his 
small staff came and they listened. They placed no 
restrictions, no time limits, no agendas on their listening.
    Bob Martin, the EPA Ombudsman, listened and listened. He 
listened to our pain. He listened to our anger. He listened to 
our fears. He listened to our frustration, and he listened to 
our disillusionment with our Government and with the EPA.
    He also listened to our good ideas, and to the wisdom we 
shared about our own community, and what we knew about our own 
environment; wisdom seldom tapped into by the EPA, because the 
system has been structured to exclude community input. Instead, 
it places EPA technical scientists, addressing most of the 
concerns of the money-oriented businesses, responsible for the 
pollution or responsible for cleaning it up.
    He listened with respect and he listened to us for as long 
as we wanted to talk. Then he promised to uncover the facts for 
us.
    He began to meet with EPA Region 8 staff, and began working 
with Senator Allard and this very Senate committee to release 
the many documents which had been hidden from us. He then began 
planning and scheduling public hearings.
    It was not until Mr. Martin's office, Senator Allard, and 
other elected officials convened public hearings in the 
community with the press present that I finally felt true 
democracy was taking place, and I was able to regain at least a 
little of the faith that I had lost in my Government.
    Involving the community from the beginning of the process, 
and actually listening to our suggestions would bring wisdom to 
the Government process from the governed, which would not only 
be good for all concerned from a spiritual and democratic 
perspective, but also from a monetary and a practical one. When 
problems arise and mistakes are made, and even when mistakes 
are covered up, because covering up mistakes and making them 
are human, it is only by exposing them to the light of day that 
we have any hope in correcting them.
    The independent Ombudsman process is crucial for exposing 
the truth to the light of day for the citizens of this Nation. 
Knowing the truth is the only way that we can remain free and 
truly self-governed.
    Thank you, Mr. Chairman and members of this committee. I 
will be happy to answer any questions that you may have of me.
    Senator Smith [assuming the chair]. Thank you for your 
testimony, Ms. Sanchez.
    Mr. Bruzellius.

   STATEMENT OF KEN BRUZELLIUS, EXECUTIVE DIRECTOR, MIDWEST 
                       ASSISTANCE PROGRAM

    Mr. Bruzellius. Mr. Chairman and members of the committee, 
it is my pleasure to be here to speak on behalf of Senate bill 
1915, the Small Community Assistant Act of 1999.
    My name is Kenneth Bruzellius, New Prage, MN. I am the 
executive director of the Midwest Assistance Program, which is 
non-profit that provides technical assistance to very small 
communities in the Midwest.
    I have also been a member of the EPA Small Town Task Force, 
and more recently, the Small Community Advisory Subcommittee of 
the local government advisory committee.
    I want to express my appreciation to Senator Jeffords for 
initiating this legislation. I would speak in support of it, 
not on my own behalf only, but also a coalition of local 
officials and other grassroots organizations.
    Establishing a Small Community Advisory Committee as a 
permanent committee, instead of a temporary subcommittee is 
extremely important. Small communities represent an 
overwhelming percent of local governments, over 26,000. 
Additionally, unincorporated communities, subject to EPA 
regulation, would be heard and benefit from the Small Community 
Advisory Committee.
    It is important that these stakeholders have a direct voice 
to EPA decisionmakers without the filter of a committee 
dominated by larger cities and metropolitan areas. This message 
came out loud and clear in the Small Town Task Force Report. It 
has come out loud and clear in the current Small Community 
Subcommittee. The report of the Small Town Task Force and the 
Subcommittee both go along with the requirements of the Act.
    Basically, what it says is, we need environmental 
protection. We need to understand how new regulations will 
accomplish that. We need input so that when regulations are 
promulgated, they are appropriate to our situation. We need 
advice and technical assistance in how to implement, and we 
need access to resources.
    I want to commend EPA staff for their seriousness and 
commitment that I have seen in their pursuit of their 
responsibilities. It is because of this commitment that I am a 
little discouraged that they are not willing to offer to small 
community officials an opportunity to express their similar 
commitment to fully participating in the job of protecting the 
environment and public health.
    Creating a permanent Small Community Advisory Committee 
with the objectives stated in S. 1915 is a small but extremely 
important mechanism toward offering small community officials 
this opportunity.
    S. 1915 would establish the advisory committee. It would 
also allow for representation from Federal, State and public 
interests. It would seek to improve the working relationship 
between the Agency and small communities.
    It would provide for early involvement in the development 
of environmental regulations. It would report its activities to 
Congress, and it would assist the EPA Administrator in other 
important matters.
    Now I would ask, who could reasonably deny small community 
officials this opportunity to show their commitment to helping 
themselves and their neighbors to meet essential environmental 
responsibilities?
    Besides that, S. 1915 offers EPA an opportunity to better 
understand small communities. Section 8, the survey of small 
communities, identifies relevant information needs that, if 
appropriately collected and compiled, would enable EPA and the 
Congress to improve environmental services and quality of life 
in small town America.
    I would like to also speak to the Ombudsman provision of 
the Act. The concept of Ombudsman was stated in the Step 
legislation of 1992, requiring EPA to create such, and they did 
not do so. The Small Town Task Force has also encouraged that 
in its report. It has not been done.
    The Small Community Advisory Subcommittee is currently 
working on that issue. In fact, the recommendation has gone to 
the Administrator. We think the best hope of having that happen 
is for Congress to enact S. 1915, that would require Ombudsman 
for small communities, just as they have for small business and 
for Superfund.
    I see my time is up. Thank you very much for your time.
    Senator Smith. Thank you, Mr. Bruzellius. Unfortunately, we 
are under these time constraints; otherwise, I could let you go 
a little bit longer. As you know, we have to stop at 11:30.
    Mr. Prescott.

 STATEMENT OF B. ROY PRESCOTT, CHAIRMAN, JEROME COUNTY, IDAHO, 
                     BOARD OF COMMISSIONERS

    Mr. Prescott. Thank you. Mr. Chairman, it is a privilege to 
be here today. I am Roy Prescott. I am the chairman of the 
Board of Commissioners in Jerome, ID.
    I apologize for my attire this morning. I was assured that 
as I left Boise, ID, yesterday afternoon that I and my clothes 
that I had packed were all on the craft. I have consequently 
been assured that Northwest is shepherding, at some point. I 
hope that that wardrobe is as well fitted as I am at this time. 
I do apologize for that.
    [Laughter.]
    Senator Smith. Well, I think you have set a standard that 
makes us all jealous.
    [Laughter.]
    Mr. Prescott. I am quite certain that if Senator Lautenberg 
can talk about smoking in aircraft, certainly he can do 
something. So there is work ahead for him in the next 3 months.
    Senator Smith. That has happened to me several times. My 
attitude on it is, go out and buy a brand new suit and bill the 
airlines.
    [Laughter.]
    Mr. Prescott. I will use you as the resource.
    [Laughter.]
    Mr. Prescott. I am here this morning to give a brief 
insight and the implementation benefits of S. 2296. I would 
suggest to you this morning, Senator, that I represent, in 
fact, a great part of those commissioned, which are part of 
each and all those States, which are on this commission.
    We look at the small communities, of which there are over 
26,000 of them in this Nation, and what qualifies for small 
communities. They are a population of 2,500 or less.
    I would like to talk about 2296, the bill that would 
establish Project SEARCH, the Special Environmental Assistance 
for Regulation of Communities and Habitat Programs, funded 
through the Environmental Protection Agency for small 
communities under that 2,500 people.
    Rural Idaho communities are facing many of the same 
environmental challenges seen throughout the United States, 
including the protection of groundwater, the disposal of 
wastewater, protection of critical habitat and many others.
    Yet, these small communities often find themselves without 
the financial resources to undertake the size and scope of 
projects necessary to respond to environmental challenges.
    In answer to their call for help in meeting environmental 
regulations and providing for livability, several communities 
in Idaho prevailed on Congress to provide funding through a 
project SEARCH demonstration project this last year.
    Our focus was to use these funds to help small rural 
communities solve their environmental problems. We targeted 
these communities because they were generally with small 
operating budgets, only part-time staff, and lacked financial 
reserves so critical to being competitive in the normal public 
sector for the grant process.
    The 1999 initial grant of $1.3 million from EPA went to a 
local non-profit. This regional planning association, the 
Region 4 Development Association, has considerable expertise 
with the grant process in helping small communities.
    The association created a simple grant application that 
part-time city officials or mayors could complete. A notice of 
the grant program availability and the application was sent to 
all Idaho counties, and to all cities in the State with 
populations of less than 2,500.
    To review the applicants and ensure a fair, locally-driven 
process, a seven-member citizen advisory committee was formed. 
The committee was comprised of one representative appointed by 
the local board of each of Idaho's six economic development 
planning regions, and one person who brought to the group his 
experience as a small town mayor, and to the EPA Small Town 
Task Force. This individual served as the committee's chair.
    These seven individuals, of which I was one, reviewed the 
applicants, and made the funding decisions. Of the 47 
applications received, we were able to fund only 21. The funded 
applications ranged from as low as $9,000 for facility plans so 
that the housing authority could resolve its wastewater 
problems, to a high of $319,000 for part of the funding needed 
for construction of a wastewater treatment facility, a very 
sensitive environmental area.
    The project that we funded close to my home involved a 
community of 150. I might give you a little personal background 
on that area. In a population of 150, my folks met there, 
romanced, and married, teaching in a school that is still 
presently used, with no major additions or any kind of rehab, 
59 years ago. That gives you an idea and a favor of that 
community.
    This 150 were attempting to install their first wastewater 
treatment system using the community residents for the needed 
labor. This self-help project had been struggling for a couple 
of years with pipe stockpiled on the ground, and no financial 
resources to finance a section of dangerous trenching that no 
volunteer felt safe or capable to complete.
    Project SEARCH funds enabled this community to complete 
this aspect of the project and focused on getting the remainder 
of the sewer system completed. These people in this community 
will hook on this fall; where if Project SEARCH were not an 
assistance, this project would still be years away from 
completion.
    Implementation of Project SEARCH was not without its tense 
moments. In our community, the local water and sewer district 
was awarded a $20,000 SEARCH grant for planning a study to 
determine the feasibility of installing a state-of-the-art 
waste treatment facility, coupled with the tours and recreation 
development association, a non-profit tourism and recreation 
group, we received a separate grant, planning through EPA's 
SCAS, the Small Community Advisory Subcommittee.
    This has the potential to result in development of a major 
eco-tourism park in our community, as well as protecting the 
point source of the drinking water source for neighboring 
community. These two groups will provide written testimony 
concerning this important success story.
    The Project SEARCH concept provides the flexibility of 
needed public infrastructure and grant programs. It has to be 
implemented.
    To typify, I think, and to top off what we are trying to 
say here, when Senator Crapo announced those which would 
receive the funds, a mayor from a small town, Idaho City, less 
than 100, stated, ``To you, this might not represent much in 
the form of the dollars that you have to work to. But with us, 
it is an absolute Godsend.'' I think that typifies what the 
issue is.
    We would encourage you to support it, in any way that you 
can. It is the only means that small communities under 2,500 
have really to realistically look at the problems that they 
have to resolve.
    Thank you.
    Senator Smith. Thank you, Mr. Prescott.
    Mr. Cooper.

 STATEMENT OF BEN COOPER, SENIOR VICE PRESIDENT OF GOVERNMENT 
            AFFAIRS, PRINTING INDUSTRIES OF AMERICA

    Mr. Cooper. Thank you, Mr. Chairman. I appreciate this 
opportunity to appear before you in support of S. 2800, the 
Streamlined Environmental Reporting and Pollution Prevention 
Act of 2000.
    S. 2800 is important legislation. It is important for 
today, but it may have greater value, as the impact of Federal 
environmental regulations is extended to smaller and smaller 
companies.
    For smaller companies, reporting can be a complex and 
sometimes error-prone process. These companies often lack the 
tools and experience to provide the information. Often small 
companies have to rely on suppliers or material safety data 
sheets to determine the volatility or toxicity of a chemical.
    The level of complexity is also a factor in the rate of 
error. The more complex the reporting requirement, the greater 
the chance of error.
    S. 2800 could provide significant help in reducing the time 
required to file. If the reporting is consolidated into fewer 
reports, it is possible that the rate of error will be reduced, 
simply by minimizing the time required to fill out forms.
    In terms of reporting burden, it is not unusual for a 
printing company to file quarterly, semi-annual, as well as 
annual, emission reports. A printer may also have to file an 
additional State emission statement, with a different format 
and data element presentation requirement to a different branch 
of the same media program.
    Some air programs, such as title 5, can also require 
additional annual reports, when mandatory annual training is 
completed. These various annual reports have different 
deadlines.
    These companies must also account for any significant 
changes. The purchase of a new press, or an expansion of the 
facility triggers other series of reports, including new 
permitting, new source review, and more.
    Frankly, we do not believe that Congress considered the 
purchase of new equipment in a small business as an event 
triggering new source review, but that is where we are today.
    In light of these concerns, we think S. 2800 provides an 
opening to some genuine reporting reform. For a smaller 
printing company, the most accurate reporting is by inventory 
or use of input materials, not outputs, such as emissions, 
effluence, and waste generation.
    Companies buy a certain quantity of ink, solvents, and 
other chemicals. The process of accounting for these chemicals 
provides information about emissions and waste. Additionally, 
inventory accounting may also indicate areas where changes can 
be made to reduce or eliminate problems. Inventory accounting 
can also be more accurate.
    Another benefit of consolidated reporting is to improve 
EPA's inventory of pollutant loadings. One of the ongoing 
disputes that we have with EPA is the emissions inventory. EPA 
determines the emissions inventory and the emissions of 
particular industries through emissions factors.
    These factors are not changed often enough to account for 
new technology. Since printing and other manufacturers have 
been through a technology revolution in the past decade, old 
data is worthless data.
    It is my opinion that the challenge that is facing EPA is 
not a lack of desire to make the change. Instead, the lack of 
success may be due to the statutory ``balkanization'' of EPA 
into media programs.
    Each of these programs has developed data that is important 
to the individual program. There is almost certainly a level of 
concern about a proposal such as this that would consolidate 
such data into a single point, since data is a form of power.
    One question about this legislation is, why is it 
necessary? Experience tells us if we want consolidated 
reporting, it will be necessary to legislate it. It is our hope 
that the legislation goes where EPA would go, anyway.
    Would EPA accomplish the same goal, absent legislation? For 
some of the reasons stated above, we do not believe so. EPA's 
priority is the environment. From the environmental community 
side, that means enforcement. From the business side, that 
means communication and regulatory efficiency.
    Enforcement tends to win this battle. However, at some 
point, every constituent of EPA must realize that improvements 
in data gathering also help improve the environment. Better 
communications help. Regulatory flexibility can also help.
    The primary benefit of consolidated reporting is that fewer 
man hours will be spent reporting data to the Government, and 
fewer hours will be spent by the Agency in processing the data, 
once it is received.
    However, there are other benefits that have environmental 
significance. Consolidated reporting has the additional benefit 
of giving the business the opportunity to look at a larger 
picture of chemical use. Small companies are able to manage the 
entire company at once. Likewise, if chemical data and use is 
managed as a whole, problems and opportunities become more 
evident.
    If the report only addresses air emissions, the use of a 
specific chemical may not be in sufficient quantities to pass a 
reporting threshold. However, if that same chemical causes TRI 
reporting, a waste restriction or a discharge limit, the 
business may also be able to see that through consolidated 
reporting. In effect, consolidated reporting presents an 
opportunity for pollution prevention by highlighting emissions, 
effluents, and waste as whole, and not in parts.
    While we think EPA has done a good job at improving its 
communication with the regulated community, it has not 
succeeded in reducing the reporting burden. We cannot find a 
single example of a company that has had its actual reporting 
burden reduced through EPA's One Stop Reporting Program, for 
example.
    If this legislation will produce results, it is worth the 
effort to pass it. We urge your support and prompt action on S. 
2800.
    Thank you.
    Senator Smith. Thank you very much, Mr. Cooper.
    Senator Lautenberg, do you have any questions for this 
panel. I would remind you, we have to stop at 11:30.
    Senator Lautenberg. OK.
    Senator Smith. We have one more panel.
    Senator Lautenberg. I will be brief, Mr. Chairman.
    I am pleased to have the support for S. 2800 that we have. 
When it comes from an organization like the Printing Industries 
of America, it strikes a particularly good cord. That is an 
industry that is comprised of lots of small businesses. It is 
an industry that touches every other industry, and has an 
impact on our lives, one way or the other.
    I know that the environmental questions have long been a 
problem for the industry. So I am pleased to have the 
endorsement of your organization, Mr. Cooper.
    I would just make an assumption about lots of these smaller 
companies. I have a nephew who is in the printing business, in 
a family business. It has been there for two generations. They 
operate in New York City, and life is complicated, getting 
materials, et cetera, moved back and forth.
    Do most of your members, would you say, have any awareness 
that they have got to be in touch with the environmental 
statutes and requirements? Or is this something that sometimes, 
I will not say, gets overlooked, because I know they are a law-
abiding group of businesses, but is it the kind of burden that 
is often discouraging for those types of businesses, and 
difficult for them to respond to, to the requirements that they 
have to fulfill before they can use some materials or discharge 
some types of materials?
    Mr. Cooper. Senator, I think the biggest problem, in 
listening to the situation with the small communities, it is 
not significantly different for small companies. You have to be 
a fairly large printing company before you can afford an 
environmental specialist.
    Consequently, I imagine in the case of your nephew's 
company, he is doing the reporting. He is the one doing the 
calculation, and he is also doing the wage and hour reports. He 
is also buying the paper.
    Senator Lautenberg. Absolutely.
    Mr. Cooper. He is also selling the printing. So that is 
where the difficulty comes in. So it is really a question of 
where the priority falls.
    We have done a great deal of work, over the last decade, in 
trying to improve information flow to our members, and get them 
in compliance. New Jersey has a marvelous small business 
compliance program that has helped tremendously with that. 
Nothing, though, seems to reach out to literally millions of 
companies as effectively as we would hope it does.
    The real burden is that there is just not enough room in 
the budget for the kind of people to do this kind of work. So 
it is much like taxes, if you do not have a CPA on staff, you 
have to find some simpler way of doing it. That is the burden 
we are facing.
    Senator Lautenberg. So obviously, as a result of your 
encouragement here, companies have been surveyed pretty much to 
see their attitude, and they are positive about it?
    Mr. Cooper. Yes.
    Senator Lautenberg. We appreciate your encouragement.
    Mr. Chairman, that is all I have.
    Senator Smith. Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman.
    Ms. Sanchez, I will start with you. I appreciate your 
testimony and support of the Ombudsman's Act that we are 
considering.
    It seems to me that whether it is from the communities that 
have been impacted by EPA actions, or whether it is from the 
environmental groups that have seen the value of the 
Ombudsman's ability to intervene and assure that the 
environmental statutes of this country are properly being 
enforced, that we see strong support for the Ombudsman 
throughout this country.
    As you probably know, we have a situation similar to yours 
in Idaho, where we have been very concerned at the community 
level that the Ombudsman be independent.
    I think it is critical that we, in Congress, assure that we 
not only reauthorize the Ombudsman's Office in the EPA, but 
that we assure that that office is independent. That requires 
both that it is independent in terms of its budget, as well as 
that it is independent in terms of the rules under which the 
Ombudsman's Office operates.
    You may have heard the testimony earlier by Mr. Baumann, 
who indicated that he felt that one improvement in the act we 
are considering is possibly for Congress, itself, to adopt the 
ABA standards, rather than to leave that up to the discretion 
of the EPA, or in other words, letting the EPA determine how 
much those standards can be adopted in consistence with their 
operations. Would you support that kind of a change in the 
statute?
    Ms. Sanchez. I certainly would. I have read the ABA 
standards, and I feel that they are very well thought out. I 
know how the ABA does things. I know that the words that they 
choose are very specific.
    Although I do not have a copy right in front of me, I 
believe the ABA standards begin by listing that one of the main 
duties of the Ombudsman is ``to criticize'' the agency process, 
or whatever is going on. I would just suggest that the word 
``criticize'' be taken out and another word be used, because I 
think that one of the problems we had at Region 8 is that they 
felt the Ombudsman was criticizing them.
    You know, when people make mistakes, they get very 
defensive when other people come in and start criticizing them.
    So that may seem like a trite suggestion. But I think that 
from our community's perspective, bringing the facts to the 
light of day and uncovering the facts, I know that the critical 
process was inherent in that. But I think that maybe 
``uncovering the facts'' would be a better choice of words.
    Senator Crapo. Maybe a concept of oversight or 
investigation would be a proper focus.
    Ms. Sanchez. Right, hopefully it would help people not be 
so defensive about the process.
    Senator Crapo. Thank you. It also seems to me that the 
budget for the Ombudsman should not be something that is up to 
the discretion of the very agency which the Ombudsman is 
overseeing in investigating. Would you agree with that?
    Ms. Sanchez. I certainly would agree with that.
    I also wanted to add that, you know, I have seen over the 
years a tremendous waste of taxpayer dollars being used for our 
city attorneys to sue the EPA, which is represented by the 
Department of Justice attorney in Federal Court, et cetera. The 
taxpayers are paying for all of this.
    If the Ombudsman could be brought in earlier in the 
process, it could certainly help save the tremendous waste of 
taxpayers' dollars in all these lawsuits.
    Senator Crapo. Thank you.
    Mr. Prescott, I apologize that the vote took me away for 
the beginning of your testimony, but I did get back to hear the 
vast majority of it.
    I understand that as you began, you pointed out that the 
airline still has your suitcase. I have experienced that 
myself, so I can empathize with your feelings. However, it did 
give you the perfect excuse to dress comfortably today, and you 
have got us all feeling very envious up here.
    Senator Lautenberg. And thank you.
    [Laughter.]
    Senator Crapo. I appreciate the fact that you have done so 
much good work out in Idaho, and that you have come here to 
tell the Nation what a good experience we had with the pilot 
project of Project SEARCH out in Idaho. I just wanted to give 
you an opportunity to describe a little better why we need 
this.
    I know one of the objections to this legislation is a 
concern that has been raised that by providing funding to this 
project, Project SEARCH, that we would divert funding from 
other needed water quality and other projects that are helpful 
for the small communities.
    But nowhere in this legislation does it take the money from 
other sources. It simply authorizes the appropriating committee 
to provide this funding for this project.
    I guess I would simply state at the outset that the 
question of funding is one that came up, as we investigated the 
fact that some of these very small communities simply do not 
have access to current funding sources.
    In fact, one of the requirements under this project is that 
they have to have tried to get the other funding sources and 
have failed, before they qualify for these projects; is that 
not correct?
    Mr. Prescott. Yes.
    Senator Crapo. So any small community that can adequately 
and effectively access the other avenues of support that we 
already have, like the State revolving funds and so forth, 
would not necessarily be tapping into these funds, in any 
event, would they?
    Mr. Prescott. No, they would not.
    Senator Crapo. You reminded me, it was Idaho City, was it 
not, that you referred to in your testimony? You reminded me of 
the press conference we had, when we announced these projects, 
and how the mayor of Idaho City indicated that had this project 
not been available, Idaho City would not have been able to 
obtain this funding from any other source. If it had been 
available, or they ultimately could get it, it would have been 
years down the line.
    Could you just expand a little bit on your experience, as 
you have worked with this project on its pilot basis in Idaho, 
as to what kinds of challenges these small communities truly do 
face in trying to get resources to apply to their water quality 
needs?
    Mr. Prescott. Mr. Chairman and Senator Crapo, you found in 
this, as it was developed in this program, and I think each of 
you have a feel for that, first the community of which it 
serves, if you take a community of less than 2,500, far too 
often, particularly in these 47, those applications that were 
received by us in Idaho, there were not any of those that 
approached the 2,500 population.
    It was more on the average of 100 to 200. More of those 
which were making application that had a part-time, whether it 
be a clerk for the city, whether it be a volunteer group that 
was there, trying to go out and look for those moneys.
    It was interesting, as the process went along, and you 
noticed that to those communities which this serves, they 
sought as the absolute last means to implement, which they had 
been required to do, I say, a standard of life. It does not 
really matter to them whether they lived in New York City or 
Chicago or Los Angeles. In fact, they lived in Eaton, ID, with 
a population of 75.
    The very idea of having to finance a perimeter fence around 
an open lagoon system caused problems for those people; let 
alone the idea of having to design it, engineer it and, in 
fact, implement those engineering features.
    They did not know, and this is generally that I speak, and 
I could get more specific. Generally, they spoke that they 
could not find the funds. In those areas which they had looked 
for, they did not quality.
    Part of what happened in our particular situation was the 
match. There were some areas that EPA worked out extremely 
well, in the Boise office, to resolve those issues.
    This money is last resource for communities that have no 
other way to either find them, to apply for them, and if those 
are in place, to even receive funds for them.
    Senator Crapo. Yet, these communities are still subject to 
the mandates of Federal law, that they comply with the 
standards that they must achieve.
    Mr. Prescott. Absolutely.
    Senator Crapo. If I recall correctly, some of these 
communities were facing a mandate that they spend amounts 
which, for the number of people in this community, was 
absolutely prohibitive. Because the engineering costs for these 
systems, the construction costs, and all of the other costs, 
which a larger community like a Los Angeles, a Chicago, or a 
New York can more easily spread over a diverse population, 
those costs are not necessarily that much smaller for these 
types of systems.
    I realize you have got larger costs, because they are much 
bigger systems. But it is not on the same ratio of reduction in 
cost, is it?
    Mr. Prescott. No, and I will give you an example. There is 
a small piece in one country whose total tax base was on 279 
taxpayers within that entire country. Imagine a system, and you 
work with those numbers much more than what I do, of $100,000, 
how that impacts that 279 families.
    Senator Crapo. Thank you very much.
    I think it is important for us to realize that as we work 
to achieve the water quality standards that this Nation 
desires, and water quality is one of the most important aspects 
of quality of life in America, that as we set these standards 
at the Federal level, we have let a major group of people fall 
through the cracks. It is the people who live in these small 
communities that do not qualify or do not have the resources to 
be able to effectively participate in the programs that we have 
already put together.
    Yet, the people who live in a small town of 75 or 250 or 
whatever are every bit as much entitled to have clean water as 
the people who live in larger communities. That is why we have 
to insist that we recognize this need.
    I appreciate your being here to testify, and hope that you 
find your suitcase soon.
    Mr. Prescott. So does my wife.
    [Laughter.]
    Senator Crapo. Thank you very much, Mr. Chairman.
    Senator Lautenberg. Mr. Chairman, I have one observation.
    Senator Smith. Go ahead.
    Senator Lautenberg. I do not know Idaho well, but I have 
been out there. I have been to the places that the tourists go, 
like Sun Valley. I like to ski in those mountains.
    But people do not realize that in my State, which is the 
most densely populated State in the country, New Jersey has 
almost eight million people, and we are 150 miles long, and as 
Senator Smith knows, it is maybe 50 miles, in some places, 
wide. So you have got a lot of people in a very small space.
    Our small kind of miniature cities are 20,000 or something 
like that. It is quite a different problem, when you are 
working with communities of less than a 2,500 size.
    You know, this is not an uncommon problem. This is where we 
have some philosophical differences here, as well as on other 
committees. That is, how far does the hand of larger government 
go? That is in contrast to the question, Mr. Prescott, of how 
do small communities?
    We have it in our State, in different ways. If you have 
police departments, they do not have a bomb squad. They do not 
have a particular research kind of facility. They do not have 
the kind of armament that they need in the event of a hostage 
situation or something like that.
    It is a question that is larger than the one that we are 
dealing with, but I think this one is important. I commend 
Senator Crapo for leading this legislation.
    Senator Crapo. Thank you.
    Senator Lautenberg. But it does raise the question of where 
does Government come in, and where does it stay out.
    Senator Crapo. One of the problems we are facing is the 
Government has come in, and these small communities are facing 
Federal mandates, but they have no access to the traditional 
resources.
    Senator Lautenberg. Yes.
    Senator Smith. Let me just ask anyone who might like to 
respond, and perhaps you, Mr. Prescott, I am not sure, how do 
we ensure that the grants are awarded to different communities 
and the more influential communities do not go to the well too 
often, to the detriment of others? How would you suggest we 
avoid that?
    Mr. Prescott. If I could, I would suggest that first, you 
make that invitation which was done with this pilot, that was 
last year worked on in the State of Idaho.
    Every community under the population, and we will break 
that at 2,500, was given an invitation to make application for 
that. Second, I think, and equally as important, is that it has 
to be regulated by a group or committee, whoever would sift 
through that, of peers.
    It was based on, in our case, there were six. They were 
from the economic districts across the State. I have never been 
more impressed than with that group that knuckled down to the 
real issue, and that was absolute need. It had nothing to do 
with the volume of projects, until you get down to that last 
piece. But as importantly, they looked at need, and they looked 
at how they had done in the past.
    You did find those communities which made application 
because it was easy for them. It has to be local. It has to be 
controlled by those people which really understand what the 
process is.
    Senator Smith. One other thing, and I think it is in 2296, 
I am all for local control, as local as you can get, for 
decisionmaking. But we do have a situation here where you have 
private citizens making grant decisions that may otherwise have 
been made by, say, the Governor or other local officials. Do 
you see any problems with that, in terms of 2296?
    Mr. Prescott. I do not. The reason why I say that is, I 
firmly believe that for the most part, these committees are by 
appointment. Those appointments are made by individuals which 
understand what the real process is. It is not a political 
appointment of design to fix, in any way, that you really try 
to get to in this area.
    The issues that individuals, and I would suggest, Governors 
or whoever, would have to make, they will not recognize the 
sensitivity that you just addressed put on those areas of 
concern and responsibility, those which would look to that, as 
compared with what the real needs would be.
    Senator Smith. All right, does anyone else have another 
comment?
    Senator Lautenberg. I have just one. I am sorry, Mr. 
Chairman, that I interrupted your flow before.
    But when people look at New Jersey, with all those teaming 
masses that we have, and we have 92 communities, I am reminded, 
that would be eligible for assistance under the bill, we still 
have those smaller communities, and they need help.
    Senator Crapo. They do, in fact, Senator Lautenberg. We 
started this as a pilot project because of the need that was 
expressed to me by my constituents. But it was so successful in 
Idaho, that other communities across the country started 
hearing about it and saying, ``Well, what about us?''
    As we looked into it, we found that even in the most 
populated of States, like New Jersey, there were needs of this 
kind. So I think this legislation is truly a national need.
    Mr. Bruzelluis. The Small Community Advisory Subcommittee 
members, at least those who recently retired from the 
subcommittee, certainly endorse and support this SEARCH 
legislation, as well.
    We believe it goes hand in hand with the need for small 
communities to have a national advisory committee, and also a 
regional Ombudsman and task force. But the implementation at 
the community level with resources really meshes well with the 
concept. I believe that there will be written testimony 
presented, in addition to what has been here, that will endorse 
that concept.
    Senator Smith. We do have to stop after this question, 
because we have to quit at 11:30.
    How do you view the Ombudsman? Should that person be an 
advocate, or should that person just be a receiver of 
information?
    Mr. Bruzelluis. It should be some of both, but primarily an 
advocate. There are unintended consequences of what 
environmental regulations do in very small communities that 
somebody needs to be able to step forward that has resources to 
work with that community, with the agency, with the State, to 
help resolve those issues. It is very important.
    Senator Smith. In your case, Ms. Sanchez, it is more of an 
advocate?
    Ms. Sanchez. Well, I was thinking of an advocate for 
uncovering the truth; so an advocate for bringing forth the 
facts. I think that, the community has its own wisdom, if we 
had had access to the documents that had been classified, if we 
had had access to the meetings, if we had had access to a 
process in which to give our input--but we did not have that.
    So I think that the most important thing that Mr. Martin 
did for our community was to assure us that if there were 
documents out there with information that was pertinent to us 
that we should have access to those documents, that would give 
us information about our own health and safety, he was there to 
get it for us.
    You know, just recently, we had some problems with the 
community advisory group. The EPA evidently had not even read 
their guidance, showing that the community should take the lead 
in setting up the community advisory group. One of their 
facilitators just sort of set it up and excluded members of our 
community.
    We asked Mr. Martin what his thoughts were. He basically 
said, you are the community. You can go take back that process 
and work with the EPA. I read the guidance, talked to the EPA, 
and we were able to work out the problem.
    The Ombudsman has given us information. He has reminded us 
where we have power and where we have rights. He has been able 
to uncover documents for us that gave us information that we 
needed and deserved to have. That is the long story, but 
thanks.
    Senator Smith. Thank you very much.
    Let me thank this panel and also the previous panel, who 
traveled here a long way. I apologize to have to shorten the 
hearing for you.
    There could be other questions presented to you from 
members. If so, then you would have some time to respond to 
those questions in writing. We thank you all.
    Ms. Sanchez. Thank you very much.
    Senator Crapo. Thank you.
    Senator Smith. The next witness is Diane Thompson, the 
Associate Administrator for the congressional and 
Intergovernmental Relations of the EPA; accompanied by Mr. 
Michael Shapiro, who is the Deputy Assistant Administrator of 
the Office of Solid Waste and Emergency Response; as well as 
Margaret Schneider, Deputy Assistant Administrator for the 
Office of Environmental Information.
    We thank you all for being here. We have about 12 minutes 
before we have to stop. I believe you want to speak, right, Ms. 
Thompson? So we will start with you. We will let it go up until 
25 minutes after, in case a member has a question or two. So 
please proceed.

  STATEMENT OF DIANE E. THOMPSON, ASSOCIATE ADMINISTRATOR FOR 
 CONGRESSIONAL AND INTERGOVERNMENTAL RELATIONS, ENVIRONMENTAL 
 PROTECTION AGENCY; ACCOMPANIED BY: MICHAEL SHAPIRO, PRINCIPAL 
 DEPUTY ASSISTANT ADMINISTRATOR FOR SOLID WASTE AND EMERGENCY 
  RESPONSE; MARGARET N. SCHNEIDER, PRINCIPAL DEPUTY ASSISTANT 
          ADMINISTRATOR FOR ENVIRONMENTAL INFORMATION

    Ms. Thompson. Thank you, Mr. Chairman. I will make my 
opening remarks as brief as possible. I appreciate your doing 
the introductions for me, so I do not need to do that. Briefly, 
I will address each of the four bills that are before the 
committee today.
    With respect to S. 2800, the goals of this legislation are 
consistent with the Agency's ongoing efforts to improve the way 
we collect, manage, analyze, and provide access to 
environmental information for the American public.
    Last fall, Administrator Carol Browner created the Office 
of Environmental Information, and directed it to design and 
implement a comprehensive new information integration effort. 
The Agency has already begun work to create a national 
environmental information exchange network, in partnership with 
the States and others, to improve data quality and accuracy, 
ensure the security of sensitive data, reduce data redundancy, 
and minimize the burden on those who provide and access 
information.
    As we work to implement these and other components of a 
national environmental information exchange network, we are 
committed to building a secure network that will ensure the 
integrity of our data holdings.
    We very much look forward to continuing to work with 
Senator Lautenberg and other members of this committee to 
assure that this legislation first, provides the flexibility we 
will need to deal with rapidly changing technologies; that it 
affirms that the primary Federal role in streamlining the 
reporting process should be standard setting and not as 
software developer or licensor; that it recognizes the critical 
importance of public access to high quality environmental 
information; that it ensures enforceability comparable to 
existing practices; that it recognizes the key, the very key 
role, of the States in this process, as the committee has heard 
in previous testimony; and, of course, ensures that there is 
adequate funding to address this significant challenge.
    With respect to S. 1915 and S. 2296, the two small 
community bills, one of Administrator Browner's key goals has 
been to strengthen EPA's relationships with its State and local 
government partners. We know that small town governments face 
special challenges when it comes to environmental protection.
    Acknowledging the special needs of small communities, the 
Agency has initiated a number of programs to assist them. We 
have established a standing advisory panel, focused on small 
communities, the Small Community Advisory Subcommittee, which 
is a subcommittee of the local government advisory committee.
    This subcommittee advises the agency on ways to enhance 
small town participation and involvement in Federal 
environmental planning and decisionmaking, and has consulted on 
specific regulations.
    The Agency has dedicated staff in both the program offices 
in Washington and in the regions to work specifically with 
small towns, and we have initiated a number of programs to 
provide continuing compliance assistance.
    Another element of our small community environmental 
planning effort has been to find ways to better involve small 
towns early during our regulatory development process. We have 
been doing this through vigorous implementation of the unfunded 
Mandates Reform Act, the Regulatory Flexibility Act, and 
implementation of Executive Order 13132, ``Federalism.'' We are 
continuing to strive to improve this approach to small town 
consultation.
    Much of the emphasis of S. 1915 appears to be aimed at 
improving the access of small communities to regulation 
development. We agree that that is an important goal, but we 
believe it is currently being addressed in the various 
initiatives that the Agency is undertaking, as is outlined in 
my written statement.
    Turning now to S. 2296, this legislation would direct the 
Administrator to provide grants in the amount of $1 million 
annually to the Governors of each State, for use by small 
communities. We are concerned that S. 2296 could divert scarce 
resources from EPA's budget for State revolving and grant funds 
supporting critical State programs.
    These funds have been targeted specifically for the highest 
priority public health and environmental needs in each State, 
such as sewage treatment and safe drinking water.
    As detailed in my written statement, we also have a number 
of concerns regarding some of the more technical aspects of the 
legislation: how it would provide for accountability for the 
funds, and how it would determine priorities, for example, to 
ensure that these funds are being used, in fact, for the 
highest priority projects.
    Finally, with respect to the Ombudsman legislation, we 
should begin by stating that the Agency strongly supports the 
Ombudsman. I think the testimony that we have heard today, the 
very compelling testimony from Ms. Sanchez, would strongly 
suggest that the Ombudsman program is working. The Ombudsman 
program played a very significant role in what occurred with 
the Shattuck Superfund site.
    This Ombudsman function was established first in 1984, as 
part of the Resource Conservation and Recovery Act. When the 
authorization expired in 1989, the Office of Solid Waste and 
Emergency Response retained the function, as a matter of 
policy.
    In 1991, it was broadened to include other statutes, 
particularly Superfund, and in 1995, the Agency created 
regional Ombudsmen, as part of the Superfund administrative 
reforms.
    We are concerned that the legislation, as proposed, in 
addition to simply reauthorizing the Ombudsman position, would 
propose that the structure of the Office of Ombudsman conform, 
to the maximum extent practicable, to the structure of the 
model Ombudsman statute for State governments, developed by the 
American Bar Association.
    We think some of the aspects of that model are 
problemmatic. In fact, we should note that the ABA, itself, is 
doing an additional model that would provide the guidelines for 
use in the Federal administrative context. We think it would be 
useful to look to that model, as well, to address some of the 
inconsistencies that might occur by relying on the State model.
    We welcome the opportunity to work with the committee and 
the sponsors of all of this legislation, as these proposals 
move forward. We thank the committee for the opportunity to 
appear before you this morning.
    My colleagues and I would be happy to respond to any 
questions.
    Senator Smith. Given the short timeframe, and since many of 
these are Senator Crapo's bills, I am going to yield to him, at 
this point.
    Senator Crapo. Thank you very much, Mr. Chairman. I will 
try to be very quick.
    With regard to S. 2296, I understand the Agency's concern 
that we not divert money from other funds that are provided for 
States and local communities. Certainly, that is not the intent 
of the legislation. If we were able to address that issue, 
would the Agency's primary concerns be alleviated?
    Ms. Thompson. I think the Agency not only has a concern 
with that, but it also goes to the question of whether funds 
will be used to really address priority problems.
    As I am sure you are aware, $50 million represents three 
times the amount of funds that the Agency has for its entire 
National Wetlands Program. It is also approximately half of 
what the Agency has in its Safe Drinking Water Program. So I 
think there is a concern there in that regard.
    Then there are obviously the concerns that I am sure we 
could address, working together, about accountability and 
assuring that these funds are actually being used appropriately 
in the context of their being Federal funding.
    Senator Crapo. Well, let me just comment on that, and then 
go to another question. I understand the point you are making. 
However, I think that the pilot project that we utilized in 
Idaho has proven that the process that we put together does 
truly have the accountability and gets the dollars to the most 
significant needs. Therefore, it meets the priorities.
    Now we may have a difference on that. But one of the 
concerns that I strongly want to address in this legislation is 
to create a 
locally-controlled decisionmaking body; not one with a whole 
bunch of Federal rules and regulations that create the rigidity 
that we are trying to avoid, and let local decisionmakers apply 
this to the most effective and important needs. Again, these 
are needs defined by Federal statute. So I think the priorities 
will be met.
    Ms. Thompson. Senator, if I may, with respect to the pilot 
project, you may recall there was some concern about whether 
that pilot could be constructed under the necessary 
authorization.
    Senator Crapo. Right.
    Ms. Thompson. So that authorization was, in fact, changed 
to ensure that the pilot would be authorized under our existing 
programs. Those existing programs have the type of safeguards 
in them that we are talking about, that we think are necessary 
to ensure accountability.
    I think the other issue with respect to the pilot, and we 
certainly understand that your intent would not be to divert 
funds from perhaps these other programs that I have mentioned, 
Wetlands or Clean Water, but in fact the way the pilot was 
funded, was to designate, it is my understanding, funds from 
our existing account. So the way the pilot worked, it was not a 
situation that you have envisioned.
    Senator Crapo. Right, although the legislation does not do 
that.
    Ms. Thompson. No, it does not do that. But what we are 
concerned about is with its silence, the practical effect has 
been, at least through the pilot, that it was done as an 
earmark, which displaced funds from other programs.
    Senator Crapo. Well, what this legislation will do, in that 
context though, is to authorize the money. Then our job, as 
Senators, is to go to get the appropriators to put the money 
there, without diverting it from other resources. So on that 
one, we agree. We are going to try to fix it in that way.
    Let me go quickly, with the time that I have, to the 
Ombudsman's legislation. First of all, I appreciate the 
Agency's extension of the Ombudsman's functions, when its 
authorization expired, and your support for the reauthorization 
of that function.
    As you know, I have strong concerns about the independence 
of the Ombudsman's Office. To give you just an example of that, 
in your written testimony, you indicated that one conflict with 
the ABA model statute was an inconsistency with the 
recommendations of the Administrative Conference of the United 
States, which provides, and this is a quote,

    The Ombudsman should refrain from involvement in the merits 
of individual matters that are the subject on ongoing 
adjudication or litigation, or investigations incident thereto.

    That was exactly the position taken by the Justice 
Department with an Ombudsman investigation in Idaho. Frankly, 
the EPA did not follow the Justice Department on that 
recommendation, and I appreciated that.
    But with regard to that position, if we are going to say 
that the Ombudsman's Office should not get involved in anything 
that is the subject of adjudication or litigation, then 
basically, in today's world especially, are we not saying that 
the Ombudsman's Office cannot get involved in anything that is 
significant?
    I mean, is almost every major EPA action not going to be 
the subject of some kind of challenge at some point; and, if 
so, then we are saying the Ombudsman's Office cannot function?
    Ms. Thompson. I think it is certainly an unfortunate but 
accurate observation that the Agency is involved in litigation, 
certainly in a large number of the actions which it initiates.
    The point of the concern expressed in the model that you 
spoke about was obviously to ensure that we do not have 
processes that undermine each other. It is certainly 
appropriate to provide safeguards, that you do not have one 
process going on, on the one hand, that is undermining another 
process.
    As you noted, in the Ombudsman hearing that was held in 
Coeur d'Alene, the Agency did participate, because there are 
ways certainly to address issues that can provide those 
safeguards. Perhaps Mr. Shapiro would like to elaborate on 
that.
    Senator Crapo. Mr. Shapiro, would you like to elaborate?
    Mr. Shapiro. Just to extend the comments, one point is that 
I think the Administrative conference guidelines speak to 
active litigation.
    Obviously, many things we do will ultimately wind up in 
litigation. But even those guidelines, if strictly followed, 
would not preclude Ombudsmen from looking into situations that 
were not yet in formal litigation.
    A second point, and I think this speaks to the Idaho 
situation, is that even though some aspects of a particular 
site or set of issues might be the subject of active 
litigation, there may be many other aspects that are not in the 
key area, that are being addressed by the litigation.
    Indeed, in the case of Idaho, we attempted to cooperate as 
fully as possible with the Ombudsman in the hearing. I 
understand that the hearing went well, and that all parties 
felt that they had the ability to provide their views.
    But there were issues, had they come, where the EPA 
representative, would have had to say that because of 
litigation they could not respond with certain information.
    We think, in many circumstances, the litigation language in 
the Administrative Conference recommendations would not 
preclude Ombudsman work at a particular site or on a particular 
set of issues.
    Senator Crapo. Thank you. I know my time is up, so thank 
you.
    Senator Smith. Just so I can explain to those who may not 
understand why we have to stop here, there is a Senate rule, 
Rule 26, and in this case, 26-5[a]. We call it the Two Hour 
Rule, which says that 2 hours from the time the Senate opens, 
if anyone asks that the Two Hour Rule be invoked, as the 
Minority has, that we have to stop all committee business.
    The penalty would be that there could be a point of order 
raised on any piece of legislation we might be considering. I 
do not know that they will drag us off to jail or anything, 
although you never know.
    So anyway, the hour of 11:30 having come, because we did go 
into session at 9:30, we are going to have to adjourn the 
hearing.
    Let me just also indicate that there may be some members 
who have questions and other letters that may have to come in. 
People have expressed interest in sending some letters in 
regarding this legislation. So I will keep the record open 
until the close of business on Friday.
    At this point, I would thank all the witnesses for coming. 
I apologize for any inconvenience that it may have caused.
    Senator Lautenberg. Mr. Chairman, I have one process 
question. I assume that the record will reflect the statements, 
as we have heard them. But also, can we be assured that the 
questions that would be posed are included in the record, as if 
they were in direct response to witnesses' testimony?
    Senator Smith. Yes, certainly.
    Senator Lautenberg. Thank you.
    Senator Smith. At this point, the hearing is adjourned.
    [Whereupon, at 11:34 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
Statement of George Dana Bisbee, Assistant Commissioner, New Hampshire 
  Department of Environmental Services, Chairman, ECOS Data Mangement 
                               Workgroup
    Mr. Chairman and members of the committee: My name is Dana Bisbee, 
and I am the Assistant Commissioner of the New Hampshire Department of 
Environmental Services. I bring along greetings to you, Mr. Chairman, 
from Governor Shaheen and Commissioner Varney.
    I am testifying today on behalf of the Data Management Workgroup 
and the Local Government Forum of the Environmental Council of the 
States (ECOS), which is the national, non-profit, non-partisan 
association representing the State and territorial environmental 
commissioners. I serve as the Chairman of the Data Management 
Workgroup. On behalf of ECOS and the State of New Hampshire, I very 
much appreciate your invitation to join you today.
    As requested, I have prepared comments on the four bills you are 
considering today. I will address them in turn.
    s. 2800, the streamlined environmental reporting and pollution 
 prevention act of 2000, introduced by senator lautenberg and senator 
                                 crapo
    This bill addresses a very important issue facing government 
agencies and one that deserves the scrutiny you are providing today. 
The ECOS Data Management Workgroup endorses many of the principles 
contained within the bill. In fact, we have been working to implement a 
number of them over the past 3 years in partnership with the 
Environmental Protection Agency.
    We applaud the concept of a ``one-stop'' reporting system proposed 
in the bill, both for those who report directly to EPA and for the far 
greater numbers who report to the States. We agree strongly with the 
need to establish and use common data standards. Consolidated 
reporting, a feature of the bill, is also a worthy objective. We 
support the bill's aim of allowing participation in the new integrated 
reporting scheme for those who choose to do so voluntarily. It is 
imperative that any law affecting environmental data reporting fully 
recognizes the tremendous investment many States have made in upgrading 
their data systems, building electronic interfaces, and developing data 
standards. Any new reporting process must be flexible enough to account 
for different systems and applications at the State level.
    We also feel the bill should more explicitly account for the 
considerable role that States play in the collection and management of 
environmental data and should emphasize State investment in the design 
and development of a new national integrated reporting network. Here 
are a few specifics to put this issue in perspective. Nationally, 
States collect 94 percent of environmental data, conduct 97 percent of 
facility inspections, operate about 70 percent of the Federal programs 
delegable to them, conduct about 80 percent of the enforcement actions, 
and contribute about twice as much funding to environmental programs as 
EPA. Under these circumstances, the bill should promote a partnership 
in which EPA, the States, Tribes and local agencies work together to 
design and put in place a much-needed national integrated reporting 
network.
    EPA already recognizes the critical role of States on this issue 
and, in 1997, EPA and ECOS formulated their collaborative efforts on 
data management and established the State/EPA Information Management 
Workgroup. This effort grew out of EPA's highly successful ``One Stop'' 
program that was designed to assist States in developing innovative 
solutions to data management problems. We have developed a joint vision 
and a set of operating principles to guide the work of our State/EPA 
information management partnership, and we are already addressing many 
of the proposals contained in the bill. For example, we have joined 
with the Tribes and EPA to create an independent Environmental Data 
Standards Council that will help establish standards as envisioned by 
the legislation. Environmental and business groups will be an integral 
part of that process.
    The States and EPA are also collaborating on other crucial issues 
that must be resolved to make the environmental information more 
effective and efficient. Among these issues are: defining what 
constitutes a ``facility;'' solving key data exchange problems; 
ensuring public access to information; reducing information reporting 
burdens; and sharing experiences among the States and EPA.
    The State/EPA partnership is also tackling the issue of what S. 
2800 refers to as a ``national environmental reporting system.'' 
Together, we are designing a national environmental information 
exchange network (the Network) that taps into the private sector 
Internet revolution, adapts it to government needs, and keeps it ``off-
the-shelf,'' open and non-proprietary. This Network will depend upon 
technology-based partnership, with all levels of government leveraging 
and benefiting from each other. We have been selective in the choice of 
technology to ensure that the information system is transparent--and 
thus more accountable--and scalable so that control and responsibility 
for the information stays as close as possible to its origins, whether 
at the local, county, State or Federal level. No matter where the 
information resides, it would be easily accessible via the Internet for 
everything from reports by EPA on national environmental performance to 
local citizen inquiries about emissions from the industrial plant 
around the corner. As part of the Network, States would continue to 
collect the data and would--through uniform data standards, integration 
and quality assurance--ensure that EPA, as well as the regulated 
community, elected officials, environmental groups and the general 
public have access to timely, accurate and useful information.
    It is vital that S. 2800 recognize and support this joint effort to 
develop a national environmental data exchange network.
    We also believe that EPA and the States must be provided sufficient 
resources as soon as possible to make the integrated reporting network 
a reality. Creating a national information exchange network requires a 
significant initial investment. Although States have helped lead this 
effort, many States currently lack the capacity to undertake 
comprehensive re-engineering of their information management processes. 
They need financial and technical assistance, and more opportunities to 
share their experiences. EPA needs additional resources to facilitate 
development of its Central Data Exchange capacity, to develop the 
Agency's connection to the exchange network, and to accelerate testing 
and development of technical and management protocols to ensure data 
quality, security, authenticity and confidentiality. Together, EPA and 
the States must integrate data bases, create data standards, develop 
consolidated reporting to ease industry and small business reporting 
burdens, increase data quality, ensure appropriate information 
interpretation, and ease accessibility for anyone who wishes to see and 
use environmental data. The committee could provide useful direction to 
appropriators via S. 2800 by authorizing sufficient funding to ensure 
the success of this national network.
    Finally, we hope that S. 2800, as adopted by Congress, would permit 
and support the continuation of this healthy and productive effort. We 
are concerned it may not. We are particularly worried that the 
legislation would create a burdensome and unnecessary bias toward 
feeding one or more national data bases. The States' experience with 
existing EPA data systems has been unsatisfactory. That is one reason 
the States are enthusiastically partnering with EPA to develop a new 
Internet-based, integrated information exchange network that in large 
measure builds on existing State data systems. We hope the language in 
Sec. 3(b) can be clarified to demonstrate that there is no bias against 
the Network approach favoring the traditional, huge, unwieldy national 
data base or data systems.
    Further, we want to ensure that enactment of S. 2800 will not 
produce the unintended consequence of slowing progress toward better 
information management while EPA creates rules and guidance to 
implement it. We trust that the intent of Congress is not to force a 
change from our current efforts, but rather to clearly authorize and 
support the work that EPA and the States have underway.
    Our last specific concern is the National Environmental Data Model 
referred to in Sec. 3(b)(9). As written, this section may be more 
expansive than simply a description of EPA's own data management 
architecture. It should be made clear that this section refers only to 
the way EPA would configure its systems, not a potential mandate for 
States and others to follow.
    The State environmental commissioners are encouraged by the spirit 
and progress of the State/EPA information management partnership. It is 
now time to invest in its success. We hope you will support our 
progress by incorporating these principles into S. 2800 or any other 
legislation you might consider to improve the reporting and quality of 
environmental information.
  s. 1915, the small community assistance act of 1999, introduced by 
 senator jeffords and others; s. 2296, the project search act of 2000, 
                      introduced by senator crapo
    With the indulgence of the committee, I will speak to S. 1915 and 
S. 2296 together because of their common focus on improving the ability 
of small communities to manage their environments.
    Our small communities need this help. The Local Government Forum of 
ECOS supports the fundamental principles embodied in these bills: 
greater involvement by small communities in environmental regulatory 
processes and more funding to meet regulatory demands.
    Much of the work of the State environmental agencies involves 
communities--whether related to wastewater treatment, cleaning up the 
town dump, or figuring out where the asphalt plant should be located. 
The ECOS Local Government Forum was among our earliest established 
committees and remains a critical part of ECOS's outreach, not only to 
our communities, but also to EPA, which has a profound influence over 
the environmental and financial health of our towns.
    While villages conjure powerful emotional, social and sometimes 
political appeal, those strong feelings have not adequately translated 
into power to affect Federal policy decisions or the flow of financial 
and technical resources. Challenged by their environmental problems, 
these communities are frequently overwhelmed by the Federal process 
that aims to solve them.
    Perhaps the best recent example of the need for greater small 
community involvement in the EPA rulemaking process, and hence the need 
for bills like S. 1915, is the proposed rule dealing with arsenic in 
drinking water. The Small Community Advisory Subcommittee (SCAS)--an 
EPA FACA--reviewed the arsenic drinking water standard and expressed 
great concern for the impacts of the proposed rule on small systems. 
SCAS has requested that EPA review the specific impacts on particular 
communities rather than gauging impacts based on national income levels 
and all drinking water systems. The extraordinary impact of EPA's 
proposed arsenic rule clearly demonstrates the need for and fairness of 
including small communities constructively in the regulatory 
development process.
    ECOS members can readily relate to the plight of small communities 
who desire an effective partnership with EPA. We have been struggling 
toward that goal ourselves. If you look in the right places, you can 
see the appropriate guidance--the Regulatory Flexibility Act of 1980, 
the Small Business Regulatory Enforcement Fairness Act of 1996 and 
Title II of the Unfunded Mandates Reform Act of 1995, as well as 
relevant Executive Orders such as E.O. 13132 on federalism. EPA's own 
guidelines mandate consultation and outreach. And more than ever, it is 
working, as Ms. Thompson's testimony for EPA demonstrates. Fritz 
Schwindt, Chief of the North Dakota Environmental Health Section, Co-
Chair of the ECOS Local Government Forum, and a member of the SCAS 
agrees that EPA is making efforts to involve small communities. S. 1915 
will help ensure that these good works continue and that EPA remains 
accountable to Congress for its continued sensitivity to the needs of 
these communities.
    Small communities, close to the land and water and at home with the 
concept of environmental stewardship, are particularly hard pressed to 
meet the financial demands of that commitment. They simply cannot make 
up for the lack of a tax base. Whether a community of 200,000 or 2,500, 
the same suite of services must be provided--safe drinking water, 
wastewater treatment, storm water control, landfills--all in addition 
to the other amenities of community living. Few communities of 2,500 or 
less have the financial or human resources necessary to adequately meet 
health and environmental goals--even with the existence of State 
Revolving Funds to help finance costly infrastructure--hence the need 
for the targeted financial assistance envisioned by S. 2296. The grants 
proposed in this legislation are even more important for the poorest 
communities that are unable to provide the relatively small matching 
funds required for expensive water treatment facilities and other 
projects. It is critical, especially in light of the huge gap between 
environmental expenditures and identified water, wastewater, air 
quality and other needs, that the funding envisioned in S. 2296 not be 
at the expense of resources for other environmental programs.
   s. 1763, the ombudsman reauthorization act of 1999, introduced by 
                             senator allard
    I have little to say about S. 1763 except that ECOS members seldom 
use Ombudsman services, relying on other lines of communication with 
EPA. I guess that is a good sign. For that reason, ECOS does not have a 
position on this legislation.
                               conclusion
    Thank you again, Mr. Chairman and members of the committee, for 
this opportunity to comment on these bills. Please feel free to call on 
me or ECOS if you have any additional questions.
                               __________
     Responses of George Dana Bisbee to Additional Questions from 
                             Senator Smith
    Question 1. In your written testimony, mention was made of the 
interrelations between S. 1915 and S. 2296. Both bills work to benefit 
small communities: S. 1915 by ensuring that a Small Community Advisory 
Committee exists at EPA and within each Region, a Small Town Ombudsman 
and S. 2296 by providing funds for environmental projects to be 
distributed by an independent citizens' council. If enacted, what kind 
of benefit would these bills bring to New Hampshire?
    Response. S. 1915 and S. 2296 would have a direct benefit to the 
small communities in the State of New Hampshire. S. 1915 would codify 
certain steps that are being taken by EPA to ensure greater involvement 
of small communities in the development and implementation of EPA's 
regulatory programs. As defined in S. 1915, small community is one of 
under 7500 in population, which covers all but 34 New Hampshire 
communities.
    S. 2296 also would provide effective assistance to New Hampshire's 
small communities. In this bill, which defines ``small community'' as 
one under 2500 in population, 123 of New Hampshire's 234 cities and 
towns would be eligible for assistance, and there is no question that 
many of these eligible communities are among the least affluent in the 
State. While the State of New Hampshire provides State aid grants for 
significant environmental infrastructure projects (wastewater and water 
treatment facilities, landfill closure and source water protection land 
acquisition) and while the State Revolving Fund Program under the Clean 
Water Act and the Safe Drinking Water Act provide important financial 
assistance to these communities, certain of our small communities are 
in need of significant additional help. S. 2296 would allow those 
communities to move forward sooner and more effectively to address 
significant environmental infrastructure needs.

    Question 2a. In an effort to provide as comprehensive a response as 
possible to the committee's questions 2a-2g, I requested, through ECOS, 
States' input. We received responses from the following 12 States: 
Alabama, Idaho, Michigan, Mississippi, Nebraska, North Carolina, North 
Dakota, Oklahoma, South Carolina, Texas, Washington and Wisconsin. 
Where there is broad agreement on a point, it is simply stated. Where 
there are variations in State responses, they are referred to 
individually--sometimes with attribution. Another general note: the 
States believe, as I testified, that the SEARCH funding should be new 
money, not taken from existing programs like the State Revolving Loan 
Funds (SRF) and the Drinking Water State Revolving Loan Fund (DWSRF). 
Converting SRF or DWSRF funding would limit states' flexibility to 
address small community needs, and limit the capacity to grow the 
program in perpetuity.
    S. 2296 would create a grant program in each State that is 
different from current EPA programs. The funds would be targeted to 
small communities for environmental projects as opposed to States for 
defined purposes. What percent of grant funds currently are awarded to 
the type of small communities that would be affected by S. 2296--that 
is, communities of 2,500 or fewer individuals?
    Response. Most of the respondent State agencies do not provide 
grants to small communities, though they do provide loans through the 
SRF and DWSRF. Certain Federal programs provide grants to small 
communities, including Rural Development (formerly the FmHA), Community 
Development Block Grants, and the Appalachian Regional Commission. We 
do not have collective data on the percentages of available grant 
funding that is targeted to small communities of 2,500 or fewer 
individuals. Texas emphasized that the funding level of $1 million per 
State is not sufficient for a State of its size and believes that 
states with a large number of small communities need more support.
    Following is a description of grant programs operating in some 
States:
    Washington.--The State provides Extended Grant Payments (set 
asides) that go to large municipalities, which, in some years, account 
for as much as 50 percent of funding off the top. Approximately 20-25 
percent of the rest goes to communities with a population under 2,500. 
Perhaps as much as 50 percent of the funding goes to communities of 
under 10,000 residents. In the last biennium, Washington provided an 
additional $10 million targeted to small communities with a population 
less than 3,500.
    Oklahoma.--There is a State funded Rural Economic Action Plan 
(REAP) that provides water and sewer grants to small communities. 
Annually, the Oklahoma Legislature provides $4.5 million and 90 percent 
of this money goes to communities of 2,500 or fewer.
    Wisconsin.--No data on the percent of grants to small communities 
was available, but the best professional estimate puts the figure at 
about 25 percent going to communities of 2,500 residents or less.
    South Carolina.--Here are the percentages of funding (and the 
actual amounts) that go to communities of less than 2,500 population 
for programs operated by agencies in South Carolina:
    <bullet> Rural Development (Formerly Farmers Home Admin.): 30 
percent ($7,041,000).
    <bullet> Community Development Block Grants: 20 percent 
($5,900,000).
    <bullet> Local Governments Division of State Budget & Control 
Board: 60 percent ($4,480,000).
    Michigan.--The State has provided information on the use of SRF and 
DWSRF loan funds and wellhead protection grants by small communities 
that may be instructive--
    <bullet> SRF: 17 percent of the projects and 5 percent of the funds 
go to communities under 2,500;
    <bullet> DWSRF: 23 percent of the projects and 10 percent of the 
funds go to communities under 2,500;
    <bullet> Wellhead Protection Grants: 38 percent of the grants are 
awarded to communities under 2,500.
    Nebraska.--The State awarded $8,145,000 for water and wastewater in 
1999 to communities with populations less than 2,500. These grants are 
awarded through the Department of Economic Development, USDA and the 
Department of Environmental Quality. No percentages were given.

    Question 2b. S. 2296 is focused on providing help to small 
communities. What is the principal need that small communities have? Is 
it construction funds for environmental projects, such as a sewer 
system or a wastewater treatment plant (WWTP)? Legal assistance in 
understanding Federal law and completing grant applications? Paying 
experts? Hiring personnel?
    Response. Small communities have needs for all of the above, 
specifically in meeting their environmental mandates in the areas of 
drinking water, landfill closure, brownfields remediation, and 
responding to local problems such as open burning, noise, and odor 
complaints. There is furthermore a general lack of adequate technical, 
legal and process expertise (e.g., trouble understanding the 
requirements of current and proposed regulations) that dogs small 
communities at virtually every step, regardless of the type of 
environmental challenge they face.
    Specifically, many small communities face the need to upgrade their 
WWTPs because of the more stringent limits of new NPDES permits. 
Nutrient criteria and TMDLs will certainly add to that list. 
Communities need help in all of these categories, however the most 
costly projects are the construction of environmental projects such as 
wastewater collection/treatment, storm water pollution control, and 
drinking water facilities.
    One of the major impediments to providing financial assistance to 
these communities is that many existing loan and grant programs do not 
cover the cost of planning and design until the project is ready to 
bid. A small community may have water, wastewater or solid waste needs 
but very few towns know how to handle a grant or loan application and 
they often do not have the funds to hire a firm to begin developing a 
feasibility study or engineering report that can be presented to 
funding agencies. This gap in funding requires a community to borrow 
money for planning or hire a consultant who will wait until the loan is 
closed. Often, when an engineering firm is not paid up front for 
planning and design, the quality of work is not always the best and the 
community may not get the most viable or cost-
effective project possible. In addition, some things are excluded from 
funding eligibility in almost every program. Therefore, funding for 
planning and development of projects and for covering costs that other 
programs do not are primary needs for small communities.
    Smaller municipalities also need treatment alternatives that are 
more affordable and the ability to get grants for innovative or 
alternative technology projects.
    The flexible program proposed by S. 2296 would help with all of 
these challenges.

    Question 2c. The criticism has been raised that S. 2296 would allow 
grants to be awarded to neighborhoods within large cities, instead of 
to small communities. Do you want that opportunity to exist? If not, 
how can it be prevented?
    Response. The general consensus among the State respondents was 
that grants should be limited to small communities. In some instances, 
a small town may be surrounded by a larger city and one of the States 
would see no reason to exclude that town if it met the population 
requirement. A couple of respondents also mentioned the need to address 
unincorporated towns, perhaps by directing funds to the county within 
which the unincorporated area resides.
    Many State programs require that the loan or grant recipient be a 
municipality or other form of government such as a rural water 
district. Several of the States recommended that S. 2296 eligibility 
for grants be limited to stand-alone government entities or other 
entities that have the authority to provide the type of service for 
which the grant is sought, such as Metropolitan Sewerage Districts, 
Water and Sewer Districts and Water and Sewer Authorities, etc. A 
couple of specific proposals offered include:
    <bullet> Eligibility criteria could read ``only incorporated 
municipalities with current and verifiable populations of 2,500 or 
less.''
    <bullet> To avoid funding neighborhoods, bill language could 
describe a small municipality as ``any city, town, village, town 
sanitary district, or public inland lake protection and rehabilitation 
district with a population of 2,500 or less.''
    There is some difference of opinion among the States about the 
small community threshold. One of our State respondents suggested the 
threshold be raised to 10,000.

    Question 2d. The criticism has been raised that S. 2296 would allow 
all of a State's funds to be granted for community welfare projects, 
such as swimming pools. What safeguards do you have in place to ensure 
that grants are awarded only for what ordinarily would be understood as 
environmental projects, instead of other community welfare projects? 
What safeguards are necessary to have in S. 2296?
    Response. Many states currently have programs with environmental 
priority scoring systems to rank projects in order of environmental 
importance. In Oklahoma, eligible items are spelled out by statute or 
by rule and are a part of the ranking system for the program. South 
Carolina's enabling legislation limits projects to water and sewer 
only. Idaho likewise limits its grants to drinking water and wastewater 
projects.
    Several States suggested that the language ``public welfare'' could 
be removed from the legislative language and that the bill could 
specify that only environmental projects would be eligible for grant 
funding, and leave to the States the ability to set their own 
priorities. In addition, grant applicants could be required on the 
application to stipulate which environmental law or requirement the 
project will address, e.g., solid waste reduction or the Clean Air Act. 
The decisionmaking body would then ensure in their review only eligible 
projects are funded.

    Question 2e. Is there a means by which Congress can ensure that 
grants are awarded to different communities over time, so that no one 
community or set of communities will be able to monopolize grants?
    States agree that all eligible communities should have access to 
grants. A couple of States suggested that if S. 2296 required the award 
of grants based on a priority system that considered environmental 
benefit and ability to pay, this concern would not exist. In fact, this 
is the way granting programs for small communities already operate in 
most States. States with these mechanisms in place are wary of having 
to create yet another ranking and distribution process when fairness 
and access to funding issues are already addressed in their current 
programs.
    The other States recommend that Congress allow them the flexibility 
to ensure fair access to grants. For example, States could:
    <bullet> limit funding to any one community over a fixed period of 
time by----
      <bullet> Lchanging the eligibility ranking of a community that 
has received a grant (thus reducing the chance they would be eligible 
again in the short term);
      <bullet> Lspecifying that a community receiving a grant must wait 
until all other eligible communities have the opportunity to apply for 
available funds before applying again;
      <bullet> Llimiting the number of applications that a municipality 
may submit during a certain period of time (say 1, 3 or 5 years), as is 
done already in some State grant programs;
    <bullet> require that the administering agency consider geographic 
distribution throughout the State when awarding grants, as in the Clean 
Michigan Initiative and in Nebraska's waste reduction grant program; or
    <bullet> allow only loans for facility construction, then add 
grants (e.g., the SEARCH grants) later if financial need is 
demonstrated--as is being proposed in Washington State. The effect of 
this would be that well-off communities can't get all the grant money, 
even if their project rates higher from an environmental or public 
health perspective. They would get loans instead.

    Question 2f. Should this grant program be a preferred source of 
money for small communities or should it be a source of funds to be 
used as a last resort?
    Response. Most of the responding States agreed that funding should 
be made available to small communities that are eligible and rank at 
the top of the priority system established by the State regardless of 
the availability of other funding sources. This should not be a fund of 
last resort.
    One State pointed out that the preference would depend on the need 
of the community. Grant/loan combos should be an option, but there are 
small communities that are not good risks for loans due to financial 
instability but that are in great need of moneys for systems. Also, 
some loan programs are mired in bureaucracy making it difficult for 
small communities to get in the hopper. The State could determine 
priority for funds.
    Another State suggested that this funding should be a preferred 
source of funding because, in that State at least, there are already 
several funds of last resort. It becomes difficult under those 
circumstances to determine who should be the lead agency in providing 
small community assistance.
    Three of the respondents suggested that the SEARCH funds should be 
used as a last resort.

    Question 2g. Should the authority to make grant decisions be vested 
in a council composed of private citizens, or should the authority be 
given to a governmental official, such as the Governor or a group of 
local officials?
    Response. Most of the responding States suggest that the grant 
decision process should be given to the environmental agency that 
already has experience making these kinds of decisions. These States 
agree that the decisions should be based on a clear set of criteria to 
allow a prioritization of applicants. States are already involved in 
helping to finance many small community environmental projects, for 
example through the SRF process, and could avoid a lot of additional 
bureaucratic hurdles and costs by adding the SEARCH funds to their 
existing resources to make these projects more affordable.
    Two States pointed out that for such relatively small amounts of 
money, the creation of councils--in fact, the establishment of an 
entirely new process--would be overly complicated, bureaucratic and 
expensive.
    A couple of respondents suggest that an impartial ranking system 
that is particularly responsive to small communities is the key. 
Perhaps a council composed of local government representatives could 
recommend the ranking system that could then be administered by an 
agency with experience in administering such programs.
    If there is a council, one State suggested requiring at least one 
elected and one non-elected local official serve on it.

    Question 3. You are the Chairman of the ECOS Data Management 
Workgroup. EPA and ECOS have been working together since 1997 on data 
management such as a national environmental reporting system and data 
management standards. According to your testimony, this State-EPA 
partnership has been working well. Would enactment of S. 2800 tie the 
hands of this workgroup or impact the collaborative effort?
    Response. The States and EPA have been collaborating on data 
management issues long before 1997, as the States have always been an 
integral part of the national environmental data collection and 
management scheme. What occurred in 1997 was the formalization of a 
closer collaboration with the creation of the joint State-EPA 
Information Management Workgroup. Most particularly since then the 
State-EPA partnership on environmental data management has been an 
effective one. We have jointly developed a common vision and set of 
operating principles to guide our work, we have created the 
Environmental Data Standards Council (which has already released 
recommended standards), we have made improvements in how EPA and the 
States release environmental information to the public, and we are now 
deeply and collaboratively engaged in the development of the National 
Environmental Information Exchange Network. The States on the Data 
Management Workgroup have been concerned that enactment of S. 2800 
would have the potential for affecting the collaborative effort that we 
are engaged in with EPA in a non-
productive way. This potential would arise if an unintended consequence 
of S. 2800 were to delay the ongoing data integration effort at EPA and 
the development of the data exchange network, or if the bill 
inadvertently diminished the flexibility needed to deal with ever-
evolving data management technologies and approaches.
    We were pleased at the hearing with the sponsors' understanding of 
our concerns and their willingness to adjust the bill to address them. 
In subsequent suggested changes to the bill, the suggestion of a new 
national ``system'' or large data base being mandated by this bill has 
been removed, and particular concerns about the details of the process 
that would need to be followed in developing data standards has been 
made more flexible as well. And, finally, in a very positive way, the 
draft bills inclusion now authorizing language to provide funding for 
the significant initial investment needed to ``kick start'' the 
National Environmental Exchange Network is a very positive development. 
These changes that have been presented to us have removed our concerns 
about the passage of S. 2800.
                               __________
   Statement of Jeremiah D. Baumann, Environmental Health Advocate, 
                  U.S. Public Interest Research Group
    The U.S. Public Interest Research Group (U.S. PIRG) is the National 
Association of State Public Interest Research Groups (the State PIRGs) 
and serves as the national advocacy office for the State PIRGs. The 
State PIRGs and U.S. PIRG are nonprofit, nonpartisan organizations that 
conduct public interest research, advocacy, and education on a range of 
issues including health care, environmental and public health 
protection, consumer protection, and good-government reforms.
    The PIRGs have a long history of work on several of the issues 
raised by two of the bills being considered today. Increasing citizen 
involvement in Federal Government decisionmaking, ensuring agency 
accountability, protecting the public from toxic hazards, and ensuring 
that the public has access to information about toxic hazards are all 
long-standing aspects of the PIRGs' environmental work. The State PIRGs 
have worked to pass right-to-know laws and toxic waste cleanup laws for 
several decades, including Massachusetts' Toxics Use Reduction Act and 
New Jersey's Pollution Prevention Act.
    U.S. PIRG welcomes the opportunity to testify in support of Senator 
Allard's bill, S. 1763, The Ombudsman Reauthorization Act, and Senator 
Lautenberg's bill, S. 2800, The Streamlined Environmental Reporting and 
Pollution Prevention Act of 2000. Both of these bills take important 
steps toward making government, in this case the Environmental 
Protection Agency (EPA), more responsive to the public whose health it 
is the Agency's mission to protect. The Ombudsman Reauthorization Act 
helps to ensure agency accountability to the public and the Streamlined 
Environmental Reporting Act increases the efficiency of the Agency's 
information management and resources.
           the ombudsman reauthorization act of 1999, s. 1763
    U.S. PIRG supports The Ombudsman Reauthorization Act of 1999. The 
bill re-
authorizes the office of the Ombudsman at EPA, requires a report to 
Congress on the status of health and environmental concerns raised by 
the Ombudsman's investigations, and directs the Administrator of the 
EPA to re-structure the office to conform with the American Bar 
Association's model Ombudsman statute.
    The EPA National Ombudsman serves as an ``EPA watchdog,'' receiving 
requests or complaints from Members of Congress or citizens concerning 
EPA's actions in cases involving the Superfund or other hazardous 
substances programs. The Ombudsman conducts investigations into these 
complaints and then makes findings of fact and recommendations to the 
Agency on how to resolve the dispute(s).
    This office has provided valuable service assisting communities who 
have felt EPA was unresponsive to their needs. In particular, the 
Ombudsman has investigated and helped to resolve disputes at a number 
of Superfund sites around the country. In the last 8 years, the 
National Ombudsman's Office has assisted citizens in Montana, Ohio, 
Missouri, Idaho, Texas, California, Florida, Colorado, Pennsylvania, 
and Washington. A few of the Ombudsman's successful investigations 
include:
    Houston, TX.--Community residents near a toxic waste site at an 
abandoned facility that had been used by Monsanto and other companies 
for storing a reprocessing chemical waste had worked for years to have 
the site cleaned up. In the early 1990's, the EPA's Region 6 office in 
Dallas approved a plan to dispose of the contaminated soil from the 
site by incineration. However, community activists who had worked for 
years to have the site cleaned up, were concerned that digging up the 
contaminated soil and burning it would only further disperse the 
chemical pollutants. They took their case to the EPA Ombudsman who 
conducted an investigation and recommended that EPA adopt an 
alternative plan, an action EPA took.
    Denver, CO.--At the Shattuck Chemical Superfund site, Denver 
residents had been requesting that EPA ensure that the radioactive soil 
from the site was removed to a licensed disposal facility. Instead, the 
Agency decided to employ the too-often preferred solution of capping 
the site rather than cleaning it up. In this case, the contaminated 
soil was to be capped on the site in the middle of Denver. The 
residents contacted Senator Allard, who took the case to the National 
Ombudsman. The Ombudsman's investigation showed that a capped pile of 
contaminated soil could leak into the community. EPA later agreed they 
would have to remove the contaminated soil.
    These cases and others show the importance of an independent, 
empowered Ombudsman in making the EPA an agency that is accountable to 
the public whose health the Agency's mission is to protect. Another 
case shows the importance of ensuring and strengthening the Ombudsman's 
independence and authority.
    Lock Haven, PA.--Similar to the situation in Texas, residents near 
the Drake Chemical Superfund Site were concerned that EPA planned to 
incinerate contaminated material and that such action would worsen 
rather than solve the contamination problem. The residents contacted 
Senator Specter, who requested the Ombudsman's assistance. The 
Ombudsman was critical of the studies and methods used to determine 
that incineration was an appropriate means of remediation and 
recommended that the incineration not go forward until further testing 
was done. According to Vicki Smedley, one of the concerned residents, 
the community could not gain access to the Ombudsman's interim report 
and after the recommendations were issued, the Ombudsman was told not 
to continue work on the case. The incineration started before the 
Ombudsman's final report was issued.
    To ensure that the Ombudsman's work can be effective in making the 
Agency accountable, the Ombudsman position should be re-structured to 
include several key elements:
    (1) Independence of the Ombudsman from control by an officer of the 
agency.
    (2) Authority and freedom to investigate any action or failure to 
act by any Agency official or entity. The Ombudsman must be able to 
investigate the appropriateness of the action or failure to act, but 
also the correctness of Agency findings, the procedural propriety, and 
the Agency's motivations and reasons for acting or failing to act at 
the national level.
    (3) Access to all public records the Ombudsman finds relevant to 
the investigation, as well as authority to compel testimony by the 
Agency, its personnel, or its contractors.
    (4) Accountability of the Ombudsman. The Ombudsman should be 
accountable to Congress and any Agency official, entity, or contractor 
criticized by the Ombudsman should have opportunity to present their 
answer to the criticism.
    The Ombudsman Reauthorization Act directs the Administrator to re-
structure the office to conform to the American Bar Association's model 
Ombudsman statute. This step could result adoption of the elements 
needed to strengthen the Ombudsman's independence and authority. 
However, U.S. PIRG recommends that the bill explicitly grant the 
National Ombudsman necessary authority rather than relying on the 
Administrator to do so ``to the maximum extent possible.''
    Some have expressed concern that strengthening the Ombudsman's 
independence and authority would grant too much power to the Ombudsman. 
It is important to note, however, that with the strengthening measures 
put forth by this legislation, the Ombudsman would not have the 
authority to:
    Compel any decision by the Agency;
    Create, change, or set aside any law, policy, or Agency decision, 
nor compel any entity or person to make such a change; or
    Substitute for an administrative or judicial proceeding determining 
anyone's rights.
    One more critical means of strengthening the Office of the National 
Ombudsman is adequate funding. The Ombudsman has to date carried out 
his important work with limited staff and resources. Congress should 
ensure that the Office of the National Ombudsman has the funding 
necessary to carry out its important work.
    The EPA National Ombudsman provides an invaluable service in 
responding to and investigating problems faced by communities and 
individuals whose health may be threatened by hazardous waste. The 
Ombudsman increases EPA's accountability and provides recourse to 
communities and citizens who have problems with EPA's procedures or 
actions. Simply re-authorizing the Office of the Ombudsman is an 
essential action for Congress to take in its final weeks, but essential 
to that action are the elements of this bill that would ensure the 
Ombudsman's independence and authority.
the streamlined environmental reporting and pollution prevention act of 
                             2000, s. 2800
    U.S. PIRG supports The Streamlined Environmental Reporting and 
Pollution Prevention Act of 2000 as an essential reform at EPA that 
improves EPA's management of important environmental information. The 
reforms made in this bill, without in any way reducing or increasing 
the types of information collected and disseminated by EPA, have the 
potential to vastly streamline EPA's information systems. This would 
make EPA's information systems more efficient and easier to use for 
those reporting information to EPA, as well as for those using EPA's 
information resources.
    The Act requires EPA to establish an integrated electronic 
reporting system. This integrated system would:
    <bullet> allow reporting to one point of contact within EPA, rather 
than to multiple programs and offices; establish and improve electronic 
reporting systems for reporting information to the Agency;
    <bullet> identify environmental or occupational safety and health 
reporting requirements not administered by EPA and communicating those 
to reporting parties;
    <bullet> consolidate reporting requirements that would otherwise 
have to be reported more than once; and
    <bullet> provide important information on pollution prevention to 
reporting parties at the point of reporting.
    These actions address a long-standing problem at EPA, namely, EPA 
collects a wealth of information, but various pieces and types of 
information are reported to a number of different offices or programs 
within EPA at various times during the year. This not only means that 
information collection and storage is dispersed throughout the Agency, 
but that in some cases, the same or similar pieces of information are 
reported under more than one program and potentially more than once 
during the year. In addition to some pieces of information being 
collected multiple times, some types of information are not collected 
at all.
    Public interest groups have long held that EPA must improve its 
data management in order to determine what information it does and does 
not have. U.S. PIRG, along with a coalition of environmental and other 
public interest organizations, have long advocated for increasing the 
information on environmental hazards and conditions that is available 
to the public. This bill, without adding any new information reporting 
requirements, improves EPA's environmental information resources in 
ways that will not only improve information, but could also improve 
environmental protection by creating a significant opportunity for 
industries to prevent pollution and reduce environmental hazards.
    First, consolidating reporting requirements into one system gives 
facilities the opportunity to view all of their environmental 
information in one place. This would make it easier for companies to 
assess their environmental impact and identify, on their own, ways of 
reducing that impact. It would also help companies better translate 
information generated by environmental management systems into EPA's 
reporting requirements and formats. At the same time, the integrated 
system would provide information on pollution prevention to reporting 
facilities during the process of reporting. This means that industries 
would be simultaneously given the opportunity to review their own 
environmental impacts and at the same time the tools for reducing those 
impacts through pollution prevention.
    Second, the bill could increase pollution prevention simply by 
making it easier to report accurately and consistently. Reporting all 
environmental information to the same point of contact and through the 
same system would make it easier for the facility to identify and 
reduce reporting errors before even submitting the data to EPA. This 
would lead to increased compliance with laws and regulations as it 
would be easier for industries to reduce or address problems that may 
come about from simple confusion created by the myriad reporting 
requirements. This increased compliance and/or improved data quality 
would in turn lead to better policymaking and enforcement by EPA.
    This bill also addresses a concern raised primarily by industry 
representatives--that EPA should reduce the ``burden'' of reporting 
environmental information. The reporting of environmental information 
should not be seen as a burden, but rather as one part of industry's 
duty to protect human health and the environment. Nonetheless, U.S. 
PIRG supports efforts to increase the efficiency and ease with which 
information can be reported to EPA.
    Unfortunately, most of the ``burden reduction'' measures proposed 
by various EPA offices and by the White House Office of Management and 
Budget would reduce the information available to the public or 
compromise its quality. These are reactive responses to industry's 
burden claims; they would weaken environmental information at EPA and 
in most cases would not make reporting easier. U.S. PIRG and a 
coalition of public interest organizations have strongly opposed these 
initiatives as harmful to EPA's environmental information resources and 
ultimately harmful to human health and the environment.
    This bill, in contrast, seeks to proactively reform information 
management at EPA, which public interest groups have long supported. It 
would improve, not compromise, EPA's environmental information 
resources, and ultimately aid the protection of human health and the 
environment, while at the same time making it easier for industry to 
comply with EPA's reporting requirements.
    While this bill presents a great opportunity to improve the 
management of environmental information and potentially improve 
environmental protection, care must be taken to ensure that the 
integrated reporting system does not allow small loopholes to 
compromise the entire system. One potential flaw is that reporting 
parties are not required to use the new integrated system. Having some 
parties use the system while others choose not to could compromise 
EPA's data holdings by resulting in data bases with inconsistent data 
or data that are not internally comparable. Similarly, the bill allows 
EPA to establish different methods of providing information to 
facilitate use of the system by different sectors, sizes, and types of 
reporting entities. Both of these provisions could result in an 
information system in which internal comparisons cannot be made, 
significantly undermining EPA's ability to effectively use the 
information it gathers.
    The bill should be amended to clarify that whatever flexibility is 
allowed for small businesses that may not be technologically capable of 
reporting electronically there is a guarantee that the data can be 
integrated into the integrated system. One solution would be to ensure 
that even if electronic reporting is not required, use of the 
integrated reporting system is, so that even if information is not 
submitted electronically, it can be integrated into the larger 
information management system. A simple waiver could allow those few 
facilities choosing not to report electronically to report on paper to 
the integrated reporting system.
    U.S. PIRG's final comment is that the bill does not address a 
significant information management problem at EPA--the numerous data 
gaps in EPA's systems. Important information, ranging from toxic 
pollution released by some industries to data on ambient environmental 
quality, is not collected by the Agency. This bill improves the 
Agency's information management without adding any new information to 
that already collected, but future efforts must address the need to 
fill these gaps in information necessary to protecting the environment.
    While there are several improvements that could be made in this 
legislation, U.S. PIRG supports this bill as an important improvement 
to EPA's information management and as an opportunity for industries to 
prevent pollution. This bill embodies a common-sense information reform 
that the Congress should immediately pass into law.
      Responses by Jeremiah Baumann to Additional Questions from 
                             Senator Smith
    Question 1a. Your testimony indicated that you support S. 1763 as 
written. In your opinion, who should appoint and remove the Ombudsman?
    Response. It is my opinion that the Ombudsman should be appointed 
by the Congress, in accordance with the American Bar Association's 
model Ombudsman statute characteristics. This is one element of 
ensuring that the Ombudsman has independence from the Agency that he or 
she is charged with investigating. This procedure would also establish 
accountability to a representative body.

    Question 1b. Specifically, what powers should the Ombudsman have, 
and why should the Ombudsman have those powers?
    Response. In order to assure independence of the Ombudsman and his 
or her investigations from Agency influence or control, the Ombudsman 
should have the following powers:
    <bullet> authority to criticize all Agency officials;
    <bullet> freedom to employ his or her own assistants and to 
delegate them;
    <bullet> freedom to investigate any act or failure to act by the 
Agency or an Agency official;
    <bullet> access to all public records relevant to an investigation;
    <bullet> authority to inquire into fairness, correctness of 
findings, motivation, adequacy of reasons, efficiency, and procedural 
propriety of action or inaction by the Agency or an Agency official; 
and
    <bullet> discretionary power to determine what complaints to 
investigate and what criticisms to make or publicize.
    These powers for the Ombudsman allow the independence, access and 
authority necessary to fully empower his or her investigations and 
activities to determine the fairness and appropriateness of Agency 
activities. However, the Ombudsman cannot be unaccountable. 
Accordingly, counterbalancing measures are also important. For example, 
the Agency and Agency officials criticized by the Ombudsman must have 
advance notice of the criticism and the opportunity to publish an 
answering statement.

    Question 1c. Should the Office of the Ombudsman have a separate 
line item in the EPA budget?
    Response. Yes. In order to grant the full authority and 
independence necessary for an empowered Ombudsman, the Agency (whom he 
or she is charged to investigate) should not have discretion over the 
Ombudsman's budget. Congress, to whom the Ombudsman is accountable, 
should determine the Ombudsman's budget.

    Question 1d. Why is it necessary to have an Office of the 
Ombudsman, instead of a Complaint Bureau or an Advisory Committee?
    Response. An Ombudsman, particularly one with the powers defined by 
the American Bar Association's model Ombudsman guidelines, has unique 
independence and authority to investigate. It is these characteristics 
(denoted in my response to question 1b) that are important to the 
Office more than what the office is called. A complaint bureau refers 
commonly to a bureaucratic unit that is charged with processing and 
attempting to ameliorate complaints. An advisory committee typically 
addresses issues or resolved disputes at the request or initiation of 
the Agency itself, often in consultation with the agency. The Office of 
the Ombudsman should be empowered with unique independence and 
authority, and a mission expressly dedicated to investigating the 
complaints brought by citizens and communities.

    Question 1e. How should the Office of the Ombudsman be structured? 
In that regard, should the Office of the Ombudsman be established at 
EPA Headquarters in Washington, DC, or should there be a separate 
Ombudsman for each EPA Region?
    Response. It is important that there be a national Ombudsman office 
for two reasons. First, the EPA Regions' policies and activities, for 
the most part, flow from the national office's policies. In order to 
ensure the Ombudsman's ability to investigate root causes of problems 
he or she discovers, the Ombudsman must be able to investigate the 
agency or agency officials on a national scale. Second, because of 
inconsistencies in responsiveness to community concerns, it is useful 
to have an Ombudsman outside the region to approach with complaints 
about the region's policies or activities.
    Regional Ombudsmen might be, because of their more localized 
attention, more responsive to local concerns in some cases (provided 
they have independence from the Regional Office in order to investigate 
the Region's activities) and we support the establishment of regional 
Ombudsmen. However, regional Ombudsmen cannot be a substitution for a 
national Ombudsman.

    Question 2. Our written testimony highlighted the fact that EPA 
needs to improve public access to information and increase their 
usefulness to the public. You support both S. 2800, the Streamlined 
Environmental Reporting and Pollution Prevention Act of 2000, and S. 
1763, the Ombudsman Reauthorization Act of 1999, because of the benefit 
the public would derive from those EPA services. However, do either of 
these bills increase environmental protection?
    Response. Both of these bills ultimately increase environmental 
protection indirectly, by making the EPA more efficient and more 
responsive. However, the Streamlined Reporting Act would do so even 
more directly for several reasons. First, integrating reporting 
provides companies with a unique opportunity to assess, view, and 
report the entirety of their environmental information, reflecting the 
entirety of their environmental impacts, at once. This simple activity 
(which is not currently unavailable to industries, but for which this 
bill provides added encouragement) would give industries the 
opportunity to reduce their environmental impacts. Second, the bill 
would provide industries with information on pollution prevention. 
Pollution prevention is the most protective and efficient way of 
reducing environmental impacts. It means reducing impacts by 
eliminating the generation and use of polluting material, rather than 
trying to clean up waste streams at the ``end of the pipe'' (whether 
that location be a pipe, outlet, or a product containing polluting 
materials). This bill again creates a unique opportunity for industries 
to prevent pollution by proving pollution prevention information at the 
point of reporting, that is, at the point where the facility's managers 
are seeing their total environmental impacts. Again, this information 
is not necessarily unavailable to industries; in fact, facilities that 
are looking to improve their environmental performance should already 
be making these assessments, gathering pollution prevention 
information, and taking action to prevent pollution already. This bill 
makes this process easier and provides encouragement for those 
facilities who would otherwise not take the initiative.
                               __________
      Statement of Deborah Spaar Sanchez, Administrator, Overland 
                    Neighborhood Environmental Watch
    My name is Deborah Spaar Sanchez. I live at 500 West Jewell Avenue 
in Denver, Colorado, approximately 300 yards from the Shattuck Chemical 
Superfund site, a toxic radioactive waste dump. I am a founding member 
and the Administrator of Overland Neighborhood Environmental Watch--a 
community organization of concerned citizens operating under a 
Technical Assistant Grant from the EPA.
    I am honored that you have invited me to speak to you today. I am 
honored to be representing my community and am deeply grateful to my 
neighbors for funding my trip here. I also wish to honor this 
committee, industry representatives, the EPA and citizens across our 
Nation for doing what I believe to be the sacred work of protecting and 
restoring to wholeness the lifegiving systems of this Nation and this 
earth.
    I have come to voice my strong support for S. 1763. I am convinced 
that continued funding and independence of the EPA National Ombudsman 
Office is the only way to ensure that citizens and communities across 
our country have a voice in the Superfund process and in decisions 
which directly affect them, their families and the environment. I have 
also come to share my thoughts with you about my community's experience 
with the EPA National Ombudsman, Robert Martin.
    I will do my best to tell my and my community's story in the time I 
have been given but if you have any questions later, please call me and 
if I can't answer them, I'll be happy to put you in touch with one of 
my neighbors who can.
    By the time Senator Allard asked EPA Ombudsman Robert Martin to 
help our community in the spring of 1999, I personally felt as if I had 
been in a war with Region 8 EPA for 12 years.
    I had been given misinformation (the EPA FOIA officer wrote me a 
letter in response to a request I made in 1987 saying that there were 
``no NPL sites in my zip code,'' when in fact, Shattuck had the same 
zip code as me and had been placed on the National Priority List 
sometime between 1983 and 1985.) Mistakes had been made and there was 
no interest in correcting them (when I pointed out to EPA that a flood 
plain map used to determine that the site was not in danger of flooding 
actually showed water running uphill, they seemed unconcerned and did 
not offer any further explanation even though the community wanted new 
research done).
    There were constant contradictions in the information being given 
to the community (first the Project Manager announced in a community 
meeting that we shouldn't eat the fruits and vegetables in our gardens 
and then later, without doing any further research studies, said it was 
safe to eat them.) Our State Health Department and the EPA sent us a 
proposed plan saying that the ``preferred remedy'' was to ``excavate 
and remove'' the waste. We were told that this was the only remedy 
which would completely ensure health and safety of the community. Then, 
after closed meetings with the EPA, State health and the PRP, a ROD was 
signed ordering the company to treat, stabilize and bury the 
radioactive soil in our neighborhood. They did this without coming back 
to the community to tell us that they had changed their minds. When we 
asked to see documents and records of meetings that would explain to us 
why they changed their minds, we found that approximately 2,000 
documents were now classified, marked ``privileged'' and kept from 
public scrutiny.
    I was suspicious, I was exhausted, my husband had died suddenly and 
unexpectedly of a heart attack the year before and I was living with 
unspeakable fears that the health problems my son was having were a 
result of radium contamination. I felt assaulted by the Government I 
had been raised to trust as supposedly working to ensure every 
citizen's right to ``life, liberty and the pursuit of happiness.''
    I had become like a citizen in one of ``those other countries'' 
where people can never relax. They go to bed at night fearing that, at 
any moment, their government will make some decision which could put 
them and their family in harms way. I did not once feel heard; I did 
not feel seen. I felt completely disregarded as if I were invisible. I 
wanted to take my son and move out of the beautiful passive solar home 
my late husband had designed and built for us but even that thought 
brought fear.
    I could not think of trying to sell our home without disclosing to 
a buyer that our Government had allowed a rich and powerful company to 
bury radioactive toxic waste dump in the middle of our lovely 
neighborhood. My next fear was that I might not be able to find a new 
home that wasn't also potentially affected by some toxic waste. I could 
ask, like I did last time, but after my experience of receiving false 
information before, how could I ever be sure?
    The first thing that Mr. Martin did was to listen to us. He and his 
small staff came and they listened. They placed no restrictions, no 
time limits, no agendas on their listening. Mr. Martin, listened and 
listened. He listened to our pain, he listened to our anger, he 
listened to our fears. He listened to our frustration and he listened 
to our disillusionment with our Government and with the EPA. He also 
listened to our good ideas and to the wisdom we shared about our 
community and what we knew about our own environment--wisdom seldom 
tapped into by the EPA because the system had been structured to 
exclude community input. It places EPA technical scientists addressing 
only the concerns of the money oriented businesses either responsible 
for pollution and/or cleaning it up. He listened with respect and he 
listened for as long as we wanted to talk. Then he promised to uncover 
the facts for us.
    He began to meet with EPA Region 8 staff and began working with 
Senator Allard and this very Senate committee to release the documents 
which had been hidden from us. He then began planning for and scheduled 
public hearings.
    EPA Assistant Administrator for Solid Waste and Emergency Response 
Tim Fields came to our community about the same time that Mr. Martin 
came and he also began to listen. I believed he genuinely wanted to 
find out what problems there were to be solved. He treated me with 
respect and I believe honestly wanted to help solve the problems we 
were facing. He set up a series of Dialogue Meetings with all 
stakeholders concerned with the Shattuck site. I felt that these 
Dialogue Meetings were productive and helped me to feel as if I was 
finally getting a chance to work with my government but the difference 
between this process and the Ombudsman process was that these meetings 
were closed to the public and to the press. Even though, this time, the 
community had a seat at the table, and we were discussing possible 
solutions to the problems with each other, we could not take much of 
that information out into our community.
    It was when Mr. Martin's office, Senator Allard and other elected 
officials convened public hearings in the community with the press 
present, that our community seemed to sigh with relief. I felt true 
democracy was finally taking place and I was able to regain at least a 
little of the faith in my government that I had lost.
    I believe that funding the Ombudsman Office is also the best use of 
our taxpayer dollars. I have mentioned many times at all of the 
meetings how outraged I have been at the waste of the taxpayer dollars 
and how much these dollars have been used to make mistakes and then to 
cover up mistakes. We pay the city attorney and the Mayor to fight with 
the company and the EPA, the EPA is represented by the Department of 
Justice attorneys, who we pay--and the lawsuits are brought before the 
Federal judges, who we also pay. Many times I have advocated for us to 
stay home and sue ourselves without all the middle men.
    Increased funding would allow communities to ask for help from the 
Ombudsman before taxpayer dollars were thrown away on lawsuits.
    Involving the community from the beginning of the process--and 
actually listening to our suggestions--would bring a wisdom to the 
Government process from the governed which would not only be good for 
all concerned from a spiritual and democratic perspective but also from 
a monetary and practical one.
    When problems arise and mistakes are made, and even when mistakes 
are covered up, it is only by exposing them to the light of day that we 
have any hope of correcting them. We crucially need an honest and 
diligent EPA protecting the environment of our Nation and serving as an 
example to other Nations. The Ombudsman process is crucial for helping 
expose the truth to the light of day for citizens dealing with serious 
threats to our environment and knowing the truth is the only way that 
we can remain free and truly self governed.
    Thank you Mr. Chairman and members of this committee. I will be 
happy to answer any questions you may have.
                               __________
Statement of Kenneth Bruzelius, Executive Director, Midwest Assistance 
                             Program, Inc.
    Mr. Chairman, Senator Baucus, and distinguished members of the 
committee.
    Thank you for the opportunity to testify in support of Senate Bill 
1915, The Small Community Assistance Act.
    My name is Kenneth Bruzelius, New Prague, Minnesota. I bring three 
perspectives to the issue of small communities and their concerns. 
First, I have lived over 50 of my 65 years in rural places or small 
communities under 7,500 in population. In this capacity as citizen, I 
have served on a city council for a town of 50 people and I have served 
for 2 years as a township representative to a county planning board.
    Second, as the Executive Director of the Midwest Assistance Program 
(MAP), my staff and I have entered thousands of small communities 
providing technical assistance to mayors, city councils and special 
district boards of directors. The Midwest Assistance Program is a not-
for-profit agency that serves nine Midwest and western states with 
technical assistance to small communities on drinking water, 
wastewater, solid waste management and other environmental concerns. 
MAP is part of the Rural Community Assistance Program (RCAP) network.
    As an aside, the RCAP network deeply appreciates the support that 
we have received from members of this committee through the years as we 
work with EPA, USDA, HHS and other government agencies. In particular, 
we thank both Senator Baucus and the chairman for their support of a 
provision in the Water Resources Development Act (WRDA), which, if 
enacted, will allow the Corps of Engineers to enter into cooperative 
agreements with RCAPs or other rural technical assistance entities to 
assist small rural communities during planning and implementation of 
Corps projects.
    Third, I was a member of the Small Town Task Force (STTF) created 
by Public Law 102-386 dated October 6, 1992. Upon sunset of that task 
force I was asked to be a member of the Small Community Advisory 
Subcommittee (SCAS)--a subcommittee of the Local Government Advisory 
Committee. In July of this year my term on this small community 
advisory subcommittee expired.
    I am pleased to be here today to support The Small Community 
Assistance Act of 1999. I commend Senator Jeffords for initiating and 
introducing this legislation, as well as those who are cosponsors. I 
also express appreciation to the Environmental Protection Agency for 
its interest, commitment and support of Small Community issues.
    My testimony supporting this legislation is a combination of 
individual expression as well as collaboration from local officials, 
other grassroots organizations, and the Rural Community Assistance 
Program network (RCAP).
    Establishing a Small Community Advisory Committee as a permanent 
committee--instead of a temporary subcommittee is extremely important. 
Small communities represent an overwhelming percent of local 
governments . . . over 26,000. Additionally, unincorporated communities 
subject to EPA regulation would be heard and benefit from the Small 
Community Advisory Committee. It is important that these stakeholders 
have a direct voice to EPA decisionmakers without the filter of a 
committee dominated by larger cities and metropolitan areas. This 
message came out loud and clear in the Small Town Task Force Report and 
has been reaffirmed in the current work of the Small Community Advisory 
Subcommittee. Background information about and excerpts from the STTF 
Report are included as part of this testimony starting on page 6.
    The Small Community Assistance Act responds to the message conveyed 
by small communities in the Small Town Task Force Report. Briefly 
stated, that message is:
    <bullet> We need environmental protections;
    <bullet> We need to understand how new regulations will accomplish 
that;
    <bullet> We need input so that when regulations are promulgated 
they are appropriate to our situation;
    <bullet> We need advice and technical assistance in how to 
implement;
    <bullet> We need access to resources so that we don't bankrupt our 
communities and our future.
    I commend EPA Staff for the seriousness and commitment that I have 
seen in their pursuit of their responsibilities. It is because of that 
commitment that I find it discouraging that they are not willing to 
offer to small community officials an opportunity to express their 
similar commitment to fully participating in the job of protecting the 
environment and public health.
    Creating a permanent Small Community Advisory Committee with the 
objectives stated in S. 1915 is a small, but extremely important 
mechanism toward offering small community officials this opportunity.
    S. 1915 would establish an advisory committee composed of at least 
one (1) small community representative from each of EPA's ten (10) 
regions. It would:
    <bullet> Allow for representation from Federal, State and public 
interest representatives.
    <bullet> Seek to improve the working relationship between the 
agency and small communities.
    <bullet> Provide for early involvement in the development of 
environmental regulations.
    <bullet> Report its activities to Congress.
    <bullet> Assist the EPA Administrator in other appropriate matters.
    I ask--Who could reasonably deny small community officials this 
opportunity to show their commitment to helping themselves and their 
neighbors to meet essential environmental responsibilities?
    S. 1915 offers EPA an opportunity to better understand small 
communities. Section 8--The Survey of Small Communities identifies 
relevant information needs that, if appropriately collected, compiled, 
analyzed, and translated into strategy, can assist EPA and the Congress 
in improving environmental services and quality of life in small town 
America.
    S. 1915 also offers small communities an opportunity to better 
understand the Federal Government's regulatory requirements for small 
communities. A Guide for Small Communities entitled ``Everything You 
Wanted to Know About Environmental Regulations--But Are Afraid to Ask'' 
was originally published by my organization (the Midwest Assistance 
Program) under a contract from Region VIII--EPA. It has been amended 
and updated a number of times by EPA regions, headquarters and States. 
This publication has fallen out of date and needs EPA to publish an on 
going, up-to-date guide in a format useful to small communities.
    I would like to speak in particular about the concept of a Small 
Town Ombudsman at regional EPA offices. The STEP legislation of 1992 
required EPA to initiate an Ombudsman function for small communities. 
EPA has refused to do so! The final report of the Small Town Task Force 
also recommended that EPA establish a Small Community Ombudsman office 
at EPA regional and headquarters offices. This recommendation has not 
been honored. (EPA has re-established a Small Community Advisory 
Subcommittee, and small communities are thankful for this limited 
voice.) Once again the Ombudsman issue was raised by the Small 
Community Advisory Subcommittee. The advisory subcommittee has spent 
the last 2 years asking EPA to implement an Ombudsman like function for 
small communities. Even today they resist this request. A letter of 
September 19, 2000, just 1 week ago today, was transmitted to the 
Agency again requesting the establishment of an office of a small town 
advocate. Such offices could serve a number of useful functions 
benefiting small communities as they seek to enhance and preserve 
environmental, quality of life services to their residents.
    Regional Ombudsman Offices could:
    <bullet> Provide for a mechanism to identify and notify small 
communities affected by new rules.
    <bullet> Consult with affected small communities about the 
potential impacts of a contemplated rule.
    <bullet> Make provisions for compliance assistance to small 
communities when the rule is adopted and implemented.
    <bullet> Identify ``unintended consequences'' of implementing a 
rule in unique situations and assist in providing an appropriate 
resolution.
    <bullet> Be a full-time advocate for small communities to the 
universal goal of enabling them to improve their environment and 
quality of life and meet regulatory compliance through implementation 
or appropriate exemptions or waivers.
    <bullet> Be a participant in State/EPA partnerships and delegation 
agreements to assure that small community concerns are considered: such 
as, outreach, technical assistance, availability of resources, etc.
    It is also important for each Regional Ombudsman Office to have an 
advisory board of small community stakeholders. This approach 
recognizes the likelihood of regional differences and enables local 
officials to inform their Regional Ombudsman of their unique needs. The 
regional advisory mechanism should enable EPA, States, and local small 
community advisors an opportunity to understand issues that arise at 
each level and work toward acceptable solutions.
    An EPA Headquarters Ombudsman Office could:
    <bullet> Be an advocate within EPA at the start of, and during the 
regulatory development process to assure that impacts to small 
communities are clearly understood. In particular the cost implications 
of new regulations should be projected on a real cost basis to the 
smallest regulated community system that would be impacted. (i.e. if a 
community of 25 would be impacted, what would the real cost to that 
community be?)
    <bullet> Be an equal partner in the development of rules to 
determine what, if any, federalism implications may be involved in 
implementation.
    <bullet> Participate as an equal partner in EPA's evaluation of 
delegated programs to help identify and ameliorate unworkable or 
unintended negative regulatory impacts on small, rural communities.
    The Superfund Ombudsman and the Small Business Ombudsman Offices 
are clear examples that the availability of such assistance benefits 
smaller entities, which often have few resources to secure other 
professional or legal assistance.
    The Regulatory Review Plan described in Section 6 of the Act would 
seek to increase the involvement of small communities in the regulatory 
review process. This is important because:
    <bullet> Small community systems represent the largest number of 
regulated systems.
    <bullet> Small communities are the least able to survive a 
regulatory mistake or debacle.
    <bullet> Solutions that are available to cities are often cost 
prohibitive to small systems, and solutions appropriate to small 
systems are often untested or otherwise not acceptable to State 
regulatory agencies.
    <bullet> Small communities need to be represented by a larger 
number of community officials, because as individuals they often lack 
the time, experience and technical knowledge that paid staff and 
consultants can provide to larger cities.
    The Regulatory Flexibility Act of 1980, the Unfunded Mandates 
Reform Act of 1995, and the Small Business Regulator Enforcement 
Fairness Act of 1996 have each prompted EPA to show a little more 
interest in how small communities are treated by the Agency. In effect, 
EPA has responded to small community needs only after Congress has 
mandated it.
    The Small Business Regulatory Flexibility Act (SBREFA) requires EPA 
to consult with small entities (including communities) when a proposed 
rule is likely to impose a ``significant impact on a substantial number 
of small entities''. Recently EPA utilized this stakeholder 
consultation process to review the development of a proposed regualtion 
(arsenic). In spite of strong stakeholder dissent to what EPA proposed, 
it is yet to be shown that EPA's publishing of the proposed regulation 
was informed or modified in any way by this stakeholder process.
                         background information
    This background information is taken from the Small Town 
Environmental Planning (STEP) legislation (Public Law 102-386) and from 
the Small Town Task Force Report dated May 23, 1996.
    Small communities across the United States face a wide range of 
environmental challenges and responsibilities. Local leaders must 
evaluate a multitude of competing priorities with limited resources and 
are accountable to their citizenry for the decisions they make 
regarding these issues. It is increasingly difficult for small towns to 
manage and implement environmental requirements for a variety of 
reasons.
    The work of the Small Town Task Force (STTF) characterized small 
communities as follows: People who live in small towns are proud of 
their community. They want to comply with reasonable health and 
environmental standards leaving a healthy legacy for their children. 
However, local officials are concerned about standards written without 
consideration for the special circumstances small towns in America 
face. They take issue with unnecessary and cumbersome regulations 
restricting their ability to respond intelligently to local priorities 
and needs. It is not that small towns do not want to comply with 
environmental regulations. They simply want some flexibility in order 
to comply in a reasonable manner. Small towns do not want preferential 
treatment; they want treatment that recognizes their unique political 
and financial situations. Small towns have many unique characteristics. 
It is realized that in order to maintain or improve the quality of life 
for citizens, difficult choices will have to be made.
                  small town task force [sttf] history
    The Small Town Task Force was established by Public Law 102-386 
dated October 6, 1992, section 109, Small Town Environmental Planning. 
This is also referred to as the STEP Legislation.
    The STEP legislation authorized the Administrator of the 
Environmental Protection Agency to establish the Small Town 
Environmental Planning Task Force, commonly referred to as the Small 
Town Task Force (STTF). The STTF was formed to improve the working 
relationship between EPA and small towns and the ability of small towns 
to comply with environmental regulations. The task force was to include 
representatives of small towns from different areas of the United 
States, Federal and State governmental agencies and public interest 
groups. Fourteen individuals were appointed to the task force including 
municipal, township, and State and Federal officials as well as others 
who work with small towns on environmental issues. It was my privilege 
and honor to be a part of this group.
    The STTF provided recommendations to EPA on building the capacity 
of small towns to comply with regulations, promoting regionalization of 
environmental treatment systems, solving multi-jurisdictional 
compliance and permitting problems, involving small communities in the 
rulemaking process and improving the working relationship between EPA 
and small towns. Those recommendations are explained in detail in this 
testimony.
    The STTF had five major responsibilities. They were to:
    a. Identify regulations developed pursuant to Federal environmental 
laws which pose significant compliance problems for small towns;
    b. Identify means to improve the working relationship between the 
Environmental Protection Agency and small towns;
    c. Review proposed regulations for the protection of the 
environment and public health and suggest revisions that could improve 
the ability of small towns to comply with such regulations;
    d. Identify means to promote regionalization of environmental 
treatment systems and infrastructure serving small towns to improve the 
economic condition of such systems and infrastructure; and
    e. Provide such other assistance to the administrator, as the 
administrator deems appropriate.
    Several responsibilities are assigned to the administrator or to 
the agency. Perhaps the most important is, ``The Administrator . . . 
shall establish a program to assist small communities in planning and 
financing environmental facilities.''
    To begin the process of advising the administrator, the task force 
stated one finding and four principles, which it believed, guided and 
shaped all specific recommendations.
Finding: Small towns are different from large towns--not just smaller
    There are several reasons why this is true. Most of the reasons can 
be grouped into three broad areas: limitations on technical and 
professional capacity, limitations of financial resources, and 
demographic and socio-economic factors.
            A. Limitations on technical and professional capacity
    No. 1, small towns, as a general rule, have no full time 
officials.--One State represented on the task force has 310 
municipalities; 297 have fewer than 5,000 people. There are two full-
time mayors in the State (for one town of 50,000 population and another 
with more than 100,000 population). There are four full-time city 
council members. All the remaining mayors and council members are part-
time, and have other, full-time, life-supporting occupations.
    On a national basis, 86 percent of the 35,000 total governments in 
the United States contain fewer than 10,000 people. Ninety million 
people in the United States live in jurisdictions under 10,000 
population; 74 million live in jurisdictions under 2,500. One third of 
all governments in the United States have no employees at all.
    No. 2, small towns, as a general rule, have little or no 
professional staff.--Such towns may have a clerk, who may or may not 
have received specialized training. Routinely, small towns do not have 
planning offices or engineering staffs. The wastewater operator may 
have been trained by the State and may, in addition to operating the 
wastewater system, perform other municipal functions including 
maintenance and some law enforcement.
    A key factor related to these two points is continuity, because 
town officials change, as do the bureaucrats who regulate them. At just 
about the time that agency officials are getting along with the current 
group of town officials, an election can cause them all to be thrown 
out of office. Then the whole education process has to start all over 
again. The loss of continuity threatens the communication linkages that 
have developed among local, State and Federal officials. When that 
happens, regulatory compliance becomes a nightmare. Any good developed 
by regulators may be lost in this situation.
    Finally, there is often reluctance on the part of potential 
candidates to run for office and to be associated with unpopular 
environmental projects. In one State represented by a task force 
member, there are often elections in which nobody declares his or her 
candidacy. This means that the people who will address the challenges 
of environmental protection are write-in candidates.
    No. 3, small towns, as a general rule, cannot attract or support 
private technical businesses; accordingly, there is no private 
capability to supplement governmental capacity.--There will usually be 
no registered engineer in a small town, for example, nor will there be 
an engineering firm. There will be no laboratory to perform required 
tests. One member of the task force has no certified laboratory in her 
state.
    No. 4, there will be few, if any, training opportunities.--Small 
towns do not generally contain universities or significant technical 
training capabilities. Some progress is being made in this area in two 
respects: first, State governments have taken on some of the training 
responsibilities. Where local budgets permit travel, states can train, 
for example, water and wastewater operators. Second, in some areas 
interactive television networks offer an alternative form of training. 
But training opportunities will always be in short supply for small 
towns because training capacity does not exist locally.
    The result of these four facts is that technical and bureaucratic 
capacity is severely limited in small towns. The part-time mayor is 
limited in ability to understand what requirements must be met; the 
council is limited in their ability to understand the significance of 
what they are being asked to do; and there are limited or no staff or 
private resources upon which to draw.
            B. Limitations of financial resources
    No. 5, almost by definition, small towns have severely limited tax 
bases.--In one State represented on the task force, a small town which 
needed a loan for water and wastewater projects found that the amount 
of the loan would have exceeded the entire assessed value of the town.
    No. 6, small towns, because of limited opportunities for young 
people, tend to have disproportionately older populations.--The 
implications of this fact will be explored in another way under socio-
economic factors. On average, older persons, retired and/or living on 
fixed incomes--especially in rural areas--tend to be poorer than the 
population as a whole. Their marginal capacity to support increased 
spending, for any public purpose, is quite limited.
    No. 7, small towns tend to have fragile, heavily concentrated 
economic bases.--Thus, the small town gasoline station faced with the 
cost of upgrading underground storage tanks may be the only station in 
town. Should the owner not succeed in coming into compliance, the 
result of the loss is not a reduced competitive base; it may be the 
total loss of the services.
    This can also have major impacts on individuals. Station owners 
cannot, in some instances, sell their businesses because of the cost to 
clean up the areas where previous owners have discarded petroleum 
products on the property. In some instances, the cost would exceed the 
sale price of the property. This burden causes loss of retirement 
income.
    No. 8, infrastructure costs fall disproportionately on small towns 
because entry-level costs must be distributed over a smaller base.--
Thus, the cost of a waste water system for a population of 1,000 is not 
1 percent of the cost of such a system for a population of 100,000; it 
is substantially more. When those costs are distributed over a smaller 
number of households, the per family costs escalate--perhaps as much as 
10 times. EPA is currently considering combined sewer overflow rules. 
The agency estimates that the per-household costs in towns under 1,000 
population will be more than 10 times higher than similar costs in 
towns with populations greater than 100,000. This is a well-recognized 
principle in the development of rural drinking water systems. 
Unfortunately, this does not appear to have been a consideration when 
the Federal pollution abatement grant programs were being administered.
    No. 9, limited tax bases mean limited budgets.--Small towns 
routinely operate with budgets smaller than $100,000 per year. In many 
instances, the amounts will not exceed $50,000. These budgets are so 
small that the cost of additional drinking water testing, for example, 
may be 10 percent, or higher, of the total annual budget.
    Many small jurisdictions do not have access to capital at 
reasonable rates. This may occur because of costs of obtaining bond 
ratings, thereby causing the community to have a ``non-investment 
grade'' rating with accompanying higher rates. Or the problem may arise 
from limited resources, or from State constitutional limitations on 
indebtedness.
    While funding sources exist at the Federal, State and local levels, 
small communities often find it difficult to access these sources, for 
reasons discussed elsewhere, such as the absence of technical and 
professional staff, absence of political strength, and a lack of 
recognition of the particular problems of small communities.
    Many small towns cannot get local approval to expend funds for 
programs which go beyond what they believe is necessary.
            C. Demographic and Socio-Economic Factors.
    No. 10, small towns tend to have little, or no, medical care or 
emergency services readily available.--In the current debate on 
national health care, rural states have repeatedly tried to make clear 
that their problem is, more than anything else, the absence of medical 
care. Thus, ``managed competition'' may not be the answer where there 
is no competition to manage. Additionally, medical infrastructure, such 
as ambulance and 911 services are routinely not available. Finally, 
small towns have limited fire-fighting capability. They often rely on 
volunteer fire departments and limited equipment.
    It is, therefore, somewhat facile to argue that small towns must 
meet the same environmental standards as the rest of the Nation and 
that such standards are required by ``environmental equity.'' Citizens 
of small towns may already be subject to greater health risks than 
their neighbors in large cities. If the basis for imposing the 
environmental standard is health protection, greater health protection 
could be accomplished through expanded medical and emergency services.
    No. 11, a disproportionately older population may require different 
forms of health protection.--Typically, environmental protection is 
based on health risks that may or may not come to fruition for 10 or 20 
years. The older population of the typical small town has many more 
immediate health threats with which it must cope.
    No. 12, small communities often lack political strength, both on 
the State and national levels.--Small communities perceive that they 
are required to meet higher environmental standards than large 
communities are able to arrange for themselves through the exercise of 
political power. This lack of political strength may affect the 
distribution of resources as well as the granting of exemptions and 
deviations.
    For all these reasons, the STTF found that small towns are 
fundamentally different from large communities.
    The Small Town Task Force Committee identified three primary 
priorities. These priorities are excerpts from the Small Town Task 
Force Report.
I. Improving the Working Relationship Between EPA and Small Towns
    The STTF should be re-established as an independent advisory group 
by the Administrator, within existing statutory and funding guidelines, 
to continue its work and provide ongoing guidance to EPA regarding 
small towns.
    A Small Town Ombudsperson Office should be established in each EPA 
region and at headquarters with primary responsibility for serving as 
an advocate for small towns and as a facilitator for addressing small 
town concerns and programs.
    EPA should formulate a method for allocating Federal resources and 
funds for environmental issues targeted on the basis of need 
recognizing that small towns often pay a disproportionate share of 
expense.
    EPA should take an activist role in shifting both environmental 
responsibility and accountability to the states, giving them the 
capacity to solve local problems in the most economically feasible and 
timely manner. These efforts should support the broader concept of 
encouraging localities to implement community-based environmental 
planning.
    EPA should recognize the ability of small towns to initiate, 
prioritize and implement community-based environmental planning 
efforts.
    EPA must use the opportunity of Agency reorganization to 
institutionalize special considerations for small towns.
    A brief preface for each proposed and adopted regulation should be 
provided in layperson terms providing a justification for the 
regulation.
    Information developed on environmental regulations and requirements 
of regulations must be written in user-friendly language.
    A waiver process that is easily understood and implemented should 
be developed so that when small communities request a waiver, states 
have a process in place.
    Chemical monitoring requirements should be revised to provide 
states with authority to design alternatives to national monitoring 
requirements.
II. Policy and Procedure to Involve Small Towns in the Rule-Making 
        Process
    EPA should establish a Small Community Advisory Committee to review 
environmental regulations as part of an initiative for involving small 
towns as early as possible in the process of developing environmental 
rules, guidance's and policies.
    Funding should be set aside to include conflict resolution experts 
in the regulatory process. This will be especially crucial when those 
with opposing views are not able to reach a compromise or mutually 
agreed upon solution.
    Outreach mechanisms are needed for small towns that extend beyond 
those that have traditionally been used. Special efforts are needed for 
reaching small jurisdictions.
    EPA must insure that a small town official sits on the Regulatory 
Negotiation Work Group when a rule or policy that has the potential to 
impact small towns is being reviewed to assure the special nature of 
small towns is considered. The STTF should have the opportunity to 
identify a representative that is knowledgeable on the specific issue 
being considered.
    EPA needs to improve methodologies for assessing the environmental 
impacts, costs, and practical and technical applications of proposed 
regulations. Special consideration should be given to how regulations 
will impact towns with populations less than 2,500.
    EPA should expand its use of focus groups, Internet, public 
meetings, newspaper articles and regional small community work groups 
such as the one in Region VIII to inform small towns of pending rules 
and issues of concern.
    EPA should utilize the small community data bank for information 
about small towns when writing regulations.
III. Technical Assistance
    EPA should assure that technical assistance is available to small 
town officials from Federal, State and third party providers to enable 
timely and cost effective environmental compliance capacity at the 
local level.
    The Office of the Small Town Ombudsperson must be staffed to 
provide technical assistance to small towns and to resolve problems 
between State primacy agencies and small towns pertaining to 
interpreting and implementing new regulatory requirements.
    EPA and Congress should fund technical assistance as part of State 
delegation grant programs and provide assurances that states have the 
capacity to provide technical assistance to help small towns comply 
with mandated regulations.
    EPA and Congress should expand resources available, both directly 
and through third party technical assistance providers, enabling small 
towns to secure professional services for planning, developing and 
implementing new or rehabilitated environmental facilities whether 
immediate compliance problems are at stake or pollution prevention 
efforts are the issue.
                               __________
     Statement of B. Roy Prescott, Chairman, Jerome County, Idaho, 
                         Board of Commissioners
    Mr. Chairman and members of the committee, my name is Roy Prescott 
and I am the Chairman of the Board of County Commissioners for Jerome 
County, Idaho. I am here to give you a brief insight into the 
implementation and benefits of S. 2296, a bill that would establish 
Project SEARCH--the Special Environmental Assistance for Regulation of 
Communities and Habitat program funded through the Environmental 
Protection Agency for small communities under 2,500 people.
    Rural Idaho communities are facing many of the same environmental 
challenges seen throughout the United States, including the protection 
of groundwater, the disposal of waste water, the protection of critical 
habitat, and many others. Yet these small communities often find 
themselves without the financial resources to undertake the size and 
scope of project necessary to respond to environmental challenges.
    In answer to their call for help in meeting environmental 
regulations and providing for liveability, several communities in Idaho 
prevailed on Congress to provide funding through a 1-year Project 
SEARCH program. Our focus was to use these funds to help small rural 
communities solve their environmental problems. We targeted these 
communities because they generally have small operating budgets, only 
part-time staff, and lack the financial reserves so critical to being 
competitive in the normal public sector grant processes.
    The 1999 initial grant of $1.3 million from EPA went to a local 
non-profit. This regional planning association, the Region IV 
Development Association, has considerable experience with grant 
processes and helping small communities. The Association created a 
simplified grant application that any part-time city officials or 
mayors could complete. A notice of the grant program availability and 
an application was sent to all of Idaho's counties and all cities with 
a Census population of less than 2,500.
    To review the applications and ensure a fair, locally-driven 
process, a seven-member Citizens Advisory Committee was formed. The 
Committee was comprised of one representative appointed by the local 
board of each of Idaho's six economic development planning regions, and 
one person who brought to the group his experience as a small town 
mayor and with the EPA's Small Town Task Force. This individual served 
as the Committee's Chair. These seven individuals, of which I was one, 
reviewed the applications and made the funding decisions.
    Of the 47 applications received, we were able to fund only 21. The 
funded applications ranged from a low of $9,000 for a facility plan so 
that a housing authority could solve its wastewater problems to a high 
of $319,000 for part of the funding needed for construction of a 
wastewater treatment facility in a very sensitive environmental area.
    One project that we funded close to home involved a community of 
150 attempting to install its first wastewater treatment system using 
the community residents for the needed labor. This ``self-help'' 
project had been struggling along for a couple of years with pipe 
stockpiled on the ground and no financial resources to finance a 
section of dangerous trenching that no volunteer felt safe (or capable) 
to complete. Project SEARCH funds enabled this community to complete 
this aspect of the project and refocus on getting the remainder of 
their sewer system completed. The people of this community will be 
hooking up homes to the new system this fall. Without Project SEARCH 
assistance, this project would still be years away from completion.
    Implementation of Project SEARCH was not without its tense moments. 
The project grant from EPA required a 45 percent match. As previously 
mentioned, small communities generally cannot come up with the matching 
requirements for most public infrastructure grant programs--effectively 
eliminating their potential for receiving grant assistance. As 
originally proposed, Project SEARCH was not much different in this 
regard--many applicants could not meet the 45 percent match 
requirement. To overcome this obstacle, our grant administrator worked 
with EPA to structure the program so that each individual community 
would not be required to come up with a 45 percent match--but rather 
that the overall program would be responsible for meeting the match 
requirement. As a result of this 
common-sense approach, we will meet EPA's 45 percent match requirement 
and the individual towns will be able to use Project SEARCH funds to 
solve their problems while participating to the maximum of their 
financial abilities. The small towns were able to match their Project 
SEARCH Grants with local resources ranging from 14 percent up to about 
87 percent.
    The Project SEARCH concept provides a flexibility not readily 
available with other public infrastructure grant programs. Yet this 
project has still been able to maintain full accountability through the 
EPA grant being awarded to an experienced local non-profit. Through 
this combination of local direction and Federal partnering, Project 
SEARCH has enabled more direct infrastructure building/environmental 
problem solving dollars to get to the communities than if EPA had 
awarded individual grants.
    Throughout the process of implementing this program, the 
Environmental Protection Agency, especially the Boise Field Office, was 
exceptional to work with. Project SEARCH has enabled 21 Idaho 
communities to solve or make major strides in solving their 
environmental problems that could not have been done otherwise. As a 
representative of small town America, I encourage you to fund this type 
of project in the future.
    Thank you for your time.
                                 ______
                                 
  Responses by Roy Prescott to Additional Questions from Senator Smith
    Question 1a. S. 2296 is focused on providing help to small 
communities. What is the principal need that small communities have? Is 
it construction funds for environmental projects, such as a sewer 
system or a Waste Water Treatment Plant (WWTP)? Legal assistance in 
understanding Federal law and completing grant applications? Paying 
experts? Hiring personnel?
    Response. Construction funds are among the needs of small 
communities. Constrained by a limited tax base for general obligation 
bonds and/or customer base for revenue bonds, these communities are 
unable to raise sufficient funds to undertake major infrastructure 
projects through these traditional means. The cost of an 
environmentally sound solution to wastewater or domestic water problems 
does not correspond proportionally to the size of a town. A town of 
2,500 faces the same multi-million dollar improvement bill that a town 
of many times that size. This lack of local share consequently limits 
the ability of the community to leverage from traditional grant 
sources.
    Also needed are funds to support preliminary assessments and 
project planning. Both regulatory and project funding agencies require 
professionally prepared facilities studies, project planning documents, 
and cost estimates prior to authorizing the start of a construction 
project or committing Federal/State funds. Small communities do not 
have this technical capacity in-house and must hire professional 
consultants to accomplish these tasks. Again, limited revenue resources 
restrict the towns' ability to contract for these services, and few 
outside financial resources are currently available to finance the 
cost.
    Without the ability to qualify the problem and identify options for 
a solution, the community cannot move to the next step--resolving their 
environmental infrastructure issues.
    Our existing network of Department of Environmental Quality staff 
and planning districts assist small communities with understanding the 
Federal regulations and the paperwork involved with developing 
applications for funding--no financial assistance is needed for hiring 
legal counsel or technical assistance. Hiring personnel is not an 
eligible activity under the current program, as it requires an on-going 
commitment for funding as an operating cost for the system. To 
accommodate the need for trained technical operators, communities 
throughout the State have been encouraged to share professional staff 
for their wastewater and water systems. Cooperative agreements have 
been developed creating a circuit-rider concept where nearby small 
towns can share the expense of a professional operator. In addition, 
those communities not granted are given help with future direction, 
appropriate agencies or individuals that could help them, if they wish 
to follow through.

    Question 1b. In your prepared testimony, you mentioned two specific 
uses to which grant funds were put--a facility plan to deal with a 
housing authority's wastewater problems, and the construction of a 
WWTP. Please supply the committee with additional examples of how Idaho 
has used the funds already made available to your State.
    Response. We were able to fund 21 projects because of limitations 
place by the E.P.A. on eligible projects to include only infrastructure 
projects. Seven projects were for the construction of wastewater 
treatment system improvements including the one I previously testified 
on where the community members are actually constructing the 
community's first waste water treatment facility. Three projects were 
for the construction of water system improvements. Eight Projects were 
for engineering needed to solve wastewater problems. Three projects 
were for engineering needed to solve water system problems.

    Question 1c. How were grant decisions made in Idaho?
    Response. A seven member Citizens Committee made the grant 
decisions.
    Six Economic Development Districts cover the entire State of Idaho. 
A board of directors governs thee non-profit economic and community 
development organizations. This board is comprised of local elected 
officials and private sector representatives (sometimes referred to as 
``Council of Governments''). Each of these boards appointed one 
representative to our Project SEARCH Citizens Committee. To chair the 
Committee, a former small town (population 800) mayor, that has led the 
cause of small rural communities at the State and National level was 
chosen. This individual has served on the Environmental Protection 
Agency's Small Town Task Force. These seven individuals met by 
conference call (to reduce administrative expense) and in person to 
make funding decisions.
    Each Committee member was supplied with a copy of the grant 
application (there were 44 to review). A copy of the actual grant 
application of the city of Dietrich is attached to this response.

    Question 1d. The criticism has been raised that S. 2296 would allow 
grants to be awarded to neighborhoods within large cities, instead of a 
small communities? Do you want that opportunity to exist? If not, how 
can it be prevented?
    Response. Large communities would not qualify under the definition 
to participate in the program. At the same time, large communities do 
not need this type of assistance. Larger communities generally have 
more financial options available to them due to their size, tax base, 
and revenue resources. The small rural areas do not have the tax base 
of large cities. In addition, cities of over 50,000 population get a 
direct Community Development Block Grant from H.U.D. In Idaho and most 
States, communities of less than 50,000 compete for the Small Cities 
Program of HUD's Community Development Block Grant that goes directly 
to the States. This competition among communities often center around 
which communities can provide the most matching funds. Usually, the 
larger the population of a city, the more matching funds it can 
provide. This makes these cities more likely to be awarded the grant 
from the State.
    Small communities do not have the financial resources that larger 
communities have, In Idaho, eligibility for Project SEARCH was limited 
to cities and unincorporated communities with 2,500 people or less. 
This criteria eliminated the possibility that a neighborhood within a 
larger city could be awarded funds.
    There are small communities encased in large communities. This 
program allows these small communities the same or equal opportunity to 
apply for these grants. The selection committee ultimately has the 
final decision based on need and qualification.

    Question 1e. The criticism has been raised that S. 2296 would allow 
all of a State's funds to be granted for community welfare projects, 
such as swimming pools. What safeguards do you have in place to ensure 
that grants are awarded only for what ordinarily would be understood as 
environmental projects, instead of other community welfare projects? 
What safeguards are necessary to have in S. 2296?
    Response. It is our intention that an application must identify the 
specific environmental obligation the project will meet. Supporting 
documentation regarding the problem must be provided including letters 
from the regulatory agencies. The Department of Environmental Quality 
provides consultation to the selection committee on which projects are 
the most critical for resolving infrastructure issues.
    The proposed project must resolve a clear environmental problem. 
Without a critical infrastructure issue to resolve, requests from a 
previously funded community will not be competitive against another 
community's current problems. No Congressional language is required.

    Question 1f. Is there a means by which Congress can ensure that 
grants are awarded to different communities over time, so that no one 
community or set of communities will be able to monopolize grants?
    Response. The Citizens Committee makes decisions regarding 
selecting the grantees. The Committee members are appointed from 
regions throughout the State. Regional representation would determine 
successful applicants and appropriate distribution of grants. This 
would allow non-political decisionmaking to review needs, and direct 
where resources go.

    Question 1g. Should this grant program be preferred source of money 
for small communities, or should it be a source of funds to be used as 
a last resource.
    Response. There currently exist many sources of infrastructure 
funding from State and Federal agencies. These sources should remain 
the preferred source of funding. However, because of various rules and 
regulations, often small communities are not able to access these 
funding sources. Applicants should demonstrate that they have attempted 
to secure other funding and have either been unsuccessful or that the 
other funding is not adequate to complete the project and other funding 
is not available.
    Project SEARCH funds are the dollars of last resort. The applicants 
must identify all other efforts at raising funds to resolve their 
environmental problems and provide written documentation on commitments 
and rejections for funding. When all other traditional resources are 
exhausted, Project SEARCH funds can be requested.

    Question 1h. Should the authority to make grant decisions be vested 
in a council composed of private citizens, or should the authority be 
given to a governmental official, such as the Governor or a group of 
local officials?
    Response. A private citizen group such as we developed in Idaho is 
the fairest process. This program should not be allowed to become part 
of a bureaucracy or political process. Our Idaho example is the best 
method that will ensure that projects with the most need will be 
funded.
    Maintaining a non-partisan process is critical to the success of 
the program. Local elected officials and private sector business people 
appointed the members of Idaho's selection committee. This local 
control (including wide geographic participation) insures equal 
consideration for projects from all areas of the State and provides a 
level of confidence to the public that the projects awarded are vital 
to the sustainability of the small towns and not political plumbs.
    Keeping this program out of the hands of State government enabled 
us to have a simple application process for the small communities. A 
part-time city clerk or mayor could complete the application that could 
be as short as two pages.
                               __________
 Statement of Benjamin Y. Cooper, Printing Industries of America, Inc.
    Mr. Chairman and members of the Committee on Environment and Public 
Works, I appreciate this opportunity to appear before you in support of 
S. 2800, the Streamlined Environmental Reporting and Pollution 
Prevention Act of 2000. My name is Benjamin Y. Cooper. I am senior vice 
president for Government Affairs for the Printing Industries of 
America, the Nation's largest graphic arts association. I have included 
a page of statistical information about PIA and the U.S. printing 
industry.
    S. 2800 is important legislation. It is important for today but it 
may have greater value in the future as the impact of Federal 
environmental regulations is extended to smaller and smaller companies. 
EPA and the States continue to make improvements in the quality of the 
information they provide to businesses. Nevertheless, the level of 
information required from business increases each year. More 
importantly, the size of the companies that must report is getting 
smaller.
    The Clean Air Act, the major environmental program affecting the 
U.S. printing industry, now applies to companies as small as 15 
employees in some areas of the country. In fact, most urban areas 
consider all printers as major sources of air pollution because the 
industry is a large area source. While it is true that the majority of 
printing companies do not have ``site specific'' Federal air permits 
now, unless we change the Clean Air Act, more and more of these 
companies will have the same permit requirements as large printers. In 
addition, virtually every printing company has some level of reporting 
requirement for waste, chemical storage, or water discharge. Any steps 
we can take now to make reporting easier for these companies will pay 
significant dividends.
    For smaller companies, reporting can be a complex and sometimes 
error prone process. These companies often lack the tools and 
experience to provide the information. Often small companies have to 
rely on suppliers or Material Safety Data Sheets to determine the 
volatility or toxicity of a chemical. The level of complexity is also a 
factor in the rate of error. The more complex the reporting 
requirement, the greater the chance of error.
    S. 2800 could provide significant help in reducing the time 
required to file. If the reporting is consolidated into fewer reports, 
it is possible that the rate of error will be reduced simply by 
minimizing the time required to fill out forms.
    In the real world of business, particularly manufacturing, changes 
in the last few years have been astonishing. Printing, one of the 
Nation's largest manufacturing industries, is threatened by new media, 
the cost of supplies, increased postal rates, a lack of skilled labor 
and the imposition of Federal and State regulations. Reports of 
streamlined regulations and reinvention have been grossly overstated. 
Companies that have been reporting are still reporting, and new 
companies are being added regularly. With each new threat, companies in 
our industry meet the challenge by reducing costs in every facet of the 
company. In many cases, this means reducing the expertise a company 
might have to handle State and Federal regulatory reporting. 
Nationally, a very small number of PIA members have environmental 
specialists.
    One Federal statute, the Clean Air Act, gives a good indication of 
the expansion of reporting requirements. The Act categorizes businesses 
as sources of emissions, not by how much they emit, but by their 
potential emissions. Further, the Act imposes significant controls on 
states to reduce pollution. Printing companies are capital intensive. 
Commercial printers in a community want to be in a position to offer a 
wide range of printing options which means they will likely have more 
equipment than they need. While this may make good sense from a 
customer service standpoint, EPA evaluates each of these presses by its 
potential to emit. In simple terms, a printing company has the 
potential to emit a great deal more than it could ever hope to emit. In 
an industry such as printing where there are a significant number of 
small companies, very small companies can become major sources as 
defined by the Clean Air Act.
    We have worked with EPA in an effort to improve the ``potential to 
emit'' rules. If these rules are clarified favorably, some printing 
companies may no longer have to report as major sources.
    In terms of reporting burden, it is not unusual for a printing 
company to file quarterly, semiannual, as well as annual emission 
reports. A printer may also have to file an additional State annual 
emission statement with a different format and data element 
presentation requirement to a different branch of the same media 
program. Some air programs such as Title V can also require additional 
annual reports when mandatory annual training is completed. These 
various annual reports have different deadlines.
    These companies must also account for any significant changes. 
Purchase of a new press or an expansion of the facility triggers other 
series of reports including new permitting, new source review, and 
more. Frankly, we do not believe Congress considered the purchase of 
new equipment in a small business as an event triggering new source 
review, but that is where we are today.
    In light of these concerns, we think S. 2800 provides an opening to 
some genuine reporting reform. Reporting on an issue by issue basis is 
inefficient for many businesses. In the case of a smaller printing 
company, the most accurate reporting is by inventory or use of input 
materials, not outputs such as emissions, effluents, and waste 
generation. Companies buy a certain quantity of inks, solvents and 
other chemicals. The process of accounting for these chemicals provides 
information about emissions and waste. Additionally, inventory 
accounting may also indicate areas where changes can be made to reduce 
or eliminate problems. Inventory accounting can be more accurate.
    Another benefit of consolidated reporting is to improve the EPA's 
``inventory'' of pollutant loadings. One of the ongoing disputes we 
have with EPA is the emissions inventory. EPA determines the emissions 
inventory and the emissions of particular industries through emissions 
factors. These factors are not changed often enough to account for new 
technology. Since printing has been through a technology revolution in 
the past decade that some compare to the invention of movable type, old 
data is worthless data. Regulatory decisions and targets of emission 
reductions are based on emissions inventories and emission factors that 
do not reflect current emissions. If the data making up the inventory 
and the factors are incorrect, the regulatory action itself may be 
incorrect. In the case of printing, we believe change in technology 
alone has resulted in substantial reduction of air emissions, but it is 
difficult to get credit for these changes in the current information 
system.
    It is my opinion that the challenge facing EPA is not a lack of 
desire to make the changes. Instead, the lack of success may be due to 
the statutory ``balkanization'' of EPA into media programs. Each of 
these programs has developed data that is important to the individual 
program. There is almost certainly a level of concern about a proposal 
such as this that would consolidate such data into a single point. Data 
is a form of power.
    One question about this legislation is why is it necessary? The 
Nation has embraced technology, and the internet will make electronic 
information exchange easy. While these statements may be true, it is 
not necessarily true that EPA or any other Federal agency will place a 
high level of priority on such consolidated reporting. Part of our 
concern is based on an experience we had with OSHA in attempting to get 
them to embrace electronic Material Safety Data Sheets. While OSHA 
would permit electronic systems, it required redundant paper systems as 
a back up to the electronic system. Obviously, this defeated the 
purpose of the electronic systems. OSHA has changed its attitude about 
electronic MSDS's, but it was not a smooth transition.
    This experience tells us that if we want consolidated reporting, it 
will be necessary to legislate it. It is our hope that the legislation 
goes where EPA would go anyway.
    Would EPA accomplish the same goal absent legislation? For some of 
the reasons stated above, we do not. EPA's priority is the environment. 
From the environmental community side, that means enforcement. From the 
business side that means communication and regulatory efficiency. 
Enforcement tends to win this battle. However, at some point, every 
constituent of EPA must realize that improvements in data gathering 
also help improve the environment. Better communications help. 
Regulatory flexibility can also help.
    The primary benefit of consolidated reporting is that fewer man-
hours will be spent reporting data to the government and fewer hours 
will be spent by the agency in processing the data once it is received. 
However, there are other benefits that have environmental significance. 
Consolidated reporting has the additional benefit of giving the 
business the opportunity to look at a larger picture of chemical use. 
Small companies are able to manage the entire company at once. 
Likewise, if chemical data and use is managed as a whole, problems and 
opportunities become more evident. If the report only addresses air 
emissions, the use of a specific chemical may not be in sufficient 
quantities to pass a reporting threshold. However, if that same 
chemical causes TRI reporting, a waste restriction or a discharge 
limit, the business may be able to see that through consolidated 
reporting. In effect, consolidated reporting presents an opportunity 
for pollution prevention by highlighting the emissions, effluents, and 
waste as a whole and not in parts.
    While we think EPA has done a good job at improving its 
communication with the regulated community, it has not succeeded in 
reducing the reporting burden. We cannot find a single example of a 
company that has had its actual reporting burden reduced through EPA's 
One Stop Reporting program. If this legislation will produce results, 
it is worth the effort to pass it.
    We urge your support and prompt action on S. 2800.

                                        1999 U.S. Market Segment Breakout
----------------------------------------------------------------------------------------------------------------
                                                                  Establishments    Employment    Shipments ($M)
----------------------------------------------------------------------------------------------------------------
Commercial Printing:
  General Commercial Printing*..................................          22,629         382,932       $49,328.7
  Quick Printing*...............................................           7,853          57,837         5,291.7
  Magazine Printing.............................................             269          38,274         5,970.8
  Newspaper Printing............................................           5,319         202,376        28,880.8
  Book Printing.................................................             356          54,807         7,109.0
  Financial, Legal Printing.....................................             179          14,811         2,242.1
  Screen Printing...............................................           1,347          26,816         2,708.6
  Thermography..................................................             278           8,371         1,141.5
                                                                 -----------------------------------------------
    Total.......................................................          38,230         786,224      $102,673.2
----------------------------------------------------------------------------------------------------------------
Form, Label & Tag Printing:
  Business Forms Printing.......................................             807          42,397        $8,154.3
  Label, Wrapper Printing.......................................             834          37,160         5,229.5
  Tag, Ticket, Tape Printing....................................             150           6,482           911.7
                                                                 -----------------------------------------------
    Total.......................................................           1,791          86,039       $14,295.5
----------------------------------------------------------------------------------------------------------------
Greeting Card Printing:
    Total.......................................................              55           4,023          $616.3
----------------------------------------------------------------------------------------------------------------
Specialty Printing:
    Total.......................................................             992          42,954        $6,224.5
----------------------------------------------------------------------------------------------------------------
Packaging Printing:
    Total.......................................................           1,714         146,945       $22,088.4
----------------------------------------------------------------------------------------------------------------
Trade Services:
  Prepress Services.............................................           5,092          70,133        $7,272.1
  Trade Binding.................................................             721          20,121         1,390.1
  Other Finishing Services......................................             815          16,954         1,151.0
                                                                 -----------------------------------------------
    Total.......................................................           6,628         107,208        $9,813.2
                                                                 -----------------------------------------------
      Total U.S. Printing.......................................          49,410       1,173,393      $155,711.1
----------------------------------------------------------------------------------------------------------------
*Note.--The small commercial printing (<10 employees) and quick printing market totals: Establishments: 23,068;
  Employment: 119,602; and Shipments ($M): $10,746.0

                               __________
  Response of Ben Cooper to an Additional Question from Senator Smith
    Question. What technologies can EPA use to improve data-collection 
and reporting compliance?
    Response. It is our opinion that we should be in a position to take 
advantage of any technology which helps centralize information. 
Certainly, we would be supportive of flexibility in the adoption of 
future technology. It is our opinion that S. 2800 does not freeze EPA 
in technology. The advantage of consolidated reporting and, by 
extension, data gathering, is that it reduces the challenges the 
reporting community faces in providing redundant data. While we are 
very supportive of the rights of States to collect and use data, the 
alternative to a national database at this point is a series of 
databases located in the States. One of the trends we see in our 
industry is consolidation. Small companies are being purchased by 
larger companies and small companies are aligning themselves for a 
variety of purposes. It is becoming increasingly common to have 
relatively small companies with multi-state operations. These trends 
suggest that the challenges of reporting will increase in the future. 
We face a fundamental choice of reporting to a State database from 
which the Federal data can be gathered or to a Federal database from 
which the State data can be gathered. While we will likely have a 
combination of these approaches, it is essential that we work toward a 
common reporting format, data needs, and time requirements. In the 
current technical environment, these efforts would favor a national 
database.
    While we are not as familiar with other industries, it is likely 
that small-business-dominated industries such as furniture 
manufacturing, auto service, dry cleaning, and metal finishing would 
face similar problems.
                               __________
      Statement of Diane E. Thompson, Associate Administrator for 
Congressional and Intergovernmental Relations, Environmental Protection 

                                 Agency
    Mr. Chairman and members of the committee: Good morning, I am Diane 
Thompson, Associate Administrator for Congressional and 
Intergovernmental Relations at the Environmental Protection Agency (EPA 
or the Agency). I want to thank the committee for the opportunity to 
appear before you today to discuss several bills which bear upon Agency 
activities. They are: S. 2800, a bill to streamline environmental 
reporting; S. 1915 and S. 2296, two bills on small community 
assistance; and S. 1763, a bill re-authorizing the EPA solid waste 
Ombudsman.
    I am accompanied this morning by Margaret Schneider, Principal 
Deputy Assistant Administrator for Environmental Information, and 
Michael Shapiro, Principal Deputy Assistant Administrator for Solid 
Waste and Emergency Response.
                         streamlined reporting
    The first bill I would like to address is S. 2800, the 
``Streamlined Environmental Reporting and Pollution Prevention Act of 
2000,'' which has been introduced by Senators Lautenberg and Crapo. By 
its emphasis on facility reporting, reducing the burden on States and 
regulated facilities, ensuring more accurate environmental data, and 
increasing the efficiency of EPA's data collection efforts, the goals 
of S. 2800 are consistent with our own on-going efforts in the 
environmental information field.
    Last fall, EPA Administrator Carol M. Browner created the Office of 
Environmental Information (OEI). This Office has primary responsibility 
for information management, policy, and technology. Challenged by the 
Administrator to meet the demand for high-quality environmental 
information, OEI has begun to implement a number of initiatives to 
improve the way EPA collects, manages, analyzes, and provides access to 
environmental information for the American public.
                        information integration
    During the collaborative process that was used in creating OEI, the 
Agency reached out to a wide range of interested parties both inside 
and outside EPA. We wanted input as to what was needed to ensure that 
EPA collected and made available to the public high quality information 
that would enhance environmental decisionmaking.
    We heard from many sources, but the message from each was the same: 
the key to streamlining environmental reporting is improving the 
integration of environmental information. In response, Administrator 
Browner directed OEI to design and implement a comprehensive new effort 
that would enable our data partners, including the States, Tribes, 
localities, and the regulated community, to more efficiently share and 
exchange environmental information. This effort--the creation of a 
national environmental information exchange network--is foremost a 
partnership with the States and others to improve data quality and 
accuracy, ensure the security of sensitive data, reduce data 
redundancy, and minimize the burden on those who provide and access 
information.
    There are many components to achieving a successful information 
integration effort. Among these are:
    <bullet> making information compatible through common data 
standards and definitions;
    <bullet> ensuring that our partners and EPA have the technology to 
facilitate this integration; and
    <bullet> positioning EPA to participate in this network through the 
creation of a centralized data exchange, an electronic reporting 
capability, an error-correction system, a facility registry system, and 
other information integration initiatives.
                         central data exchange
    One of the most aggressive efforts we are undertaking to streamline 
environmental reporting and to promote information integration is the 
development of a central data exchange (CDX) function. This data 
exchange will serve as a central point of receipt for most non-
confidential environmental reports being sent to EPA. Our CDX is being 
developed to accommodate a variety of data formats, including 
electronic, diskette, and the more traditional paper reports. This 
summer, EPA together with our State partners, began to test some of 
these electronic formats and functions, including electronic signature 
protocols. Testing will continue throughout 2001 in anticipation of 
having our CDX capability fully functional by the end of fiscal year 
2002. A major benefit of CDX will be to help eliminate duplication of 
data entry efforts, a major source of introduced errors in data bases.
               electronic reporting and error correction
    We have found that a principal source of data error is the manual 
entry of data. Electronic reporting will reduce the amount of manual 
entry and enhance quality control procedures. By encouraging electronic 
reporting, EPA and its community of data users are more likely to have 
access to more accurate data in the future.
    Data quality also is enhanced through the implementation of 
consistent error detection practices. We have worked closely with our 
State and Tribal partners and other stakeholders from industry and non-
governmental organizations to build and implement an Agency-wide error 
correction tracking system, creating a single place within EPA where 
errors found in national data systems can be reported, tracked, and 
corrected. The error correction process was implemented this past July 
and now is active in all of the major systems in our Envirofacts 
electronic data warehouse. The error correction process will be 
incorporated into additional systems in 2001.
         data standards and the facility registry system (frs)
    We and our data partners have agreed that developing and 
implementing data standards, common information nomenclature, is a 
backbone for integrating environmental information. Together we are 
developing a common approach to specific identifiers for regulated 
facilities across media-specific environmental information systems. 
This year we are building and operating a Facility Registry System 
(FRS) with a single master record of verified facility identification 
information for each of 50,000 facilities. We are continuing to add 
authenticated records to the FRS. This registry is a key component of 
the new integrated system, providing for more accurate integration of 
data across EPA systems.
    As we work to create a national environmental information exchange 
network we are committed to building a secure network that will ensure 
the integrity of the data holdings. We believe this network also must 
serve the public, providing access to high quality environmental 
information. Information security and enhancing the public's right to 
know are both obtainable and necessary components of our information 
integration effort.
   Streamlined Environmental Reporting and Pollution Prevention Act 
                                of 2000
    S. 2800 would explicitly authorize much of the work EPA already has 
begun. The bill would establish one EPA point of contact for reporting, 
provide for uniform data standards, allow a single annual data 
submission, establish a national environmental data model for use as a 
framework for collecting the reported information and an electronic 
commerce service center for technical assistance. S. 2800 also would 
provide for protection of confidential business information, authorize 
the provision of free software to reporting persons and entities, and 
provide access to information on pollution prevention technologies and 
practices.
    EPA generally supports S. 2800. Our work on creating a national 
information exchange network is intended to maximize public access to 
environmental information in the most cost-effective manner possible, 
improve data flows between EPA and our State and Tribal partners, and 
is intended to improve environmental decisionmaking at all levels. Our 
experience this past year on our information integration and 
streamlining initiatives has shown us that these tasks are complicated 
and require time to achieve. We have tried to be flexible in our 
approach and are continually evolving in the ways that we work with our 
State partners. These efforts also cost a lot of money. We believe 
strongly, however, that adequate up-front investment ultimately will 
save the Agency, the States, and the reporting community time, money, 
and effort.
    S. 2800 provides a framework for continued progress toward data 
integration. As the bill moves forward, we hope to work with Senators 
Lautenberg and Crapo to resolve some remaining concerns with this 
legislation. Of particular note, it is critical that any legislation in 
this area afford the Agency flexibility to respond to very rapidly 
changing technology. In addition, such legislation also should 
recognize and affirm that the primary Federal role in streamlining the 
reporting process should be that of standards setting in partnership 
with our various data partners, and not software development or 
licensing. It is also important that any integrated reporting system be 
as reliable and enforceable as current reporting systems. Finally, it 
is important to recognize the very significant role that the States 
play in all of this work and the partnership that already has been 
established.
    With the support of this committee and the Congress, we believe we 
can continue to enhance the Agency's data collection efforts, while at 
the same time, continue to maintain environmental protection and 
improve the health and safety of the public.
                Small Community Environmental Protection
    Let me turn now to S. 1915, the proposed ``Small Community 
Assistance Act of 1999'' and S. 2296, the proposed ``Project SEARCH Act 
of 2000.'' These two bills deal with assistance to small communities.
    First, I would like briefly to describe the Agency's approach to 
small town environmental protection. One of Administrator Browner's key 
goals has been to strengthen EPA's relationships with its State and 
local government partners. We have long understood that small town 
governments face special challenges when it comes to environmental 
protection.
    Small town governments are responsible for managing the same range 
of environmental services as other size governments. They manage 
drinking water systems, incinerators, storm water systems, and 
landfills. They own underground storage tanks, chemical and pesticide 
storage sites, and gravel pits. Some small communities own and operate 
electric utility plants. Not all small governments lack the resources 
to provide the environmental protections included in our national 
environmental laws, such as the Clean Water and Clear Air Acts. It is 
probably fair to say, however, that all small communities face 
significant challenges in doing so. In particular, lack of adequate 
financial, managerial, and technical expertise is a recurring problem.
    What constitutes a small town? In 1992, EPA's first advisory group 
for small towns asked that EPA focus on small communities with fewer 
than 2,500 residents. S. 1915 defines a small community as a county, 
parish, borough, or municipality with fewer than 7,500 residents. A 
number of our environmental statutes define small communities 
differently. For example, the Safe Drinking Water Act uses two 
different population thresholds to address the needs of small towns. 
The Regulatory Flexibility Act defines small communities as having 
fewer than 50,000 inhabitants.
         what epa has done to address the needs of small towns
    The Small Town Environmental Planning Program (STEP), authorized by 
section 109 of the Federal Facility Compliance Act of 1992 (P.L. 102-
386), initiated a comprehensive small town environmental planning 
program at EPA. The key element of STEP was the creation of the Small 
Town Task Force (STTF). The STTF analyzed our existing small community 
environmental planning effort and produced a comprehensive set of 
recommendations for improving it. Based on those recommendations, EPA 
is pursuing a strategy for assisting small communities with their 
environmental protection responsibilities in three ways. These are: 
small town policy consultation, compliance assistance, and regulatory 
consultation. These three elements reflect the demand we heard from the 
STTF for a comprehensive and effective approach.
               a standing small community advisory panel
    Perhaps the most important of the STTF recommendations called for 
the establishment of a standing advisory panel focused on small 
community issues. The Administrator responded by creating the Small 
Community Advisory Subcommittee (SCAS) of the Local Government Advisory 
Committee (LGAC). The LGAC had been created by Administrator Browner in 
December 1993 to advise the Administrator on the implementation of 
Federal environmental requirements by local governments. SCAS was 
charged with monitoring the implementation of the STTF recommendations. 
Today, SCAS continues to advise the Agency on its development and 
implementation of efforts to obtain and enhance small town 
participation and involvement in Federal environmental planning and 
decisionmaking.
    After completing an inventory of EPA's small town outreach 
activities, the first review undertaken by SCAS addressed EPA's 
implementation of the relevant small community sections of the Unfunded 
Mandates Reform Act and the Regulatory Flexibility Act. The 
subcommittee also reviewed EPA's proposed implementation of the recent 
Executive Order 13132 on federalism. We are considering those comments 
as we prepare to issue the internal guidance on implementing the order. 
In a similar fashion, SCAS reviewed implementation of the small town 
Ombudsman provisions of the Small Town Environmental Planning Program. 
SCAS also commented on EPA's proposed national primary drinking water 
standard for arsenic. Finally, SCAS also is working with the Agency to 
produce an inventory of EPA funding sources for small communities. We 
expect SCAS will take up a review of EPA's technical and compliance 
assistance efforts to small communities. As you can see, SCAS is 
actively engaged in representing the ``small town point of view'' 
across a wide array of environmental decisionmaking within EPA.
                         compliance assistance
    Ensuring that the Agency fully understands the environmental 
concerns of small communities is but one element of EPA's small town 
environmental planning program. Equally important is ensuring that 
small towns accurately understand environmental requirements. As an 
important element of EPA's small town initiative, the Agency's program 
offices provide continuing compliance assistance to small communities. 
At program offices in Washington and in the regional offices, we have 
dedicated staff working to assist small communities. We also have:
    <bullet> established and supported the Local Government 
Environmental Assistance Network (LGEAN), a ``first-stop shop'' to 
handle Internet and toll-free telephone requests for compliance 
assistance from small communities;
    <bullet> established a Small Community Enforcement Flexibility 
Policy that encourages States to offer small towns compliance 
assistance as an alternative to traditional enforcement actions;
    <bullet> published the Profile of Local Government Operations, 
which identifies environmental requirements applicable to local 
government on an operation-by-operation basis;
    <bullet> established a unique self-help program the Drinking Water 
Peer Review Program that helps small towns assess the State of each 
town's environmental compliance. The Drinking Water Peer Review Program 
will expand to help small towns with other environmental problems;
    <bullet> established a Small Community Coordinator in Headquarters 
and small community contacts in each Regional Office.
    <bullet> convened the ECOS (Environmental Council of the States) 
Local Government Forum to encourage State environmental commissioners 
to become more knowledgeable about local governments and small 
communities.
                early involvement in regulatory process
    The third element of our small community environmental planning 
effort involves finding ways to ensure the early involvement of small 
towns in the regulatory development process. The goal of early 
involvement in the regulatory process is to ensure that environmental 
regulations are developed with an accurate understanding of the unique 
circumstances and implementation challenges facing small towns. One 
part of this effort is the rigorous implementation of the small 
community provisions under the Unfunded Mandates Reform Act and the 
Regulatory Flexibility Act as amended by the Small Business Regulatory 
Enforcement Fairness Act (SBREFA). Our efforts here include such 
practical things as the development of internal guidance documents and 
training for regulation development managers.
    Meaningful consultation depends upon several things: potential 
stakeholders' awareness and interest in specific regulatory actions, 
their commitment to fair and effective representation of their 
perspectives, and their ability to participate in the process. As you 
are well aware, resource constraints facing small governments, both in 
terms of personnel time/availability and fiscal resources, challenge 
small government officials' ability to participate fully in Federal 
regulatory processes. Fully 
appreciating these and other concerns facing small entities, EPA has 
developed, piloted and implemented several outreach activities in an 
effort to improve its approach to consultation with small governments.
    One way EPA continues to improve its approach to small government 
consultation is by ensuring that regulatory program offices are able to 
engage small entity representatives in meaningful dialog during rule 
development. For example, a centrally managed process for outreach to 
small governments, currently under development, will help provide EPA 
program offices access qualified, knowledgeable small government 
officials. These officials, in turn, will have the ability to 
effectively inform the process for developing the entire range of 
regulations affecting small governments. EPA also makes regulatory 
information, proposed regulations, and regulatory calendars available 
to local governments directly through LGEAN.
                  concerns about proposed legislation
    S. 1915 would require the Environmental Protection Agency to take a 
number of specific actions intended to assist small communities that 
are attempting to comply with national, State, and local environmental 
regulations. These actions include establishment of an independent 
advisory committee and regional small town Ombudsman offices to serve 
as advocates and facilitators for small communities.
    Much of the emphasis of S. 1915 appears to be aimed at improving 
the access of small communities to regulation development. We agree 
that such involvement is important. However, we believe this is being 
addressed by SCAS, EPA's policies on consultation, our full and 
complete implementation of statutory and executive order requirements 
for small community involvement in the regulatory process, and ongoing 
efforts to expand and improve our consultation process. Specifically 
with respect to a small community advisory committee, we are committed 
to maintaining an advisory committee as a way of ensuring small town 
involvement in Federal environmental decisionmaking. We see the special 
circumstances of smaller local governments within the context of local 
government environmental protection generally. Thus, we think the 
current arrangement, a LGAC subcommittee focused on small town issues, 
is exactly right. Of note, the Agency's existing Small Community 
Advisory Subcommittee will meet three times in 2000. Thus, we do not 
believe that S. 1915 is necessary nor will it significantly improve 
environmental planning or quality in the Nation's small towns.
    Turning now to S. 2296, introduced by Senator Crapo, this measure 
would establish a grant program for communities of no more than 2,500 
inhabitants for special environmental assistance for the regulation of 
communities and habitat (SEARCH). The proposed grant program would 
direct the EPA Administrator to transfer $1 million annually to the 
Governor of each State for use by an independent citizens council 
appointed by each Governor. These funds would be for use in those small 
communities which (1) are unable to secure funding or are underfunded 
for environmental projects, (2) have incurred unexpected expenses 
during construction of environmental projects, or (3) need funds for 
initial feasibility or environmental studies before applying to 
tradition funding sources.
    We have several concerns with S. 2296 and we do not support this 
legislation in its current form. First, we are concerned that the bill 
could divert scarce resources from EPA's budget for State revolving 
funds and from other grants supporting critical State programs. These 
funds are specifically targeted to the highest priority public health 
and environmental needs in each State. Since 1988, the Clean Water Act 
revolving fund has made available $2.7 billion to small communities for 
sewage treatment. Since Congress passed the 1996 amendments to the Safe 
Drinking Water Act, EPA has provided $772 million through the new 
Drinking Water State Revolving Fund to help small communities provide 
safe drinking water to their residents.
    Likewise, S. 2296 could divert scarce resources from high priority 
State grant programs. The sums envisioned under this bill are 
significant in the context of EPA's budget. For example, $50 million 
represents nearly half the national annual funding EPA provides to 
States to implement core State water quality programs required under 
the Clean Water Act. $50 million is three times the national funding 
EPA provides to States for wetlands protection.
    We also are concerned that the formula for distribution of $50 
million annually under S. 2296 fails to recognize variation in the 
environmental and public health protection needs across the States. The 
needs for large, rural States could be several times the need in 
smaller States.
    Finally, we are concerned that project eligibilities under S. 2296 
may be overly broad, resulting in the use of scarce Federal dollars for 
projects that may not appreciably improve local public health and 
environmental protection. In addition, after the Federal funds are 
provided to each Governor, there is no mechanism to ensure that 
projects meet environmental priorities and no means for the Congress, 
EPA, or the State environmental agency to identify the use of the funds 
or to ensure accountability. For these reasons, we believe the bill 
would establish a funding mechanism that may be at odds with the 
Federal Grant and Cooperative Agreement Act of 1977 (P.L. 95-224).
    We appreciate the committee's interest in assisting small 
communities and we are committed to using existing mechanisms to meet 
their needs. We would ask to continue a dialog with you and Senator 
Crapo about how to best achieve our common goals in this area.
                 Ombudsman Reauthorization Act of 1999
    Now I would like to address S. 1763, introduced by Senator Allard, 
which would amend the Solid Waste Disposal Act to reauthorize the 
Office of Ombudsman of the Environmental Protection Agency.
                   historical background of ombudsman
    The hazardous and solid waste management laws passed by Congress 
created some of the most complex programs administered by EPA and the 
States. Recognizing this, Congress established a National Ombudsman 
function in 1984 as part of amendments to the Resource Conservation and 
Recovery Act (RCRA). Establishing an Ombudsman provided the public with 
someone to contact with questions and concerns about the RCRA program. 
When the statutory authority for the National Ombudsman program expired 
in 1989, EPA's Office of Solid Waste & Emergency Response (OSWER) 
retained the function as a matter of policy. In 1991, OSWER broadened 
the National Ombudsman's scope of activity to include other programs 
administered by OSWER, particularly the Superfund program. The National 
Ombudsman is located at EPA Headquarters and reports directly to the 
Assistant Administrator for Solid Waste and Emergency Response.
    The Ombudsman is authorized to provide information and investigate 
complaints and grievances related to OSWER's administration of the 
hazardous substance and hazardous and solid waste programs implemented 
under the following authorities:
    <bullet> Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA) or Superfund;
    <bullet> RCRA, including UST;
    <bullet> Emergency Planning and Community Right-To-Know Act (EPCRA) 
or Superfund Amendments and Reauthorization Act, Title III;
    <bullet> Oil Pollution Act;
    <bullet> Clean Air Act, Section 112(r).
    In 1995, a Regional Ombudsman position was created in each EPA 
Regional Office as part of the Superfund Administrative Reforms effort. 
On June 4, 1996, Administrator Browner formally announced the 
appointments of the Regional Ombudsmen. The Regional Ombudsman Program, 
at a minimum, operates in support of the Superfund program. Depending 
on the region, however, it also may provide support to other OSWER 
programs, including RCRA, Underground Storage Tanks (UST), and chemical 
emergency prevention and preparedness.
                       the role of the ombudsman
    The Ombudsman is the Agency official designated to receive 
inquiries and complaints about the administration of an OSWER program 
and may be called upon to serve in a number of capacities: (1) 
providing information and facilitating informal contact with EPA staff, 
(2) conducting informal fact finding inquiries and developing options 
to deal with difficult problems, (3) helping to mediate disputes, and 
(4) making recommendations to Agency senior management regarding 
procedural and policy changes that will improve the program. The goal 
of the Ombudsman is to respond to requests in an appropriate and 
objective manner as promptly, informally, and privately as possible.
    It is important to note, however, that the role the Ombudsman is 
not that of decisionmaker nor of a substantive expert for the Agency. 
The Ombudsman's role is primarily to focus on the Agency's procedures 
and how citizens and other interested parties have been treated under 
those procedures.
     concerns about ombudsman as authorized in proposed legislation
    We fully support the National Ombudsman program under the 
jurisdiction of the Assistant Administrator for Solid Waste and 
Emergency Response. We believe that the Ombudsman function is a very 
important one for the Agency and the public. That is why when the 
statutory authorization for the Hazardous Waste Ombudsman function 
expired, EPA chose administratively to maintain the function as a 
matter of policy.
    S. 1763, however, goes beyond the provisions of the original 
authorization. Section 2(c) requires that the structure of the Office 
of the Ombudsman conform, to the maximum extent practicable, to the 
structure of the Model Ombudsman Statute developed by the American Bar 
Association (ABA). Models or guidelines for ombudsmen have been 
developed by a variety of organizations, including the ABA, the U.S. 
Ombudsman Association, and others. Some aspects of these models, and 
particularly of the Model Ombudsman Statute for State Governments, 
conflict with requirements for Federal employees and the Freedom of 
Information Act requirements for Federal agencies. Specifically, the 
ABA State Government Model envisions complete independence, 
confidentially, and impartiality for ombudsmen. These are laudable 
goals. As Federal employees reporting to Agency managers, however, the 
ombudsmen are unlikely to fully meet these goals. The Ombudsman cannot 
be completely independent in the normal course of relations between 
supervisors and their employees, for example.
    The basic problem with using the ABA Model Statute in this context 
is that it was designed for States that wish to establish a separate 
and independent office within the State government, where the Ombudsman 
would be elected by the State legislature or appointed by the Governor 
and would operate independently of other executive branch agencies. The 
Model Statute therefore recommends vesting the Ombudsman with certain 
missions and authorities that would be inappropriate for an Ombudsman 
Office that is established within a single Federal Government agency. 
For example, the Model Statute contemplates that the Ombudsman would 
have independent litigating authority, as well as independent authority 
to promulgate regulations, both of which would go beyond the 
authorities of individual EPA employees.
    It is also worth noting that the ABA Model Statute is inconsistent 
in important respects with the ABA's recently proposed (July 2000) 
Standards for the Establishment and Operation of Ombudsman Offices. 
These new standards are specifically contemplated to apply among other 
things, to Ombudsman Offices established within Federal agencies. 
Further, the ABA Model Statute is also inconsistent with the 
Recommendations of the Administrative Conference of the United States, 
which provide that ``the Ombudsman should refrain from involvement in 
the merits of individual matters that are the subject of ongoing 
adjudication or litigation or investigations incidents thereto.''
    In addition, the Freedom of Information Act obligations for Federal 
agencies and the confidentiality guidelines of the Model Ombudsman 
Statute are inconsistent, and the proposed legislation does not provide 
authority necessary to reconcile this inconsistency. We are concerned 
that the establishment of the ABA model as the appropriate Ombudsman 
structure may create both unreasonable expectations and inappropriate 
opportunities for litigation.
    In order to provide for effective and fair implementation of 
OSWER's Ombudsman policy, the Agency developed the ``Hazardous Waste 
Ombudsman Handbook.'' We are now in the process of developing guidance 
for the program, taking the best aspects of various external models and 
combining them into a model that works within the Federal structure. 
The draft guidance will be made available through the Federal Register 
publication for comment prior to being finalized.
    Thank you for the opportunity to appear before you this morning. My 
colleagues and I would be pleased to answer any questions that you may 
have.
                                 ______
                                 
      Responses by Diane E. Thompson to Additional Questions from 
                             Senator Smith
    Question 1a. The Office of the Ombudsman was created within the 
Office of Solid Waste and Emergency Response in amendments to the Solid 
Waste Disposal Act in 1984. Why did the original legislation have only 
a 4-year lifespan?
    Response. The amendments to the Solid Waste Disposal Act passed by 
Congress in 1984 included a provision which stated, ``The Office of 
Ombudsman shall cease to exist 4 years after the date of enactment of 
the Hazardous and Solid Waste Amendments of 1984.'' In 1989, when the 
statutory authorization for the Hazardous Waste Ombudsman function 
expired, Congress did not re-authorize the Ombudsman function. The 
Agency does not know why. The Congressional Record does not address 
this question. EPA chose administratively to maintain the function as a 
matter of policy after the authorization expired. EPA continues to 
support the Ombudsman function.

    Question 1b. What would be the EPA's position on a bill that merely 
sought to re-enact the provision in the original legislation for an 
additional 10 years?
    Response. EPA would not oppose a bill that re-authorizes, for an 
additional 10 years, the 1984 amendments to the Solid Waste Disposal 
Act which directed the Administrator to establish an Office of the 
Ombudsman. EPA believes that the Ombudsman function can be of 
assistance to the Agency and the public. That is why when the statutory 
authorization for the Hazardous Waste Ombudsman function expired, EPA 
chose administratively to maintain the function as a matter of policy.

    Question 1c. The EPA presently has an Office of the Ombudsman that 
it has supported since the original legislation expired. What injury to 
the environment and to the work of the EPA would be caused by 
legislation reauthorizing the Office of the Ombudsman or a separate 
line item in the budget for this Office?
    Response. The Agency does not believe that re-authorizing ,the 
Office of the Ombudsman would result in injury to the environment and 
to the work of the EPA. To the contrary, when the statutory 
authorization for the Hazardous Waste Ombudsman function expired in 
1989, EPA chose administratively to maintain the function as a matter 
of policy. As further evidence of the Agency's commitment to the 
Ombudsman function, in 1991 EPA broadened the National Ombudsman's 
scope of activity to include other programs administered by the Office 
of Solid Waste and Emergency Response, particularly the Superfund 
program. In addition, in 1995 the Agency created a Regional Ombudsman 
function in each EPA Regional office as part of the Agency's Superfund 
Administrative Reforms effort. EPA believes that the Ombudsman function 
is useful for the Agency and the public.
    Since its establishment in 1984, EPA has provided adequate 
resources (funding, person-years, etc.) for the Ombudsman function. 
Over the last 16 years, supplemental needs of the Ombudsman have been 
met through the Office of Solid Waste and Emergency Response's 
(OSWER's) routine allocation of funds. OSWER has assigned staff to 
support this function and assisted the ten Regional Ombudsman as 
needed. Over the years, funding for the National Ombudsman function has 
steadily increased despite the fact that OSWER program budgets have 
been reduced. In fact, funding to support the National Ombudsman 
function has increased from $117,000 in fiscal year 1993 to more than 
$519,000 in fiscal year 2000.
    When the need has arisen, additional funds have been provided to 
the Ombudsman function. The fiscal year 2000 direct funding for OSWER 
National Ombudsman function, in Headquarters, was $500,000 (primarily 
staff salary, travel and hearing expenses). Historically, this more 
than adequately met its needs. In addition, the Ombudsman, depending on 
the site and issues under review, has relied upon the technical 
expertise of EPA's professional staff resources, such as the Office of 
Emergency and Remedial Response, to supplement investigative efforts. 
Because these needs vary from year to year, it would be difficult to 
predict the nature and amount of these supplemental needs. In addition 
to the OSWER National Ombudsman, there is a strong Regional Ombudsman 
network, with a counterpart in each of the 10 EPA Regional Offices. 
This network is available and fully funded at roughly $1 million a 
year, to support the National Ombudsman.
    EPA does not believe a separate line item in the budget for the 
Ombudsman's Office is necessary. It would represent an unnecessary 
precedent to establish such a line item appropriation.

    Question 2a. Your testimony indicates that the Agency is 
implementing the suggestions made by the Small Town Task Force, 
however, there is no mention of a Small Community Ombudsman Office at 
EPA Regional Offices. Is the Agency implementing that recommendation?
    Response. In 1996, the Small Town Environmental Planning Task Force 
(STTF) recommended that ``a Small Town Ombudsperson Office should be 
established in each EPA region and at headquarters with a primary 
responsibility for serving as an advocate for small towns and as a 
facilitator for addressing small town concerns and programs.'' The 
Agency's implementation of that recommendation has proceeded along 
three tracks.
    The first track is a multi-media approach which began the same year 
that the STTF made its recommendation. The then-EPA Associate 
Administrator for Regional Operations and State and Local Relations 
asked each Regional Administrator to designate a small community 
coordinator to work with the headquarters small community coordinator. 
Since then, these small community contacts have evolved into focal 
points for the receipt and transmittal of information to local 
communities and facilitators of the communication process between EPA 
Regional Offices and small towns.
    A second track involves working closely with State environmental 
agencies which have established strong small community outreach 
efforts. Nebraska, Oregon, and Oklahoma, for example, are three State 
environmental programs with a strong small town emphasis. EPA supports 
innovative State efforts in three ways: (1) encouraging States to adopt 
flexible enforcement approaches to small town compliance; (2) providing 
technical assistance to States which are developing small community 
programs; and (3) working with the Environmental Council of the States 
(ECOS) to provide a forum to share solutions to common small town 
issues among the States.
    EPA media or program offices are the primary component of the third 
track in EPA's implementation of the Small Town Ombudsperson Office 
recommendation. Individual program offices have established dedicated 
teams to work with small towns in the following areas: (1) wastewater; 
(2) drinking water; (3) compliance assistance; and, (4) early 
involvement in the regulatory development process. These teams have 
been established based on EPA's understanding of the environmental 
challenges facing small communities and on the on-going advice we have 
received from the small town advisory panels we have established.

    Question 2b. If so, approximately how many full time employees 
(FTEs) per Region are assigned to a Small Community Ombudsman Office?
    Response. While each EPA Regional Office has established a small 
community coordinator function, resource levels supporting that 
function vary widely depending on (1) the number of small communities 
in the region with identified environmental assistance needs; (2) the 
extent of State small community programs; and, (3) the extent of the 
small community effort within regional programs or media divisions. We 
have no formal accounting of the total FTE assigned to coordinator/
outreach functions.

    Question 3. Your written testimony indicates that the agency has 
implemented, or has undertaken efforts to achieve the various goals of 
these bills. For example: the Agency administratively supports the 
current Office of the Ombudsman, although the authorization for the 
Office has expired; a Small Community Advisory Subcommittee already 
exists within the Local Government Advisory Committee; and there are 
current plans to update environmental reporting to a Central Data 
Exchange. All that being said, none of these initiatives have been 
specifically authorized by Congress. In addition to authorization for 
the Programs, some of the bills include an authorization for 
appropriations to carry out the mandates of the bills. Seeing as the 
Agency has so many initiatives, is it helpful to have a Congressional 
mandate to set priorities and ensure funding for the Program?
    Response. As outlined in the testimony, although EPA supports the 
goals of S. 1915 and S. 2296, the Agency has significant concerns with 
many of the specific provisions included in that legislation. Moreover, 
although those two bills would provide specific authority for many 
activities conducted presently under more general authorizations, such 
specific authorization does not guarantee the availability of funds 
beyond those already being expended on those activities. To the 
contrary, EPA's experience with the SEARCH pilot project was that 
funding was diverted from other priorities. Too often, new authorities 
simply establish conflicting priorities for the same appropriations, 
and reduce the flexibility necessary to address the highest priority 
public health and environmental protection issues. Moreover, such 
authorizations often have the unintended consequence of creating 
opportunities for litigation which further diverts resources from 
existing, well established priorities.
                                 ______
                                 
      Responses by Diane E. Thompson to Additional Questions from 
                             Senator Baucus
    Question 1a. Please identify which, if any, portions of the models 
and guidelines for ombudsmen identified below would be consistent with 
the structure currently in place at EPA (with the Ombudsman's Office 
within the Office of Solid Waste and Emergency Response), the U.S. 
Ombudsman Association's Model Ombudsman Act for State Governments, 
dated February 1997.
    Response. Many of the provisions in the U.S. Ombudsman 
Association's Model Ombudsman Act for State Governments, dated February 
1997 are consistent with the structure currently in place within the 
OSWER Ombudsman's Office including the Ombudsman's powers and duties, 
and discretion over the investigation complaints. Some areas that are 
not consistent include the power to subpoena, the power to bring suit 
to enforce the provisions of the Act and the requirement for issuing 
annual reports. Other aspects of this model conflict with requirements 
for Federal employees and the Freedom of Information Act requirements 
for Federal agencies. As Federal employees reporting to Agency managers 
the Ombudsmen cannot be completely independent in the normal course of 
relations between supervisors and their employees.

    Question 1b. Please identify which, if any, portions of the models 
and guidelines for ombudsmen identified below would be consistent with 
the structure currently in place at EPA (with the Ombudsman's Office 
within the Office of Solid Waste and Emergency Response), the American 
Bar Association's proposed Standards for the Establishment and 
Operation of Ombudsman Offices, dated July 2000.
    Response. Many of the provisions in the American Bar Association's 
proposed Standards for the Establishment and Operation of Ombudsman 
Offices, dated July 2000, are consistent with the structure currently 
in place within the Office of Solid Waste and Emergency Responses's 
(OSWER) Ombudsman's Office. Some aspects of this proposed Standard 
conflict with requirements for Federal employees and the Freedom of 
Information Act requirements for Federal agencies. For example, as 
Federal employees reporting to Agency managers the ombudsmen cannot be 
completely independent in the normal course of relations between 
supervisors and their employees.

    Question 2. Are you aware of any other model or framework that you 
believe would be more suitable for the Ombudsman's Office? If so, 
please describe.
    Response. In addition to the ABA proposed Standards, EPA believes 
that Conference Recommendation 90-2: ``The Ombudsman in Federal 
Agencies,'' adopted June 7, 1990 by the Administrative Conference of 
the United States, provides a reasonable framework for establishing and 
maintaining an Ombudsman function in a Federal agency. See Attachment 
A.

    Question 3. Are you aware of any other Federal agency, or division 
within an agency, with an Ombudsman's Office? If so, please identify 
how Ombudsman's Offices are structured and function in other Federal 
agencies, relative to their structure and function at EPA.
    Response. We are aware of several other Ombudsman functions within 
the Federal Government. The Agency for Toxic Substances and Disease 
Registry has recently established an Ombudsman function (see Attachment 
B). We understand that the Internal Revenue Service and the Department 
of Health and Human Services have Ombudsmen as well.

    Question 4. What issues do you expect will be addressed by the 
guidance that EPA is developing for the Ombudsman's Office? Do you 
anticipate that the guidance will address any of the significant 
criticisms of the current structure of the office, such as claims that 
the office does not have sufficient autonomy from OSWER, authority to 
obtain documents or other information, or resources? Does EPA expect to 
make any changes that would affect the structure or functioning of the 
Ombudsman's Office? When does EPA expect to issue the guidance?
    Response. Shortly after Congress established the Ombudsman program, 
the Agency issued the Hazardous Waste Ombudsman Handbook to help the 
newly created National and Regional Ombudsmen administer, within a 
public framework, the Ombudsman program. During the initial years of 
the Ombudsman program, most of the assistance sought by the public was 
for information on the RCRA program. The Ombudsmen spent most of their 
time responding to general questions and directing requests to the 
appropriate sources. The handbook reflected this role.
    Over the years, the public gained a better understanding of EPA's 
hazardous waste programs. Requests for answers to basic questions 
became requests for resolution of complaints. The Ombudsman function 
has evolved to reflect the changing needs of its clients. Since earlier 
guidance no longer reflected the current Ombudsman activities and 
function, this guidance has been updated to explain the role of the 
Ombudsmen, their scope of activity, and the guidelines under which they 
coordinate and carry out their responsibilities. The main objective in 
issuing new guidance is to improve the effectiveness of this program by 
giving the Ombudsmen and those who may contact them a clear and 
consistent set of operating expectations and policies.
    In preparing the updated guidance, a workgroup met with 
representatives of the U.S. Ombudsman Association and evaluated and 
considered guidance documents from this organization as well as from 
other organizations with Ombudsman programs and the American Bar 
Association's draft Standards for the Establishment and Operation of 
Ombudsman Offices. The workgroup has attempted to draft guidance which 
reflects key aspects of various external models in a manner that 
supports the Ombudsman's independent operations within the context of a 
civil service position within the Federal structure. EPA believes the 
draft guidance will provide for effective and fair implementation of 
OSWER's Ombudsman program.
    The draft guidance was made available for public comment by Federal 
Register notice on January 3, 2001, copy attached. Public comment is 
requested by March 5, 2001. The Agency has also made the draft guidance 
available on EPA's internet website.

    Question 5. Does the Hazardous Waste Ombudsman Handbook bear on any 
matters referenced in the previous question? Please provide a copy of 
the handbook.
    Response. In 1987, the Agency issued the Hazardous Waste Ombudsman 
Handbook to help the newly created National and Regional Ombudsmen to 
administer, and the public to understand what to expect from the 
Ombudsman program. During the initial years of the Ombudsman program, 
most of the assistance sought by the public was for information on the 
RCRA program. The Ombudsmen spent most of their time responding to 
general questions and directing requests to the appropriate sources. 
The handbook reflected this role. See Attachment C.

    Question 6. Please provide copies of any correspondence or 
memoranda between the Ombudsman's Office and the Office of Solid Waste 
and Emergency Response from the past year that bear on the 
responsibilities? or functioning of the Ombudsman's Office.
    Response. Attachment D contains relevant correspondence or 
memoranda between the Ombudsman's Office and the Office of Solid Waste 
and Emergency Response.

    Question 7. Has the Ombudsman's Office prepared any recommendations 
to improve the functioning of OSWER and the Ombudsman's Office? If so, 
please provide copies, and identify any measures taken in response to 
the recommendations.
    Response. The OSWER National Ombudsman has made recommendations to 
improve the OSWER Ombudsman function. See Attachment E.

    Question 8. Please provide copies of each of the Ombudsman's 
reports on site investigations and recommendations (including both 
preliminary and final recommendations).
    Response. Attachment C contains the reports requested. They 
include: (1) Final Report on the Review of the Brio Superfund Site; (2) 
Interim Report on the Review of the Times Beach Site; (3) Final Report 
on the Review of the Times Beach Site; (4) Final Report--National 
Ombudsman's Review of the Drake Chemical Site; (5) Shattuck Chemical 
Superfund Site--Preliminary National Ombudsman Recommendations.

    Question 9. In coordination with the Department of Justice, please 
respond to assertions that: DOJ attempted to ``muzzle'' the Ombudsman's 
Office; and limits on the Ombudsman's authority to become involved in 
cases in litigation would preclude his involvement at a significant 
number of sites, and would be inappropriate (in what, if any, 
circumstances, could it be appropriate for an Ombudsman's investigation 
to proceed in connection with a site that is, has been or may in the 
future be the subject of litigation?)
    Response. EPA and Department of Justice support the existence of an 
Ombudsman Office within EPA. We recognize that Ombudsman offices within 
Federal agencies play an important role in responding to and 
investigating complaints and questions from members of the public or 
employees regarding agency processes and the manner in which 
individuals or other entities have been treated in those processes. We 
also agree, consistent with the American Bar Association's (``ABA's'') 
draft Standards for the Establishment and Operation of Ombudsman 
Offices (July 2000), that to function effectively with respect to 
matters within their areas of responsibility, ombudsmen must be able to 
operate with a considerable degree of independence, impartiality, and 
confidentiality.
    This does not mean, however, that the National Hazardous Waste 
Ombudsman should have unlimited discretion to investigate any issue 
that comes to his or her attention. For example, if the Ombudsman 
discovers evidence of potentially criminal conduct, he or she should 
immediately refer the matter to the appropriate criminal investigative 
office and should refrain from further investigation of the matter. 
Similarly, the Ombudsman's jurisdiction should be limited with respect 
to civil matters that are before a court or administrative tribunal. To 
the extent that there is already a neutral forum for resolving certain 
issues, a parallel Ombudsman investigation is likely to add confusion 
rather than clarity to the situation. Moreover, where the Ombudsman 
seeks to address an issue already before a court in pending litigation, 
this duplicative process tends to undermine the court's authority and 
risks harming the interests of the United States in the litigation. For 
example, testimony by government officials at an Ombudsman's hearing 
while litigation is pending can raise serious concerns regarding 
potential waiver of privileges.
    There are at least two sets of national standards concerning 
Federal agency ombudsmen, issued by two highly respected legal bodies, 
the ABA and the Administrative Conference of the United States, that 
would caution the EPA Ombudsman to avoid duplicating or undermining the 
civil judicial proceedings related to the instant case. The draft ABA 
Standards issued in July 2000 State that ``[a]n entity should not 
authorize an Ombudsman to: (1) make, change or set aside a law, policy, 
or administrative decision'' or ``(4) conduct an investigation that 
substitutes for administrative or judicial proceedings.'' Similarly, 
the U.S. Administrative Conference's Recommendations for the Ombudsman 
in Federal Agencies (Aug. 1990) State that ``legislation or guidelines 
[for a Federal agency Ombudsman] should * * * provide that the 
Ombudsman should refrain from involvement in the merits of individual 
matters that are the subject of ongoing adjudication or litigation or 
investigations incident thereto.'' (Emphasis added.)

    Question 10. Please identify the responsibilities of the regional 
ombudsmen and the nature of the matters they work on, and discuss 
whether and how they differ from those of the Ombudsman's Office at EPA 
headquarters. What is your response to testimony that the very 
structure of the regional Ombudsman's Offices creates a conflict of 
interest, since staff serving this function spend the majority of their 
time working in the program office that is scrutinized by the 
Ombudsman's Office.
    Response. The Superfund Administrative Reforms established a 
Superfund Ombudsman in each EPA Region. The Regional Ombudsman is a 
high-level employee who serves as a point of contact for members of the 
public who have concerns about Superfund activities. The Regional 
Ombudsman has the ability to look independently into problems and 
facilitate the communication that can lead to a solution. Each Regional 
Ombudsman has direct access to top management and can recommend actions 
to resolve legitimate complaints. Each year, as a group, they receive 
and respond to hundreds of inquiries. Most of these are routine and the 
Regional Ombudsman provides information or connects the request or to 
the person who can help with his/her issue. In a few cases, the 
Regional Ombudsman has undertaken fact-finding assessments or engaged 
in facilitation between the person with the concern and Agency 
officials. Members of the public may contact the National Ombudsman for 
assistance at any time if they are not comfortable working with a 
Regional Ombudsman.
    As a general matter, the National Ombudsman focuses his/her efforts 
on cases of national significance or precedent, while the Regional 
Ombudsmen have focused on issues that are more operational or that can 
be resolved informally. In some cases, the National and Regional 
Ombudsmen may participate together in the inquiry. The Regional 
Ombudsmen have been established primarily to focus on matters related 
to implementation of the Superfund program while the National Ombudsman 
functions across all programs managed by OSWER.
    The organizational location and operation of the Regional Superfund 
Ombudsmen is a matter of regional discretion, thus no single 
description exactly fits all 10 
regional approaches. For the most part, the Regional Ombudsmen report 
to the Superfund division director, directly or through an intermediate 
supervisor. With this arrangement, the Regional Ombudsman frequently 
also has direct access to the Regional Administrator or Deputy Regional 
Administrator when he/she believes that specific issues warrant direct 
involvement by top regional managers. EPA understands that this type of 
organizational structure (reporting to the Regional Superfund division 
director) has created the perception, in some cases, that there is a 
conflict of interest. This is an issue we will be asking the Regions to 
consider after the Agency has issued the OSWER Ombudsman guidance. In 
general, however, we have found that Regional Ombudsmen can be very 
effective in improving the operation of the regional program when they 
have appropriate resources and support.

    Question 11. What is your reaction to the suggestion at the hearing 
that S. 1763 should be amended in subsection (c) to incorporate by 
reference the ABA model Ombudsman's statute, rather than relying on a 
determination by the Administrator as to whether it is practicable to 
follow particular aspects of the model?
    Response. Models or guidelines for ombudsmen have been developed by 
a variety of organizations, including the ABA, the U.S. Ombudsman 
Association, and others. The Agency is concerned that the establishment 
of the ABA model as the appropriate Ombudsman structure may create both 
unreasonable expectations and inappropriate opportunities for 
litigation. Some aspects of these models, and particularly of the Model 
Ombudsman Statute for State Governments, conflict with requirements for 
Federal employees and the Freedom of Information Act requirements for 
Federal agencies. Specifically, the ABA State Government Model 
envisions complete independence, confidentiality, and impartiality for 
ombudsmen. These are laudable goals. As Federal employees reporting to 
Agency managers, however, the ombudsmen are unlikely to fully meet 
these goals. The Ombudsman cannot be completely independent in the 
normal course of relations between supervisors and their employees, for 
example. In addition, the Freedom of Information Act obligations for 
Federal agencies and the confidentiality guidelines of the Model 
Ombudsman Statute are inconsistent.
    The basic problem with using the ABA Model Statute in this context 
is that it was designed for States that wish to establish a separate 
and independent office within the State government, where the Ombudsman 
would be elected by the State legislature or appointed by the Governor 
and would operate independently of other Executive branch agencies. The 
Model Statute therefore recommends vesting the Ombudsman with certain 
missions and authorities that would be inappropriate for an Ombudsman 
Office that is established within a single Federal Government agency. 
For example, the Model Statute contemplates that the Ombudsman would 
have independent litigating authority, as well as independent authority 
to promulgate regulations, both of which would go beyond the 
authorities of individual EPA employees.
    It is also worth noting that the ABA Model Statute is inconsistent 
in important respects with the ABA's recently proposed (July 2000) 
Standards for the Establishment and Operation of Ombudsman Offices. 
These new standards are specifically contemplated to apply among other 
things, to Ombudsman Offices established within Federal agencies. 
Further, the ABA Model Statute is also inconsistent with the 
Recommendations of the Administrative Conference of the United States, 
which provide that ``the Ombudsman should refrain from involvement in 
the merits of individual matters that are the subject of ongoing 
adjudication or litigation or investigations incidents thereto.''

    Question 12. Would EPA oppose a bill that ensured the continued 
existence of the Ombudsman's Office by reauthorizing the office, and 
which required an annual report to Congress on the Ombudsman's 
investigations and recommendations?
    Response. The Agency would not oppose a bill that re-authorizes the 
provision which directed the Administrator to establish an Office of 
the Ombudsman. EPA believes that the Ombudsman function can be of 
assistance to the Agency and the public. That is why when the statutory 
authorization for the Hazardous Waste Ombudsman function expired, EPA 
chose administratively to maintain the function as a matter of policy. 
In addition, the Agency would not oppose a requirement that the 
Ombudsman's Office submit an annual report to Congress on the 
Ombudsman's investigations and recommendations.
                                 ______
                                 
Environmental Protection Agency
[FRL-6928-8]
Draft Guidance for National Hazardous Waste Ombudsman and Regional 
Superfund Ombudsmen Program

AGENCY: Environmental Protection Agency.

ACTION: Notice of available draft guidance with request for comment.

SUMMARY: The Environmental Protection Agency (EPA) has developed and is 
requesting comment on the ``Draft Guidance for National Hazardous Waste 
Ombudsman and Regional Superfund Ombudsmen Program.'' The Office of 
Solid Waste and Emergency Response (OSWER) National Hazardous Waste and 
Superfund Ombudsman (National Ombudsman) and the Regional Superfund 
Ombudsmen (Regional Ombudsmen) were established to provide help to the 
public in resolving issues and concerns raised about the solid and 
hazardous waste programs administered by OSWER.
    The purpose of this draft guidance is to explain the role of the 
Ombudsmen, their scope of activity, and the guidelines under which they 
coordinate and carry out their responsibilities. EPA believes this 
draft guidance will improve the effectiveness of this program by giving 
the Ombudsmen and those who may contact them a clear and consistent set 
of operating policies and expectations.

DATES: To make sure we consider your comments we must receive them by 
March 5, 2001. Comments received after that date will be considered to 
the extent feasible; however, EPA will not delay finalizing the 
guidance to accommodate late comments.

ADDRESSES: You may request copies of the ``Draft Guidance for National 
Hazardous Waste Ombudsman and Regional Superfund Ombudsmen Program'' by 
any of the following ways:
    Mail or write to: Docket Coordinator, Headquarters, U.S. EPA, 
CERCLA Docket Office, (Mail Code 5201G), Ariel Rios Building, 1200 
Pennsylvania Avenue, NW., Washington, DC 20460.
    Phone: call (703) 603-9232, or (800) 424-9346.
    Internet: http://www.epa.gov//swerrims/whatsnew.htm
    If you wish to send us comments on the guidance, you must send them 
in any one of the following ways:
    Mail: Docket Coordinator, Headquarters, U.S. EPA, CERCLA Docket 
Office, (Mail Code 5201G), Ariel Rios Building, 1200 Pennsylvania 
Avenue, NW., Washington, DC 20460.
    Express Mail or courier (such as Federal Express, other overnight 
delivery, or courier): Docket Coordinator, Headquarters, U.S. EPA, 
CERCLA Docket Office, 1235 Jefferson Davis Highway, Crystal Gateway #1, 
First floor, Arlington, Virginia, 22202.
    E-mail: in ASCII format only to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9dadcd9ccdbcfdcc7cd87cdc6cac2ccdde9ccd9c887cec6df87">[email&#160;protected]</a>

FOR FURTHER INFORMATION CONTACT: Caroline Previ, phone number (202) 
260-2593, Office of Solid Waste and Emergency Response (Mail Code 
5101), U.S. Environmental Protection Agency, Ariel Rios Building, 1200 
Pennsylvania Avenue, NW., Washington, DC 20460, or the Superfund 
Hotline, phone number (800) 424-9346 or (703) 412-9810 in the 
Washington, DC metropolitan area.

SUPPLEMENTARY INFORMATION:

I. Introduction

    The program managers and staff in the Regions and at Headquarters 
are committed to implementing the Federal solid waste and hazardous 
waste statutes managed by EPA, being responsive to the public, and 
resolving issues and concerns brought to their attention. In some 
cases, the individual or group raising a given concern does not believe 
the official problem solving channels dealt fairly or fully with their 
situation. In such cases, the individual or group may request 
assistance from the Office of Solid Waste and Emergency Response 
(OSWER) Ombudsman, an Agency official designated to receive inquiries 
and complaints about the administration of OSWER programs. The National 
and Regional Ombudsmen receive many calls for assistance each year--
ranging from routine questions about hazardous waste laws to specific 
complaints about allegedly improper activities conducted at a site or 
facility.
    Today's Federal Register notice introduces a policy entitled 
``Draft Guidance for National Hazardous Waste Ombudsman and Regional 
Superfund Ombudsmen Program'' which explains the role and conduct of 
the OSWER National Ombudsman and the Regional Superfund Ombudsmen, 
scope of their activity, and the guidelines under which they coordinate 
and carry out their responsibilities. The main objective in issuing 
this guidance is to improve the effectiveness of this program by giving 
the Ombudsmen and those who may contact them a clear and consistent set 
of operating policies and expectations. This draft guidance would cover 
only the Ombudsmen who work on OSWER related issues, and staff who 
supply primary support or assistance to the Ombudsmen.
    This guidance, when finalized, is not intended to be, and should 
not be construed as a rule. Use of the guidance would not be legally 
binding on EPA managers or staff or on other parties. EPA is seeking 
public comment at this time to ensure hearing the widest range of views 
and obtaining all information relevant to the development of the 
guidance.

II. Background

    The hazardous and solid waste management laws passed by Congress 
created some of the most complex programs administered by EPA and the 
States. Recognizing this, Congress established a National Ombudsman 
function in 1984 as part of amendments to the Resource Conservation and 
Recovery Act (RCRA) so that the public would have someone to come to 
with questions and concerns about the RCRA program. Soon after, we 
issued the ``Hazardous Waste Ombudsman Handbook'' to help the newly 
created National Ombudsman administer, and the public understand what 
to expect from, the Ombudsman program. During the initial years of the 
National Ombudsman program, most of the assistance sought by the public 
was for help understanding the complex RCRA program. The Ombudsman 
spent most of his time responding to general questions and directing 
requests to the appropriate sources. The handbook reflected this role.
    When the statutory authority for the National Ombudsman program 
expired in 1989, OSWER retained the function as a matter of policy. In 
1991, OSWER broadened the National Ombudsman's scope of activity to 
include other programs administered by OSWER, particularly the 
Superfund program. The National Ombudsman is located in the EPA 
Headquarters office in Washington, DC.
    In 1995, EPA created a Regional Superfund Ombudsman position in 
each EPA Regional office as part of the Superfund Administrative 
Reforms. The Regional Ombudsmen program, at a minimum, operates in 
support of the Superfund program, but--depending on the Region--may 
also provide support to other programs, including RCRA, Underground 
Storage Tanks (UST), and chemical emergency prevention and 
preparedness.
    Over the years, the public gained a better understanding of EPA's 
hazardous waste programs. Requests for answers to basic questions more 
frequently became requests for resolution of complaints. The Ombudsman 
function evolved to reflect these changes. The existing guidance no 
longer reflects the Ombudsman function as it has evolved.
    In the fall of 1999, the EPA established an internal workgroup to 
update the ``Hazardous Waste Ombudsman Handbook.'' In preparing the 
updated guidance, the workgroup met with representatives of the U.S. 
Ombudsman Association, and evaluated and considered guidance documents 
from this organization, as well as other organizations with Ombudsman 
programs and the American Bar Association's draft Standards for the 
Establishment and Operation of Ombudsman Offices. To the extent 
possible, EPA has drafted guidelines which reflect key aspects of 
various external models in a manner that supports the Ombudsman's 
independent operation within the context of a civil service position 
within the Federal Government structure. EPA developed these procedures 
to meet the specific needs of the OSWER Ombudsman program and they may 
not be completely consistent with Ombudsmen principles established by 
other organizations.
    The draft guidance explains to the public the role of the National 
Hazardous Waste and Superfund Ombudsman and Regional Superfund 
Ombudsmen today, their scope of activity, and the guidelines under 
which they coordinate and carry out their responsibilities. We believe 
the draft guidance will provide for effective and fair implementation 
of OSWER's Ombudsman program.

III. Summary of Draft Guidance

    The draft ``Guidance for the National Hazardous Waste and Superfund 
Ombudsman and Regional Superfund Ombudsmen Program'' puts forth our 
philosophy concerning the basic operating principles and procedures for 
the OSWER Ombudsman program. Ombudsmen functioning under this guidance 
are authorized to provide information and look into complaints and 
grievances related to OSWER's administration of the programs 
implemented under the following authorities:
    <bullet> Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA) or Superfund
    <bullet> Resource Conservation and Recovery Act (RCRA), including 
Underground Storage Tanks (UST)
    <bullet> Emergency Planning and Community Right-To-Know Act (EPCRA) 
or Superfund Amendments and Reauthorization Act, Title III
    <bullet> Oil Pollution Act
    <bullet> Clean Air Act, Section 112r
    The Ombudsman may be called to serve in a number of capacities: (1) 
providing information and facilitating informal contact with EPA staff, 
(2) conducting informal inquiries and developing recommendations to 
address difficult problems, (3) helping to mediate disputes, and (4) 
making recommendations to Agency senior management regarding procedural 
and policy changes aimed at improving the program. The goal of the 
Ombudsman program is to respond to requests in an appropriate, 
transparent and objective manner as promptly, informally and discretely 
as possible. The guidance briefly discusses each of these functions, 
but we anticipate that a significant amount of the Ombudsman's time 
will be dedicated to looking into issues raised by the public 
concerning decisions that EPA has made. Because of this, most of the 
draft guidance is devoted to outlining the Ombudsman's responsibilities 
in carrying out this activity. Overall, the Ombudsman's role is to 
listen to all sides in an impartial, objective manner, to provide 
assistance in trying to understand and resolve the problem, and, if 
necessary, to recommend possible solutions to senior Agency managers. 
It is important to note that the Ombudsman does not have authority to 
change decisions made by program managers or staff.
    Generally, the National Ombudsman handles cases of national 
significance. The Regional Ombudsmen handle the more routine requests 
for assistance and conducts more informal inquiries to investigate 
complaints. The guidance explains how the Ombudsman will evaluate 
requests for assistance, and how inquiries will be conducted.
    Whatever capacity the Ombudsman is serving in, he is expected to 
act with independence, impartiality and confidentiality--the basic 
operating principles of all Ombudsmen. The guidance provides a brief 
description of how the Ombudsman will demonstrate these 
responsibilities effectively and discusses limitations with respect to 
confidentiality imposed by existing laws and regulations that the OSWER 
Ombudsman must abide by as Federal civil servant.
    Our goal is to receive feedback on the draft guidance from the 
widest range of interested parties possible. We welcome comments on any 
or all aspects of the guidance. Your comments will help us improve this 
document. We invite you to provide your comments on our approach and 
your ideas on alternative approaches we have not considered. Explain 
your views as clearly as possible and provide a summary of the 
reasoning you used to arrive at your conclusions. Tell us which parts 
of the guidance you support, as well as the parts with which you 
disagree. Your comments must be submitted by March 5, 2001. EPA will 
review the public comments received on the guidance and where 
appropriate, incorporate changes responsive to those comments.
    We specifically request your comments on the following three topics 
related to the independence of the Ombudsman. These issues emerged as 
key issues during the development of this guidance.
    1. Does the Organizational Structure of the Ombudsman Program 
Impact the Independence of the Ombudsman?--One of the main principles 
an Ombudsman operates under is the ability to work independently in 
determining which complaints to investigate, how an inquiry should 
proceed and what are the findings of an inquiry. EPA recognizes the 
importance of an Ombudsman being and appearing to be independent from 
the organization he/she is investigating. EPA believes both the 
National Ombudsman and the Regional Ombudsmen are able to look 
independently into problems and facilitate the communication that can 
lead to a solution. We do not select which cases the Ombudsman will 
take, nor direct how the Ombudsman will investigate a complaint. We do 
not interfere with or attempt to influence the Ombudsman as he 
formulates his findings and recommendations.
    From the time Congress established the National Ombudsman, this 
function has been a Federal Government employee reporting to a senior 
Agency official. Because the Ombudsman is a Federal employee, he/she 
cannot be completely independent in the normal course of relations 
between a supervisor and his/her employee. Currently, the National 
Ombudsman reports directly to the Assistant Administrator for OSWER. We 
believe this is the appropriate reporting structure for the National 
Ombudsman. The Assistant Administrator for OSWER is the senior 
Presidential appointee responsible for the programs the Ombudsman is 
looking into and he/she is in the best position to use the advice of 
the National Ombudsman. For the most part, each Regional Ombudsman 
reports to the appropriate Regional Superfund division director, 
directly or through an intermediate supervisor. No matter what capacity 
an Ombudsman is serving in at any given time, we have worked to ensure 
the Ombudsman's ability to operate with maximum independence.
    The organizational location and operation of the National Ombudsman 
and the Regional Ombudsmen is a matter of EPA discretion. We agree that 
it is very important that the Ombudsman be and appear to be independent 
from the organization he is investigating.
    Does this structure ensure the appropriate level of interaction 
between the OSWER Ombudsman and senior EPA officials while maintaining 
enough independence for the Ombudsman to operate effectively?
    2. Should the Ombudsman Have Sole Discretion To Decide How Cases 
Are To Be Handled?--The guidance states that the National and Regional 
Ombudsmen have the discretion either to accept a request for assistance 
or decline to act. While the National Ombudsman and the Regional 
Ombudsmen work fairly autonomously, coordination in this area is 
crucial. Requests for assistance may come directly to either the 
National or a Regional Ombudsman. To avoid duplication of effort, the 
guidance lays out general procedures for evaluating incoming requests.
    The guidance requires that before conducting an inquiry that is 
primarily related to one Region, the National Ombudsman will consult 
with the relevant Regional Ombudsman. We believe this consultation will 
help the National Ombudsman make a fully informed decision about 
whether it is more appropriate for him/her to handle the matter, to 
refer it to the Regional Ombudsman, or to decline to investigate. 
Similarly, a Regional Ombudsman is expected to notify the National 
Ombudsman if he/she has been requested to conduct an inquiry that may 
be nationally significant. The Regional Ombudsman should discuss with 
the National Ombudsman how he/she plans to proceed with the inquiry, 
including the level of involvement that the National Ombudsman wishes 
to have in the inquiry.
    We expect that a Regional Ombudsman and the National Ombudsman 
almost always will agree on who should handle an inquiry. In those rare 
situations when there is not agreement the Assistant Administrator or 
Deputy Assistant Administrator for OSWER will resolve the dispute. The 
guidance requires the Regional Ombudsman (in consultation with the 
appropriate Regional Administrator or Deputy Regional Administrator) 
and the National Ombudsman will each forward a memorandum to the 
Assistant Administrator for OSWER, or jointly hold a conference call 
explaining his/her perspective on the disagreement. The Assistant 
Administrator or Deputy Assistant Administrator for OSWER will then 
make the decision about who should handle the inquiry.
    Is this the appropriate way to resolve such disputes?
    3. Should an Ombudsman's Scope of Inquiry Be Restricted To Protect 
EPA's Litigation position?--We considered three alternative approaches 
to this question. The approach we selected and which is reflected in 
the draft guidance generally precludes the Ombudsmen from investigating 
an issue or dispute which is in litigation, i.e., pending before a 
court. The presumption is that Ombudsmen should not take action on an 
issue or dispute which is in litigation since that issue is in the 
hands of an independent tribunal for decision, as provided for by the 
relevant statute. In addition, the public has access to that tribunal 
to raise serious concerns. For example, in the case of a consent decree 
presented to a court, public comment will be solicited on the decree, 
and the court will consider those comments and then determine if it is 
in the public interest to enter the decree. In the case of a challenge 
to agency action, affected members of the public can intervene and 
present argument to the court, and the court will decide whether we 
demonstrated an adequate basis for its action and whether we acted in a 
non-arbitrary manner and in accordance with law. This approach also 
avoids creating the false impression that the Ombudsman's Office is an 
alternative forum for arguing controversial issues, which would result 
in confusion, inefficiency, and potentially conflicting statements 
about the Agency's position. The OSWER Ombudsman program is not 
intended or authorized to circumvent existing channels of management 
authority or established formal administrative avenues of appeal.
    However, we believe that there may be situations where it is 
appropriate for the Ombudsman to investigate actions EPA has taken, 
even where those actions are before a court for review. For instance, 
the Ombudsman may have information to suggest that our action at issue 
in the legal proceedings is infirm or erroneous. Or the Ombudsman may 
bring to Agency management information of significant public concern 
about an Agency action at issue in the courts. In either case, if the 
Ombudsman believes an inquiry is necessary, he/she should communicate 
that information to the appropriate Agency official before proceeding 
with his/her inquiry. Such an investigation would proceed only after 
concurrence by the Assistant Administrator or Deputy Assistant 
Administrator for OSWER or the appropriate Regional Administrator or 
Deputy Regional Administrator, in consultation with EPA's lead 
litigation office, taking into account its potential impact on pending 
litigation.
    It should be noted that this presumption against investigations 
applies to an ``issue or dispute'' that is before a court for 
consideration. Thus, the fact that a site or facility is in litigation 
does not necessarily mean that the Ombudsman should refrain from 
conducting an investigation of all issues arising at that site or 
facility. For instance, if the issue before a court is the authority of 
the Agency to get access to a piece of property, that would not create 
a presumption against an investigation of alleged deficiencies 
regarding remedy selection.
    For your information, we are providing details of the two 
alternative approaches to this matter we considered but did not select. 
The first alternative approach removed any restrictions on the 
Ombudsman's ability to conduct an inquiry concerning an issue or 
dispute which is in litigation. The Ombudsman would be free to conduct 
an inquiry regardless of whether an issue or dispute was in litigation.
    The second alternative approach would restrain the Ombudsman from 
conducting new fact gathering concerning decisions made based on the 
administrative record. The Ombudsman would remain able to audit the 
existing information and data that were part of the Agency's factual 
record. Under this model, if the Ombudsman concluded that additional 
fact finding and data gathering were necessary, that would become part 
of his recommendation. If the Agency agreed with this recommendation, 
it would conduct additional information gathering by utilizing the 
appropriate program staff and established procedures. The Ombudsman 
would be precluded from undertaking separate fact finding activities 
such as public meetings and formal on-the-record interviews. This 
approach would address concerns that an Ombudsman's activities may 
create a second record outside of the official administrative record, 
which could confuse and potentially mislead the public and could damage 
the Agency's position during litigation.
    Is the chosen approach the most appropriate?

    Dated: December 27, 2000.

Michael Shapiro,
Acting Assistant Administrator,
Office of Solid Waste and Emergency Response.

[FR Doc. 01-112 Filed 1-2-01; 8:45 am]
                               __________
      Statement of Danielle Brian, Executive Director, Project on 
                          Government Oversight
    The Project On Government Oversight (POGO) is a non-partisan non-
profit organization that, since 1981, has worked to investigate, 
expose, and remedy abuses of power, mismanagement, and subservience to 
special interests by the Federal Government. POGO's goal is to improve 
the way the government works by revealing examples of systemic 
problems, offering possible solutions, and initiating change.
    POGO has come across several attempts to stifle the independence of 
the National Ombudsman's Office. POGO first became aware of a problem 
when citizens from Lake Township, Ohio brought the Industrial Excess 
Landfill (IEL) Superfund site to our attention. From the beginning, 
concerns about the handling of the site have been voiced by citizens, 
public officials, and scientists. With each step, there have been 
questions raised about conflicts of interest, inappropriate testing 
methods, quality of site characterization, and adequacy of the methods 
of remediation selected for the site clean-up. Because of these issues, 
we worked to get the EPA National Ombudsman's Office to review the 
site. It took repeated requests by POGO and U.S. Representative Tom 
Sawyer to get EPA Administrator Carol Browner and top EPA management to 
overturn their earlier decision to prevent the National Ombudsman, 
Robert Martin, from reviewing the site. This documented interference by 
top EPA management, requiring the National Ombudsman to receive 
permission before considering an investigation, strikes at the heart of 
the independence of the office and the entire Ombudsman process.
    We decided to look at other EPA regions around the country to see 
if these problems with the EPA were unique. Unfortunately, we found 
that they were not. We learned about the Shattuck site in Denver, 
Colorado; the Brio site in Harris County, Texas; about McFarland, 
California; Tarpon Springs, Florida and on and on. The communities 
affected by these sites had all come to view the EPA not only as 
unresponsive to their concerns, but as active partners with the 
polluters. In fact, it appears that all too often the EPA has even 
broken the law in its rush to appease the polluting companies: 
withholding documents, holding secret meetings, lying to Members of 
Congress and to the community. And the only thing that stands between 
the EPA and the polluters is the National Ombudsman's Office.
    Despite the obstacles, the National Ombudsman's Office has been 
remarkably effective at getting the EPA to review its decisions and 
correct its mistakes. Not only did the Ombudsman offer the communities 
successful resolutions to their particular troubles, he gave them 
reason to believe that sometimes the government can do the right thing. 
Unfortunately, the success of the Ombudsman's work has resulted in an 
effort by the EPA to undermine that Office. Not only is the Office 
ridiculously underfunded, but one of the more insidious efforts to 
drain power from the National Ombudsman is the emergence of the EPA's 
Regional Ombudsman program. This is an utterly flawed concept where a 
person wears two hats--part of their day they are expected to be an 
independent arbiter, and the other part of their day they return to 
being an employee for the very people whose work they are evaluating 
and investigating.
    The attempts to undermine the independence of the Headquarters 
Ombudsman do not stop here. Our concern over this lack of independence 
led us to suggest to EPA top management in 1998 that a public process 
and working group be initiated to develop recommendations for improving 
the independence of the National Ombudsman's Office. We recommended 
that representatives from the United States Ombudsman Association, 
environmental community, labor, industry, good government public 
interest groups, the EPA, the National Ombudsman's Office, members of 
affected communities and others be included in this working group. In a 
response to our letter, however, EPA management stated ``I do not find 
that such a review as depicted in your letter is necessary.''
    Apparently, while no public review was necessary, the EPA found 
that a covert one was. Responding to complaints from within, the EPA 
convened a behind-closed-doors committee on the National Ombudsman 
``problem.'' Why was an internal EPA management committee created to 
change a process that is lauded by the public and their elected 
officials?
    It is clear that the office of the National Ombudsman has come 
under constant attack by EPA top management because he has been 
effective in doing exactly what an Ombudsman is supposed to do--to 
investigate complaints of inadequacies in the EPA's handling of 
Superfund sites and to suggest remedies to the problems it finds. 
Rather than allowing him to continue this work, however, the agency is 
trying to revise the procedures governing the Ombudsman program.
    It is definitely time for a change, but not in the National 
Ombudsman's Office. There is already established guidance regarding the 
functioning of an Ombudsman's Office, and that guidance comes from the 
American Bar Association and the U.S. Ombudsman Association. According 
to the Ombudsman Association, an Ombudsman's Office should have: 
``independence of the Ombudsman from control by any other officer, 
except for responsibility to the legislative body; freedom of the 
Ombudsman to investigate any act or failure to act by any agency, 
official, or public employee, and; discretionary power to determine 
what complaints to investigate and to determine what criticisms to make 
or to publicize.''
    The very essence of an Ombudsman is to stand apart from the agency 
and to perform independent investigations. Discretion over which cases 
an Ombudsman looks into, without having to ask permission from anyone 
within the organization, is essential for the effectiveness of that 
office. Should the Ombudsman become subservient to the agency whose 
work he is meant to investigate, his decisions would become suspect, 
compromising the legitimacy and integrity of the office.
    In 1998, POGO was proud to give Mr. Martin our ``Beyond the 
Headlines'' award. This is an award designed to recognize a politician, 
Federal employee, journalist or activist who has made significant 
contributions toward public policy improvements without regards for 
personal gain. I have seen over the past 2 years how hard the EPA has 
made it for Mr. Martin to do his job. Not only must he enter into 
highly contentious situations and work to identify the appropriate 
resolution for a site, but he must do this while constantly keeping an 
eye on his back. It seems that Mr. Martin's ability to cut through 
bureaucratic stonewalling has earned him a fair number of enemies at 
his own agency--which is unfortunately what you would expect for an 
Ombudsman who is doing his job well. Senator Allard's legislation will 
help to preserve the National Ombudsman's ability to call it as he sees 
it.
    The people of Denver, Colorado are remarkably lucky in that they 
have a Senator who was willing to attend not just one, but three public 
hearings held by the Ombudsman's Office. I can't think of another 
instance that I'm aware of where a Senator has devoted so much of his 
personal time to helping on an issue like this. Senator Allard and his 
fellow elected officials have demonstrated their support of the vital 
role that the National Ombudsman has played in working toward a safe 
resolution of various Superfund sites. But not every Superfund 
community has such a supportive Senator. These other communities need 
to know that the Ombudsman's Office will be there for them. S. 1763 
will help to protect the credibility and independence of the critically 
important National Ombudsman Office so that this office can function in 
the future with no further interference.
                               __________
                                              Robert Giles,
                                              P.O. Box 354,
                                    Eureka, MT, September 25, 2000.
Hon. Robert Smith, Chairman,
Committee on Environment and Public Works,
Washington, DC.

Re: S. 1763/H B. 3656

    Dear Senator Smith: This letter is my written request for you and 
your committee to approve and vote affirmatively in support of S. 1763/
H.B. 3656--EPA National Ombudsman Re-authorization Act of 2000.
    I have been appalled as I have become aware of arrogant and 
possibly illegal actions by EPA personnel toward citizens and victims 
who have and are continuing to be exposed to harmful, and in many 
cases, deadly toxins. When these victims have requested EPA review and 
access to documents available through the Freedom of Information Act, 
they have met with refusals and denials by the EPA. At this point the 
only recourse these victims and citizens have is the EPA National 
Ombudsman, Robert Martin. I have met personally with Mr. Martin and 
have followed with great interest his actions in several cases. I am 
amazed that Mr. Martin has been able to accomplish as much as he has 
with his limited powers.
    However, I fear he will not be capable of continuing these 
accomplishments because he has obviously made some enemies simply by 
performing his duties so admirably. I believe for him to be able to 
continue to do his job it is imperative that he be given subpoena 
power, and that he be independent of the EPA physically, financially, 
and authoritatively.
    For these reasons I believe it is crucial that this legislation be 
approved. Please vote affirmatively for the above mentioned 
legislation, and give victims and citizens someone they can turn to 
that will be able to do something for them now and in the future. 
Without this legislation I fear Mr. Martin will be hamstrung and unable 
to help those whom all government should answer to, the citizens.
    Please include this letter in the Congressional record.
            Thank you,
                                              Robert Giles.
                               __________
                                              Glenda Giles,
                                              P.O. Box 354,
                                    Eureka, MT, September 25, 2000.
Hon. Robert Smith, Chairman,
Committee on Environment and Public Works,
Washington, DC.

Re: S. 1763/H B. 3656

    Dear Senator Smith: This letter is my written request for support 
and passage of S. 1763/H.B. 3856--EPA National Ombudsman Re-
authorization Act of 2000.
    I am personally aware of four different situations that involved 
seriously injured victims, when EPA employees violated their own laws 
and were involved in concealing facts of what had actually occurred 
that injured the victims. EPA's actions have caused victims additional 
injury and damage. In my opinion, their behavior is a national scandal, 
and poses a very real threat to the safety and health of U.S. citizens 
now and in the future.
    The EPA National Ombudsman, Robert Martin, is the only individual 
associated with the EPA that I have found to be honest. He also has 
integrity, which seems to be missing from EPA employees in general.
    I believe it is crucial that the above referenced legislation be 
approved so that current and future victims have someone they can turn 
to for help. I have found Robert Martin to be committed to the truth. 
He has genuine concern, as well as compassion, for victims. At the 
present time, Mr. Martin is the only source of help and hope for 
victims of EPA wrong-doing. Please vote affirmatively for the above 
mentioned legislation, and give victims the protection and support they 
need and deserve.
    Please include this letter in the Congressional record.
            Thank you,
                                              Glenda Giles.
                               __________
                                                September 22, 2000.
Hon. Robert Smith, Chairman,
Committee on Environment and Public Works,
Washington, DC.

Re: Ombudsman Reauthorization Act--S. 1763/H B. 3656

    Dear Honorable Sir: I have personally been involved with the EPA 
National Ombudsman's Office (Mr. Robert Martin) concerning a toxic 
train derailment (MRL) April 1996, Alberton, MT. I find this office to 
be of the finest integrity one would hope to find in a government that 
can be trusted. I believe without the Ombudsman the quality and 
trustworthiness of the EPA would be at stake Nationwide.
    In my opinion the EPA has to work with (the polluters) on a 
repeated basis and consequently relationships develop between the EPA 
staff and the polluters staff to the point of compromising environments 
and communities.
    The Ombudsman is the committees' only tool for these type of 
situations.
    I highly recommend that the Omnbudsman's Office be granted the same 
powers and authority as a hazmat material investigator has currently 
and is listed in Code of Federal Regulations CFR-49, 107.305 
investigations (see attachments).
    As I see the National Ombudsman's Office as the highest level of 
Hazmat Material investigator's, that office should have the same power 
or greater in order to report and make recommendations to the committee 
accurately and comprehensively.
    The Ombudsman's Office cannot do the job without the proper power 
and authority--in my opinion the Ombudsman's Office should be totally 
independent of the EPA and be funded solely by Congress with each case 
being a line item.
    This would assure an objective third party review and quality 
reporting for the committee.
    The fact is that the United States will be moving high levels of 
Nuclear Waste across this Country to temporary/permanent storage 
locations in the near future, therefore I believe it is in the best 
interest of the United States to keep an over sight position like the 
Ombudsman over the National EPA and is imperative to the Security and 
well being of the United States.
    Bluntly Senators, the committee needs to sharpen its tools in this 
area of concern.
    Please include this letter in the Congressional Record.
            Sincerely,
                                          Roger A. Chalmet.
                               __________
                               ATTACHMENT

                  Code of Federal Regulations.--CFR-49
                    section 107.305.--investigations
    (a) General. In accordance with its delegated authority under part 
I of this title, the Associate Administrator for Hazardous Materials 
Safety may initiate investigations relating to compliance by any person 
with any provisions of this subchapter or subchapter C of this chapter, 
or any exemption, approval, or order issued thereunder, or any court 
decree relating thereto. The Associate Administrator or Hazardous 
Materials Safety encourages voluntary production of documents in 
accordance with and subject to Sec. 107.13, and hearings may be 
conducted, and depositions taken pursuant to 49 U.S.C. 21(a). The 
Associate Administrator for Hazardous Materials Safety may conduct 
investigative conferences and hearings in the course of any 
investigation.
    (b) Investigations and Inspections. Investigations under 49 U.S.C. 
5121(a) are conducted by personnel duly authorized for that purpose by 
the Associate Administrator. Inspections under 49 U.S.C. 5121(c) are 
conducted by Hazardous Materials Enforcement Specialists, also known as 
``hazmat inspectors'' or ``inspectors,'' whom the Associate 
Administrator has designated for that purpose.
    (1) An inspector will, on request, present his or her credentials 
for examination, but the credentials may not be reproduced.
    (2) An inspector may administer oaths and receive affirmations in 
any matter under investigation by the Associate Administrator.
    (3) An inspector may gather information by reasonable means 
including but not limited to, interviews, statements, photocopying, 
photography, and video- and audio-recording.
    (4) With concurrence of the Director, Office of Hazardous Materials 
Enforcement, Research and Special Programs Administration, an inspector 
may issue a subpoena for the production of documentary or other 
tangible evidence if, on the basis of information available to the 
inspector, the documents and evidence materially will advance a 
determination of compliance with this subchapter or subchapter C. 
Service of a subpoena shall be in accordance with Sec. 107.13(c) and 
(d). A person to whom a subpoena is directed may seek review of the 
subpoena by applying to the Office of Chief Counsel in accordance with 
Sec. 107.13(h). A subpoena issued under this paragraph may be enforced 
in accordance with Sec. 107.13(i).
    (c) Notification. Any person who is the subject of an Associate 
Administrator for Hazardous Materials Safety investigation and who is 
requested to furnish information or documentary evidence is notified as 
to the general purpose for which the information or evidence is sought.
    (d) Termination. When the facts disclosed by an investigation 
indicate that further action is unnecessary or unwarranted at that 
time, the person being investigated is notified and the investigative 
file is closed without prejudice to further investigation by the 
Associate Administrator for Hazardous Materials Safety.
    (e) Confidentiality. Information received in an investigation under 
this section, including the identity of the person investigated and any 
other persons who provides information during the investigation, shall 
remain confidential under the investigatory file exception, or other 
appropriate exception, to the public disclosure requirements of 5 
U.S.C. 552.
    [Amdt. 107-11, 48 FR 2651, Jan. 20, 1983, as amended by Amdt. 107-
24, 56 FR 8621, Feb. 28, 1991; Amdt. 107-32, 59 FR 49131, Sept. 26, 
1994; Amdt. 107-38, 61 FR 21099, May 9, 1996]
                                 ______
                                 
      Statement of Frances Dunham, Citizens Against Toxic Exposure
    Mr. Chairman and distinguished members of the committee, Margaret 
Williams, President, and the other members of Citizens Against Toxic 
Exposure (CATE) join me in thanking you for the opportunity to submit 
written testimony on S. 1763, the Ombudsman Reauthorization Act. Our 
experiences with the United States Environmental Protection Agency 
(EPA) Region 4 illustrate the great need for the National Ombudsman's 
Office to be vested with the powers and independence described in the 
American Bar Association Ombudsman guidelines and sufficiently funded 
to resolve problems in the application of the EPA Superfund program.
    CATE was formed in the spring of 1992 because of urgent concerns 
about the health of residents near Escambia Treating Company (ETC) in 
north central Pensacola, Florida, where EPA Region 4 was conducting an 
emergency removal of contaminated soil. Eventually that soil became 
``Mt. Dioxin,'' 255,000 cubic yards saturated with toxic woodtreating 
wastes now stockpiled onsite under a temporary plastic cover. An equal 
volume remains uncovered on the 26-acre site and in nearby residential 
yards. The site was added to the National Priorities List in December 
1994. Just across the railroad tracks to the southeast is the Agrico 
Chemical Superfund site, where soil and groundwater testing has found 
ETC contaminants in addition to Agrico's own wastes from a century of 
agricultural chemicals production. Between and around the two sites 
were three African American residential neighborhoods and a subsidized 
housing facility. Currently 358 families are being moved away from the 
site, the third largest permanent relocation in Superfund history.
    Escambia Treating Company operated from 1943 to 1982, leaving 
onsite and offsite areas saturated with an extraordinarily toxic 
mixture of woodtreating chemicals, including dioxins, furans, 
benzo(a)pyrene, pentachlorophenol, arsenic, creosote, dieldrin, 
napthalene, toluene, xylene, benzene, copper, chromium, and more, 
including asbestos and PCB's. EPA documents indicate that the 
contamination has spread out from the site in all directions, carried 
by wind and rain. Over the years the toxic chemicals also leached down 
into the groundwater just 48 feet of sandy soil below the surface, 
forming a plume of contamination which reaches 1.5 miles east and south 
toward Bayou Texar and the Pensacola Bay System. This extremely 
vulnerable surficial aquifer supplies drinking water to Pensacola, 
southern Escambia County, and parts of Santa Rosa County.
    Much of the area surrounding the ETC site is zoned commercial and 
industrial, but there are many homes, schools, and churches nearby. 
This historically mixed industrial/residential zone in north central 
Pensacola has important environmental and economic consequences for the 
greater area. An ambitious redevelopment plan aims to return the 
Palafox Corridor to vibrant commercial viability. The ETC cleanup will 
set the tone for the future of the area. Yet EPA Region 4 managers 
appear determined to follow the precedent they set at the Agrico site, 
leaving all the surface contaminants in an onsite ``containment'' 
(which, like all landfills, will eventually leak) and leaving the 
untreated groundwater contaminants to threaten Bayou Texar, Pensacola 
Bay, and Pensacola's drinking water aquifer. Despite the serious threat 
to groundwater, EPA has conducted no serious analysis of the site's 
geology and hydrogeology and their suitability for a landfill.
    Region 4 has set out its assessment of the kinds, levels, and 
extent of toxic contamination at the ETC site and its evaluation of 
cleanup technologies in the June 1998 Remedial Investigation/
Feasibility Study (RI/FS) for the Surface Soils at the ETC site. 
According to Superfund rules, the National Oil and Hazardous Substances 
Pollution Contingency Plan (NCP), this document should serve as a guide 
to site remediation, leading to a Proposed Plan and a Record of 
Decision (ROD).
    Unfortunately, data gaps and other flaws in the RI/FS are likely to 
distort ETC cleanup decisions so that highly toxic woodtreating wastes 
are left in soil and groundwater. The following points summarize some 
of the ways in which this RI/FS deviates from the NCP, customary 
Superfund program practice, and common sense, and why Congressman Joe 
Scarborough, the Board of County Commissioners of Escambia County, 
CATE, and local citizens' groups have requested that the National 
Ombudsman's Office oversee the ETC remediation process:
    <bullet> Dioxin TEQ soil cleanup levels in the RI/FS are inadequate 
to protect local human populations from exposures associated with 
carcinogenic and non-carcinogenic health effects.--EPA has previously 
stated its intention to use a cleanup level within the range of 2 parts 
per trillion (for residential) to 200 ppt (for industrial) for the ETC 
site. The State of Florida uses a 7 ppt level for a residential cleanup 
and is requesting the use of that standard at another Florida 
woodtreating Superfund site. But this RI/FS states that the dioxin TEQ 
cleanup standard EPA now plans to use at ETC is 5 to 20 ppb (5,000 to 
20,000 parts per trillion). This very low standard for the ETC cleanup 
will leave substantial amounts of dioxin, a potent toxicant associated 
with a wide variety of serious carcinogenic and noncarcinogenic 
effects.
    <bullet> Background sampling, intended to ascertain the natural or 
typical levels of contaminants existing in area soils, was conducted on 
the ETC site itself.--In a striking departure from Superfund guidance, 
``background'' samples were obtained onsite. Over the years, especially 
during 40 years of woodtreating activities and EPA's own massive soil 
excavation, both strong winds and stormwater runoff have carried ETC 
contaminants in all directions. EPA's own Action Memoranda from 1992 
and 1993 noted work interruptions and contaminant migration due to 
severe weather. These onsite locations have no credibility as 
``background.''
    <bullet> Dieldrin, a now banned pesticide found at very high levels 
on and around the site, is being ignored by EPA in cleanup plans.--EPA 
fails to consider this dangerous pesticide in determining cleanup 
procedures, even though dieldrin was found at ETC at hundreds of times 
the ``safe'' level.
    According to an Agency for Toxic Substances and Disease Registry 
Public Health Statement, ``Aldrin and dieldrin were widely used from 
the 1950's to the early 1970's. . . . Dieldrin . . . has been used in 
treatment of wood . . .'' (in addition to agricultural uses) It is 
described as persistent in soil and a potential health threat to 
cleanup workers at waste sites through inhalation and absorption 
through the skin. Since historical uses of dieldrin connect it with 
wood treatment, EPA should be including the presence of high levels of 
dieldrin in ETC cleanup plans.
    <bullet> EPA is allowing contaminated groundwater to spread in a 
complex plume toward Bayou Texar and toward drinking water wells.--In 
the 9 years since beginning the original excavation, when ETC's threat 
to groundwater was stated as the justification for the dig, EPA has 
done nothing to treat or contain ETC's contaminated groundwater. EPA 
intends to finalize a decision on the surface soils at ETC very soon 
but only now is beginning consideration of a plan to clean the 
groundwater. This failure follows the precedent EPA set at the nearby 
Agrico Superfund site: letting ``natural attenuation'' disperse the 
toxic contaminants into the environment. But ETC's contaminants are an 
even greater threat to public health and the environment than those of 
the Agrico site. Soil cleanup and groundwater cleanup should be 
considered and decided together.
    <bullet> The risk assessment ignores the potential for human 
exposure to groundwater through drinking water and food.--Even a soil 
cleanup separate from groundwater cleanup should include the 
groundwater exposure potential in its risk assessment. A person who 
might come in contact with ETC, soils, dust, or fumes might also be 
exposed to the site's contaminants through drinking water from affected 
wells and/or from eating local seafood and produce from gardens 
contaminated by wastes from ETC. No decision on soil cleanup should be 
made without considering these pathways of exposure, especially since 
soil cleanup levels to protect groundwater are more stringent than 
those to protect against direct human exposure.
    <bullet> The risk assessment ignores the need for protection of the 
groundwater from leaching of benzo(a)pyrene and dioxin TEQ from ETC 
soils.--EPA has found both dioxin and benzo(a)pyrene in groundwater, 
but the RI/FS cleanup standards fail to consider the protection of 
groundwater from these chemicals. [note: Although dioxin is usually 
thought to cling to soils and not to be soluble in water, it can be 
dissolved in water in the presence of solvents, as is the case at ETC.]
    <bullet> The risk assessment ignores cumulative risks.--The RI/FS 
fails to evaluate the human health threat posed by exposure to several 
contaminants even though each may be below its respective risk level. 
The NCP requires the consideration of additive effects of multiple 
contaminants.
    <bullet> There is insufficient data on the contaminated soil 
stockpiled onsite.--EPA has not yet carried out enough testing of this 
255,000 cubic yards (344,250 tons) of contaminated soil to make an 
informed decision. Excavated during 1991-93 and known as ``Mt. Dioxin'' 
for the extraordinary (as high as 1.09 parts per million) of dioxin 
TEQ, the stockpile also contains high levels of pentachlorophenol, 
creosote, arsenic, benzo(a)pyrene, dieldrin, napthalene, toluene, 
xylene, benzene, copper, chromium, and more. During the excavation, 41 
55-gallon drums of unknown chemical wastes were added to these 
materials, further compounding the lack of reliable data on what is 
assumed to be the largest portion of site contaminants to be 
remediated. It is not rational to proceed toward a cleanup decision 
without this information.
    <bullet> There is insufficient data on toxic wastes below the 
stockpile and under the two pits from which contaminated soil was 
removed.--EPA has not obtained adequate information about the levels 
and total amounts of contamination under Mt. Dioxin and under the 
excavation pits onsite. Even though during 1991-93 EPA noted that the 
contamination extended below the 48, pits and appeared to include non-
aqueous phase liquids (NAPLs), no further testing was performed on 
these contaminants for the RI/FS.
    <bullet> The RI/FS is hampered by the large numbers and large 
amounts of unidentified and tentatively identified compounds.--These 
substances must be identified and quantified before decisions 
concerning cleanup criteria are made.
    <bullet> The RI/FS sets out a plan to select a cleanup method first 
and then characterize the full kind and extent of the contamination.--
The data gaps described above may lead to errors in assessing the total 
amounts and types of contamination to be remediated and the efficacy of 
various cleanup methods. In effect, EPA is making important decisions 
without necessary information.
    <bullet> EPA further compounds the lack of information about the 
contamination by selecting a cleanup method before adequate 
treatability testing establishes the viability of a chosen cleanup 
technology.--If information on the kinds, levels, and amounts of 
contamination is incomplete and there is inadequate testing of a 
technology to demonstrate that it will work on the actual ETC soils, 
then the logical basis for the cleanup choice is absent.
    Since 1991 when the ETC soil excavation began, Region 4 has shown 
little interest in protection of public health. If the ``emergency 
removal'' at ETC had been confined to the relatively routine cleanup of 
drums, lab, transformer, and boiler, nearby residents would have 
welcomed it. Instead, Region 4 bulldozed the asbestos boiler building 
and then began excavation of the very contaminated soil and sludge 
without determining the magnitude of the problem. Years of accumulated 
woodtreating wastes blew in the wind, and nearby residents suffered 
serious effects from acute exposures. No protective measures were 
taken. Separated from residential yards by nothing more than a broken 
chain-link fence, the excavation created a straight 40-foot drop from 
the yards bordering the site. Several properties had to be shored up to 
keep them from falling in the huge pits; the foundation of one home was 
cracked. From October 1991 through November 1992, workers in 
``moonsuits'' dredged up toxic soil less than 15 feet from children 
playing in their own yards.
    In 1995, Region 4 took two actions with respect to the Agrico 
Chemicals site, both strongly protested by CATE and other local 
interests and both favoring the potentially responsible party (the 
polluter) over public health and the environment:
    1. The surface soils were excavated and gathered into an onsite 
``containment'' (landfill) which is in fact open underneath and on two 
sides. Like the ETC dig, this procedure went ahead during hurricane 
season (indeed, during two hurricanes), without protection for the 
residents, who at that time were awaiting a decision on the possible 
ETC relocation.
    2. Region 4 approved ``natural attenuation'' for the Agrico 
groundwater plume, in effect 70 years of monitoring but no remediation.
    In 1998, Region 4 issued the flawed ETC RI/FS, which sets the stage 
for similar errors at ``Mt. Dioxin.''
    Our community has nowhere to turn but to the National Ombudsman's 
Office. As presently structured, the regional ombudsmen lack the 
independence and impartiality to resolve such problems, which seem to 
exist in many of the regions. Only the National Superfund Ombudsman has 
the objectivity and the credibility to resolve disparities, conflicts, 
and inconsistencies so that the program will conform to Superfund law 
and rules. A strong, independent, adequately staffed and funded 
National Ombudsman's Office, authorized in accordance with the American 
Bar Association standards, is essential to keep Superfund operating as 
Congress has directed. The Superfund program is far too important to 
operate without accountability to citizens.
    Thank you for this opportunity to present CATE's concerns as a 
written statement for the record.
                                 ______
                                 
                         South Central Idaho Tourism and   
                        Recreation Development Association,
                                       Ride The Great Rift,
                                                September 27, 2000.
Hon. Bob Smith, Chairman,
Environment and Public Works Committee,
U.S. Senate,
Washington, DC.

Re: SB 1915, Small Community Assistance Act; SB 2296, Project SEARCH

    Dear Chairman Smith: The following language is submitted as 
testimony in support of, and urging expedited passage of the above 
referenced legislation. We respectfully request that these comments be 
made a part of the official record of the formal hearing held by the 
committee on Monday, September 26, 2000. As chairman of this 
association, I attended those hearings for the expressed purpose of 
demonstrating the importance of this legislation to the future of small 
communities.
    The South Central Idaho Tourism and Recreation Development 
Association is a 501(c)3 non-profit corporation that operates in 13 
counties in South Central Idaho and is governed by a board of directors 
of 24 members. Our mission statement is to promote and support public 
and private partnerships in order to provide tourism and recreation 
visitor services, to ensure appropriate use of regional, cultural 
aboard natural resources, stimulation of economic development and job 
creation. We have had considerable experience with proposals and 
purposes outlined both of these bills and can demonstrate positive, on 
the grounds, community-based results, that have resulted from our 
participation in these type of activities.
                                sb 1915
    We have had specific success working with the SCAS in the past and 
have developed genuine respect for the importance of their role in 
assisting small communities. As dictated by our mission statement, we 
are focused on working on behalf of rural and small communities. The 
following language, which I believe describes the mutual benefit of 
cooperation rather than confrontation, was developed during our early 
dialog with SCAS. I believe our experience demonstrates the importance 
and power of SCAS having it own clear, unfiltered voice directly to 
EPA.
    Traditional command control relationships dearly do not work in 
this relationship, so what will? Helping small communities protect 
natural resources through the application of sustainable, livable and 
smart growth community development and planning strategies requires 
Federal agencies to participate in multi-level partnerships that are 
initiated and lead by locally-elected officials and grassroots 
community leadership. These partnerships, public/private and local/
State/Federal, are the only practicable way to truly integrate the 
diverse components that are necessary to actually execute and follow 
through with specific actions and strategies to ensure long term 
success and positive outcomes. These kinds of local projects build on 
the foundation of national environmental goals and standards expressed 
in law and regulation. The link between national policies, locally-
driven environmental protection strategies, and sustainable 
development, may be best defined by the commitment of technical and 
financial resources from Federal agencies fully cooperating with 
locally-elected leaders. Relying entirely on the regulatory-enforcement 
process without a partnership relationship, limits the chances that the 
61 million people living in rural and small community areas will reap 
the benefits of national environmental standards and policies. Only by 
approaching small community environmental protection in a way that is 
energized and guided by local goals will we achieve locally important 
environmental protection standards and sustain the local cultural, 
natural and historical resources that are so vital to our national 
well-being. Without these Federal/local partnerships, locally important 
natural resources such as the Snake River Plain Regional Aquifer and 
the wetlands and threatened migration routes in Northampton County, VA 
will continue to suffer indifference and significant degradation.
    From the intent of this language, draft recommendations were 
developed by SCAS and subsequently used by our association to seek 
planning grant assistance from EPA for a significant regional eco-
toursism and recreation park. This project is designed to protect the 
point source aquifer and drinking water source of a city of 35,000 
inhabitants, as well as, protect the pristine rim of the Snake River 
Canyon from development in perpetuity. The SCAS recommendations we 
followed were as follows:
    <bullet> Develop a rural environmental policy and program to 
promote innovative and local-driven compliance strategies, sustainable 
development, smart growth and livable community efforts for small towns 
and rural areas.
    <bullet> Work with other Federal agencies in a coordinated manner 
to support locally-driven small town sustainable development, smart 
growth, and livable community initiatives.
    <bullet> To the extent that any existing and proposed grant 
programs (including Sustainable Development Challenge Grants and 
Brownfields Redevelopment Grants, etc.) deal with sustainable 
development projects, smart growth and livable communities, EPA should 
emphasize small town and rural community projects.
    <bullet> Provide technical assistance either directly or through 
third party providers to small communities to plan, apply for and 
implement planning incentives for sustainable development, smart 
growth, and livable community projects and resources.
    <bullet> Recognize, support and promote the Snake River Plain 
Aquifer eco-tourism project and the Northampton County Virginia 
Sustainable Community Development Action Plan as outstanding examples 
of small town sustainability, livability and smart growth community 
development efforts.
    <bullet> Support the Conference of Southern County Association's 
effort to develop a sustainable community development ``How To'' manual 
to assist elected small town officials using the Snake River Plain 
Aquifer eco-tourism project and the Northampton County Virginia 
Sustainable Community Development Action Plan as models.
    <bullet> Export to the Small Community Advisory Subcommittee, 
within 2 years of the adoption of these recommendations, on the 
progress made, both within and outside of the Agency, toward 
implementing small town sustainable development, smart growth and 
livable community programs, projects and initiatives across the Nation.
    Based on the draft recommendations developed with SCAS, we invoked 
a similar philosophy and presented EPA with a specific proposal for 
developing a regional eco-tourism park. We requested planning and 
financial assistance from EPA based the following work plan:
Background
    The tracts of land described in this issue paper are located in 
Jerome County (County), north of the Snake River Canyon, south of I-84, 
west of the Hansen Bridge (Exit 182), east Highway 93, and west of 
Auger Falls. (See attached map). Approximately 7,300 acres are 
currently owned by the Bureau of Land Management (BLM), 1,646 acres 
owned by the Idaho Department of Lands (State) and 400 acres are held 
in three privately-owned parcels. The project objective is to develop 
the consolidated parcels into a regional multi-use tourism and 
recreation area. The intent is to set aside these lands in perpetuity 
for public access and use, while at the same time, focusing on 
protection and preservation of the natural beauty, cultural resources, 
open spaces and environmental sensitivity of these parcels. The project 
would include protecting 9 miles of the Snake River Canyon in 
perpetuity. Programs would be developed to feature the cultural, 
historical, and natural resources of the area.
    The Draft of the Bennett Hills RMP identified the BLM portion of 
these public lands for disposal. Of the 800 public comment letters 
received, 500 were in favor of retaining the lands east of Highway 93 
primarily for public recreational use. For BLM to follow through with 
the wishes expressed in public comment letters for a multi use 
recreational use facility, it would be require a tax payers investment 
of $3-$4 million and $300,000 per year to administer the area. BLM 
currently expends $15,000-$20,000 per year on limited recreational, 
mineral and law enforcement activities on the site. In 1996, Jerome 
completed and adopted a revised Jerome Joint Agency Comprehensive Plan 
(Comp Plan). The Comp Plan designated lands around the I-84/Hwy 93 
interchange (Exit 173) as a commercial zone designed to expand Jerome 
County's tax base. Lands west of Highway 93 and south of 1-84 were 
designated primarily for residential development. (BLM commented on the 
Comp Plan but disposition of their public lands was not specifically 
addressed pending completion of the final RMP.) The Comp Plan also 
includes provisions for a preservation zone to protect the integrity of 
the Snake River Canyon Rim from development.
    Seventy percent of the potable water supply of the city of Twin 
Falls (Twin Falls) is derived from the aquifer under these lands. Twin 
Falls has a vested interest in future disposition of these lands in 
order to provide for wellhead protection to this resource. Twin Falls 
has presented a proposed Wellhead Protection Ordinance and map to 
Jerome County that would prohibit future commercial development in this 
area.
    The College of Southern Idaho (CSI) is the principal post secondary 
educational institution in the area and is funded as a taxing district 
in Jerome and Twin Falls Counties. CSI has a strong interest in 
establishing a world class aquifer research center in partnership with 
Idaho State University (ISU), the University of Idaho (UofI) and Boise 
State University (BSU) at a pristine location, within the boundaries of 
the proposed set aside area. A component of these plans includes a 
living laboratory at Devil's Corral, one of the last pristine 
ecosystems along the Snake River Canyon. The research center would 
develop science and data to support litigation claims pending in the 
Basin 36 Adjudication Court and issues surrounding potential impact on 
aquifer contamination from nuclear waste at INEEL. In addition to its 
scientific value, the center would serve as an educational complex and 
a regional tourism interpretation and redistribution center.
    The South Central Idaho Tourism and Recreation Development 
Association, Inc. (SCITRDA) is a 501(c)3 non-profit public/private 
partnership that represents 13 counties and has an elected board of 
directors of 20 members. SCITRDA's mission is to develop and manage 
regional tourism and recreation opportunities and contribute to 
enhancement of sustainable economic development and creation of quality 
employment opportunities. SCITRDA currently has a written contract with 
the county to design, develop and finance this project from grants and 
other private sector resources. A primary objective of SCITRDA is to 
use the site as a focal point of their strategic plan to establish 
Southern Idaho as a recognizable tourism destination that will 
contribute to economic diversification and job creation in the region.
Decisions to be Made
    BLM will exchange mutually agreed upon parcels with the State for 
parcels that will generate revenue for the educational endowment fund. 
BLM will also trade parcels of equal value with the owners of the 
privately held parcels. One of the privately held parcels (128 acres) 
is being be gifted to CSI for exchange purposes to generate endowment 
funds similar to the State exchange. Once the parcels are consolidated 
into a single parcel, BLM will lease the area within the boundary of 
the proposed park to Jerome County on a long term R&PP Lease. A 1,300 
acre portion of the BLM land west of Highway 93 will be acquired by 
Jerome County at non-competitive fair market value (approximately 1,300 
acres @ $300=$390,000). Funding for this interim transaction will be 
provided by a private sector foundation and have no impact on Jerome 
County taxpayers. These lands will eventually be resold for residential 
development that is consistent with the intent of the Comp Plan. 
Proceeds from the sale of residential land will be used exclusively as 
matching funds for grants to develop the park complex. All future 
funding responsibilities under the proposed scenario would become the 
responsibility of the ``Public/Private Partnership'' and be managed by 
SCITRDA. None of these transactions will require the support of local 
taxpayers.
    Expected Results: This project has the potential to be a win-win-
win-win proposal. The integrity of the Snake River Canyon rim is 
protected from future development. The public will receive a wonderful 
recreation area that has world class geological, historical, and 
cultural resources. It will alleviate the aquifer contamination 
concerns of the city of Twin Falls. Idaho's educational institutions 
receive a research center for expanded scientific and educational 
endeavors. BLM alleviates the funding drain required to police the area 
in its current condition. The tourism industry gets a new resource that 
will provide a destination identity and interpretation of the area's 
recreational resources. This expanded tourism opportunity will provide 
sustainable economic diversification and employment opportunities. And 
finally, control of Federal lands is being transferred to local control 
and private sector operation at no cost to the local taxpayer.
    Because of our affiliation with and the role we played as a model 
project supported by SCAS, and the collaborative manner in which we 
approached the process, I am pleased to report that our project 
planning request was funded by EPA in the following manner:
    <bullet> EPA Office of Water:  $45,000
    <bullet> EPA Region X:  $22,500
    <bullet> EPA Office of Planning, Economy and Innovation:  $22,500
    <bullet> Idaho Power Company Match:  $25,000
    Today, some 2 years after we initiated the process, our project is 
fully operational. We hired nationally recognized consultants who are 
in the process of preparing a community-based communications plan, 
natural, cultural and environmental-based resource plan, and initiating 
appropriate levels of NEPA compliance. We expect to have a community-
based communications model and natural resource based land use plan 
completed by December 2000.
    Our project strongly subscribes to the principles of 
sustainability, livability, and smart growth, because they are not only 
good for the environment, but are good economic development strategies 
as well. The reality for rural communities is that we must work 
together collaboratively with all sectors if we are to succeed--we must 
learn to farm our own local driven initiatives rather than depending on 
Government mandated and funded projects The public/private partnership 
we have created provides a win-win equation for success for all its 
stakeholders. We honor and thank the SCAS and EPA for their active 
participation in this creative initiative. We pledge in return, to 
provide a transferability message to other rural and small communities 
that can benefit from implementation of similar strategies. I believe 
this success demonstrates why it is necessary to maintain SCAS for the 
benefit of small communities and demonstrates the value and advantage 
of having a clear, un-filtered voice to work directly with EPA. Passage 
of SB 1915 will ensure that SCAS can maintain that level of 
effectiveness in representing the needs of small communities.
                                sb 2296
    The Project SEARCH legislation equally important to the survival of 
rural communities. Many small communities are faced with the trauma of 
complying with Federal mandates with not enough resources available to 
even understand the problem. In most cases small communities do not 
even have paid staff or funding available to even assess the smallest 
part of these mandates.
    The pilot version of Project SEARCH in Idaho, demonstrated how a 
minimal amount of money, administered by a community-based organization 
at the local level, can make a huge impact on the lives of citizens in 
small communities. Rural Idaho communities were facing many of the 
environmental challenges seen throughout the United States, including 
the protection of groundwater, the disposal of waste water, the 
protection of critical habitat, and many others. Yet these small 
communities found themselves without the financial resources to 
undertake the size and scope of project necessary to respond to 
environmental challenges.
    The 1999 initial grant of $1.3 million from EPA was issued to a 
local non-profit. This regional planning association, the Region IV 
Development Association, has considerable experience with grant 
processes and helping small communities. The association created a 
simple grant application that any part-time city official or mayor 
could complete. A notice of the grant program availability and an 
application was sent to all of Idaho's counties and all cities with a 
Census population of less than 2,500. Application review was a locally 
driven process by a seven member Citizens Advisory Committee. The 
Committee was comprised of one representative appointed by the local 
board of each of Idaho's six economic development planning regions, and 
one person who brought to the group his experience as a small town 
mayor and with the SCAS. This experienced individual served as the 
committee's chair. These seven individuals reviewed the applications 
and made the funding decisions. Of the 47 applications received, were 
able to fund only 21. The funded applications ranged from a low of 
$9,000 for a facility plan so that a housing authority could solve its 
wastewater problems to a high of $319,000 for part of the funding 
needed for construction of a wastewater treatment facility in a very 
sensitive environmental area. Examples of a few of the projects and 
attributes is as follows:
    <bullet> A community 150 installed its first wastewater treatment 
system using the community residents for the needed labor. The people 
of this community will be hooking up homes to the new system this fall. 
Without Project SEARCH assistance, this project would still be years 
away from completion.
    <bullet> The demonstration project grant from EPA required a 45-
percent match. This program was structured so that each individual 
community would not be required to come up with a 45-percent match--but 
rather that the overall program would be responsible for meeting the 
match requirement. The small towns were able to match their Project 
SEARCH Grants with local resources ranging from 14 percent up to about 
87 percent.
    <bullet> The project maintained full accountability the EPA grant 
being awarded to an experienced local non-profit. Through this 
combination of local direction and Federal partnering enabled more 
direct infrastructure building/environmental problem solving dollars to 
get to the communities that if EPA had awarded individual grants.
    <bullet> The pilot Project SEARCH enables 21 Idaho communities to 
solve or make major strides in solving their environmental problems 
that could not have been done otherwise.
    SCITRDA's neighbor to the part project, the Jerome Water and Sewer 
District, was awarded a $20,000 SEARCH Grant for planning study to 
determine the feasibility of installing a state-of-the-art wastewater 
treatment facility. Implementation of wastewater treatment 
infrastructure will allow the development of a significant residential 
development that is consistent with the tenants of the Jerome County 
Comprehensive Plan. Proceeds from the sale of these lands will be 
diverted to an endowment fund to support on-going operation of the 
above referenced park project. We believe that this demonstrates that 
SB 1915 and SB 2296 are not only complimentary, but collaborative in 
nature. We urge passage of both bills in order to assist and sustain 
the integrity and health of our small communities.
    Thank you for your consideration and cooperation in this matter. We 
would urge you to report these bills out of committee for further 
consideration at your earliest opportunity.
            Sincerely yours,
                                         Steven L. Thorson,
                                                          Chairman.
                                 ______
                                 
                                                    USPIRG,
                                                     June 14, 2000.
Hon. Dennis Hastert,
Hon. Richard Gephardt,
U.S. House of Representatives,
Washington, DC.
    Dear Representatives: Our organizations submit this letter in 
support of H.R. 3656, the Ombudsman Reauthorization Act of 2000, or 
amendments to the VA, HUD, and Independent Agencies Appropriations Act 
for fiscal year 2001 that are made on the House floor that would 
implement H.R. 3656. This legislation will greatly aid citizens' 
efforts to ensure that their need and views are fully considered in the 
EPA's decisionmaking process regarding Superfund and other toxic waste 
sites. Many Members of Congress have worked with the Ombudsman's Office 
and there is bipartisan support for the vital role this office plays.
    The EPA National Ombudsman, or ``EPA watchdog,'' receives requests 
and complaints from Members of Congress and citizens concerning 
Superfund and other hazardous materials programs and conducts 
investigations into those complaints. The EPA National Ombudsman then 
makes findings of facts and non-binding recommendations to the EPA on 
how to resolve the dispute(s).
    The numerous communities who have felt the EPA was unresponsive to 
community needs, the National Ombudsman has assisted in resolving 
problems. The EPA National Ombudsman's Office has investigated and 
brought to resolution conflicts at Superfund sites around the Nation. 
For example, over the last 8 years, the National Ombudsman's Office has 
helped citizens from the States of California, Colorado, Florida, 
Idaho, Ohio, Missouri, Montana, Pennsylvania, Texas, and Washington. In 
some instances, assistance was in response to a request from Members of 
Congress. Likewise, citizens and Members of Congress have praised the 
work of the Ombudsman's Office. Enclosed is a recent Tampa Tribune 
editorial entitled ``Eroding Credibility of the EPA,'' that highlights 
the type of conflicts the Ombudsman often works hard to resolve and a 
Washington Post article that illustrates some of his accomplishments.
    Essential to our support for the Ombudsman's reauthorization is the 
American Bar Association's (ABA) Model Ombudsman Statute as referenced 
in this legislation. The ABA Standards embodied in this Model Statute 
will provide the Ombudsman with the ability to convene public hearings 
and meetings on the record; interview witnesses or the record; subpoena 
witnesses and documents relevant to Ombudsman investigations; and 
select and conduct cases with critical independence from the EPA. It is 
also essential that the EPA National Ombudsman's Office have adequate 
resources to operate effectively.
    For over 20 years the ABA's ``twelve essential characteristics'' 
have provided guidance to mainstream public-sector Ombudsman positions 
across the country (see attachments). The States of Alaska, Nebraska, 
Hawaii, Iowa, and Arizona have empowered their Ombudsmen with some of 
these essential characteristics. A number of Federal agencies also have 
Ombudsman positions with some aspects of the ``twelve essential 
characteristics'' including the IFS, FDA, and Commerce Department.
    Some Members of Congress have expressed concerns that this 
legislation would give too much power to the Ombudsman. However, the 
legislation imposes important limitations on the role the Office plays. 
For example, under the amendment, the Ombudsman does not have the 
direct power to: (1) compel and decision; (2) make, change, or set 
aside a law, policy or administrative/managerial decision, nor to 
compel an entity or any person to make those changes; or (3) substitute 
for an administrative or judicial proceeding for determining anyone's 
rights.
    The EPA National Ombudsman serves the invaluable function of being 
the last recourse available to Superfund communities. The Ombudsman is 
also, in some cases, the first office to adequately investigate and 
resolve the problems faced by communities and individuals affected by 
hazardous waste. We respectfully submit that reauthorization, as 
described above, would allow the EPA National Ombudsman's Office to 
continue providing a vital service to the American public.
            Sincerely,

                    20/20 Vision, Washington, DC; Alaska Forum for 
                            Environmental Responsibility, Valdez, AK; 
                            Alberton Community Coalition for 
                            Environmental Health, Alberton, MT; 
                            American Friends Service Committee, 
                            Northeast Ohio Office, Akron, OH; American 
                            Lands Alliance, Washington, DC; Arrest the 
                            Incinerator Remediation, Lockhaven, PA; 
                            Alliance for Nuclear Accountability, 
                            Washington, DC; Alliance to End Childhood 
                            Lead Poisoning, Washington, DC; Brio 
                            Community Group, Houston, TX; Campaign to 
                            Safeguard America's Waters, Earth Island 
                            Institute, Haines, AK; Cetacean Society 
                            International, Georgetown, CT; Chemical 
                            Weapons Working Group, Berea, KY; Citizens 
                            Advocating Responsible Treatment, Coeur 
                            d'Alene, ID; Citizens Against Toxic 
                            Exposure, Pensacola, FL; Citizens 
                            Progressive Alliance, Denver, CO; Clean Air 
                            Hotline, Port Angeles, WA; Clean Water 
                            Action, Washington, DC; Cold Mountain-Cold 
                            Rivers, Missoula, MT; Committee for Clean 
                            Air and Water, Tarpon Springs, FL. ; 
                            Committee to Bridge the Gap, Los Angeles, 
                            Sacramento, and Santa Cruz, CA; Common 
                            Ground, Berea, KY; Concerned Citizens of 
                            Lake Township, Uniontown, OH; Cook Inlet 
                            Keeper, Homer, AK; Don't Waste Arizona, 
                            Phoenix, AZ; Environmental Association for 
                            Great Lakes Education, Duluth, MN; Friends 
                            of Miller Peninsula State Park, Port 
                            Angeles, WA; Friends of the Earth, 
                            Washington, DC; Galveston-Houston, 
                            Association for Smog Prevention, Houston, 
                            TX; Government Accountability Project, 
                            Washington, DC; Global Response, Boulder, 
                            CO; Glynn Environmental Coalition, 
                            Brunswick, GA; Grand Canyon Trust, 
                            Flagstaff, AZ; Greenpeace, Washington, DC; 
                            Greenwatch, Jersey Shore, PA; Idaho 
                            Conservation League, Boise, ID; 
                            International Marine Mammal, Project of 
                            Earth Island Institute, San Francisco, CA; 
                            Kentucky Environmental Foundation, Berea, 
                            KY; Kootenai Environmental Alliance, Coeur 
                            d'Alene, ID; Lead Safe Idaho, Buhl, ID; 
                            Mangrove Action Project, Port Angeles, WA; 
                            Mineral Policy Center, Washington, DC; 
                            Mission Society of St. Gregorius, Salt Lake 
                            City, UT; Montana-CHEER, Missoula, MT; Non-
                            Stockpile Chemical Weapons Coalition, 
                            Berea, KY; North-Missoula Community 
                            Development Corporation, Missoula, MT; 
                            Olympic Environmental Council, Sequim, WA; 
                            Overland Neighborhood Environmental Watch, 
                            Overland Park, CO; Peace and Justice Action 
                            League of Spokane, Spokane, WA; People for 
                            a Liveable Community, Port Townsend, WA; 
                            PEER New England, Lexington, MA; 
                            Pennsylvania Environmental Network, Fumble, 
                            PA; PiPa-Tag, Tarpon Spring, FL; Protect 
                            the Peninsula's Future, North Olympic 
                            Peninsula, WA; Public Citizen, Washington, 
                            DC; Public Employees for Environmental 
                            Responsibility, Washington, DC; Project On 
                            Government Oversight, Washington, DC; 
                            Quincy Concern, Quincy, WA; Rocky Mountain 
                            Peace and Justice Center, Boulder, CO; 
                            Salmon and Wildlife Advocates, Sequim, WA; 
                            Service Employees International Union 
                            (SEIU), Washington, DC; Site Specific 
                            Advisory Board, Rocky Mountain Arsenal, 
                            Commerce City, CO; Silicon Valley Toxics 
                            Coalition, San Jose, CA; Silver Valley 
                            People's Action Coalition, Kellogg, ID; 
                            Spirit Tree, Indianapolis, IN; Squirt 
                            Irrigation, Kellogg, ID; SUMAC Association, 
                            Philadelphia, PA; Summitville TAG/
                            Summitville Superfund Site, Del Norte, CO; 
                            Tongass Conservation Society, Ketchikan, 
                            AK; Trans Alaska Gas System Environmental 
                            Review Committee, Anchorage, AK; Tri-State 
                            Environmental Council, Chester, WV; U.S. 
                            Public Interest Research Group, Washington, 
                            DC.
                                 ______
                                 
                             Olympic Environmental Council,
                              Port Angeles, WA, September 25, 2000.
Hon. Robert Smith, Chair,
Hon. Max Baucus, Chair,
Environment and Public Works Committee,
U.S. Senate,
Washington, DC.

Attn: Alistair Hubbell

RE: S1763 Ombudsman Reauthorization Act of 2000

    Dear Senators Smith and Baucus: The Olympic Environmental Council 
(OEC) is a coalition of citizens in Jefferson and Clallam Counties in 
the State of Washington. We work to protect human health and the 
environment for present and future generations. OEC has formed a 
coalition with western WA educational, health and environmental 
organizations working to protect our community and State and Federal 
aquatic lands that have been contaminated by a pulp mill.
    OEC is writing in support of Senate bill 1763, the Ombudsman 
Reauthorization Act of 2000, that will be under consideration in your 
September 26 Environment and Public Works Committee hearing. This 
legislation would ensure the future functioning of the EPA National 
Ombudsman Office, with adequate funding, powers, and independence to 
function appropriately under the nationally and internationally 
recognized American Bar Association (ABA) guidelines.
    The Ombudsman Office is an important part of a democratic system of 
government. It serves Superfund communities and others most directly 
affected by toxic exposure, serving as a ``watchdog'' and final 
recourse when citizens feel they have not received justice elsewhere in 
their cases. In many cases, the National Ombudsman has been the first 
agency person to actually listen to the complaints of citizens and 
elected officials' and to work toward resolution. In our case, it was 
only through the auspices of this Office, and after 8 years of trying 
to get government help, that citizens succeeded in getting us 
government help.
    A well known pulp mill polluter for over 60 years, Rayonier, Inc., 
Washington State's primary polluter for a number of years they were in 
operation, smothered our air, waters, and soils with highly toxic 
materials. Only with Ombudsman help were citizens able to get site 
assessments under the Superfund laws when Rayonier closed their mill 
and tried to leave the citizens to clean it up at public expense. The 
pollution has also greatly impacted Federal and State aquatic lands.
    Still, today, governments come to the rescue of the corporation to 
save it dollars, rather than the sick and dying citizens who have 
impaired health and property investments due to the operation of this 
mill, leaving use needing the Ombudsman's help to insure governments 
overseeing assessments and cleanup do it right.
    EPA has ignored citizens most directly affected by toxics in their 
community across the country. EPA employees hazardous waste site 
assessments are often flawed, allowing the agency to both under 
estimate the seriousness of the contamination, and limit the options 
for cleanup and remediation.
    National Ombudsman help across the country in Washington, 
Pennsylvania, Idaho, Montana, Florida, Colorado, and elsewhere, proves 
that the role of the National EPA Ombudsman must be adequately secured 
with reauthorization, funding, independence according to American Bar 
Association standards, and from the agency it must watchdog and, 
finally, subpoena power. The Ombudsman should also be in charge of the 
workings of the countries ten (10) regional EPA Ombudsmen.
    I am highly in favor of strong environmental regulation in our 
country and necessary appropriations for ongoing programs and 
enforcement capabilities. An important part of this work is the 
independent position and funding for a National Ombudsman that brings 
us accountability of the EPA itself and how this agency meets its 
mandate to protect this Nation's health and environment.
    I urge your to support the functioning of this Office at the 
National level as S. 1763 is written. Thank you for your consideration 
and please include my testimony in the subcommittee hearing record. I 
would also appreciate being updated by your office on the progress of 
this bill.
            Sincerely,
                                         Darlene Schanfald,
                                                  Project Director.
                                 ______
                                 
                                           Pi-Pa-TAG, Inc.,
                            Tarpon Springs, FL, September 23, 2000.
Hon. Robert Smith, Chair,
Environment and Public Works Committee,
Washington, DC.
    Dear Senator Smith: This letter is presented by the Board of 
PiPaTAG, Inc., in full support of Senate bill 1763, the Ombudsman 
Reauthorization Act of 1999, which will be under consideration in your 
September 26, Environment and Public Works Committee hearing. Pi-Pa-
Tag, Inc., holds a Technical Assistance Grant to provide community 
information concerning cleanup of the Stauffer Chemical Superfund Site 
in Pinellas County, FL, under EPA Assistance Agreement No. 1994931-01-
0. Our newsletter reaches over 700 concerned citizens at the 
intersection of Florida's Pinellas and Pasco counties.
    We request that this letter be included as testimony in the 
subcommittee hearing record.
    PiPaTAG, Inc., believes that this legislation will ensure the 
future functioning of the EPA National Ombudsman Office, with adequate 
funding, subpoena powers, and independence to function appropriately 
under the nationally and internationally recognized American Bar 
Association (ABA) guidelines. Without this legislation, it is probable 
that many other communities will suffer the same poor treatment from 
EPA that has been manifest in our own locality.
    The community affected by the Stauffer Chemical Superfund Site near 
Tarpon Springs, FL, is shocked at the treatment it has received at the 
hands of EPA Region 4. Though EPA has attempted to portray itself as 
being in a partnership with the community, observed behaviors point to 
the partnership actually being between EPA Region 4 and Stauffer 
Management Co. (SMC), the Potentially Responsible Party (PRP).
    For years, members of the community have asked reasonable, 
legitimate questions about the Stauffer Chemical Superfund Site and the 
surrounding area, and for years they have received very few 
satisfactory answers. At a number of public meetings, EPA told citizens 
that their questions would be answered at a later date, after further 
study. Most questions were never answered. Thus, the community was 
patronized and denied meaningful participation in the Superfund 
process. Though an EPA Technical Assistance Grant was awarded, reports 
and comments from the public and from the environmental scientists 
under contract as Technical Advisors were, for the most part, ignored. 
In some instances, those comments were used as excuses to weaken parts 
of the proposed containment project. EPA Region 4 staff has turned 
citizens' comments about contamination from the site that has spread 
into the surrounding community into excuses to reduce the level of the 
remediation on the site itself.
    EPA Region 4 promised to clean the site (located within a 
residential community) to residential standards, yet they released a 
Record of Decision (ROD) with no soil cleanup level for arsenic, the 
main chemical contaminant, then resorted to intellectual obfuscation 
while they adopted a less-stringent cleanup standard.
    Without performing the studies needed to determine potential short- 
or long-range safety issues, EPA Region 4 agreed to the remedy chosen 
by Stauffer Management Co.'s (SMC) contractor. While EPA Region 4 staff 
have staunchly defended the acres of monstrous concretized mounds of 
heavy metal and radioactive contaminants included in the proposed 
remedy, they evaded questions about the need for hydrogeological 
studies to determine the flow of groundwater and the potential for 
sinkhole formation beneath those mounds. In spite of obvious lack of 
scientific, fiscal, or common sense and ignoring the fact that the site 
is over an extremely vulnerable part of the Floridan Aquifer (the major 
source of the area's drinking water), they attempted to convince the 
community that a second operational unit, begun only after the huge 
mounds were completed, would determine the safety of the remedy.
    EPA Region 4 professed a strong commitment to working with 
community members, yet they sent the Consent Decree to the Department 
of Justice over the community's strenuous objections.
    Actual proof of the irresponsibility of the actions of EPA Region 4 
was not available until the EPA National Ombudsman responded to the 
appeals of local citizens and agreed to investigate the situation. 
Suddenly, unanswered questions began to be raised in a more public 
arena. New questions emerged: through the efforts of the Ombudsman's 
Office, the community learned that EPA Region 4 has shielded the PRP by 
not taking into account or publicly revealing its knowledge of certain 
financial maneuverings of the ownership of the Stauffer Chemical 
Superfund Site, maneuverings which place the long-range (and, indeed, 
possibly the short-range) fiscal accountability for the site in serious 
jeopardy.
    Only because of the investigation by the Ombudsman's Office, EPA 
Region 4 agreed to withdraw both the original Consent Decree and the 
Amended Consent Decree; perform the hydrogeological tests required to 
determine the suitability of the proposed remedy for the geological 
characteristics of the site prior to implementing the remedy; bring in 
special hydrogeological consultants, including the U.S. Geological 
Survey; compromise with the Florida Department of Environmental 
Protection to use Florida's Commercial standards for arsenic cleanup. 
They have delayed, but have not abandoned the original proposed remedy, 
nor have they reopened the Record of Decision (ROD). Without continued 
oversight of this project by the Ombudsman's Office, we citizens know 
that EPA will eventually resort to ``business as usual,'' ignoring the 
evidence of scientific tests and shielding the true reasons for 
decisions in the project.
    Documentation for these and other problems associated with Region 4 
EPA's handling of this Superfund site can be found posted on Pi-Pa-
TAG's website, www.nucleicassays.com/eco/TAGindex.htm or can be 
obtained by request to Pi-Pa-TAG at the address on this letterhead.
    We respectfully urge action on Senate bill 1763 to protect the 
public from EPA's deliberate or accidental behavior that benefits the 
polluter at the expense of the affected citizens.
            Sincerely,
                                   John ``Chuck'' Lehr,
                                             President, Pi-Pa-TAG.

                                   Rose Mary Ammons, Ed.D.,
                                             Vice President, Pi-Pa-TAG.

                                   Heather A. Malinowski, D.N.,
                                             Secretary, Pi-Pa-TAG.
                                 ______
                                 
            [From the St. Petersburg Times, August 30, 2000]
                      Vigilance Wins in Superfund
                           (Times Editorial)
    No one will ever accuse the U.S. Environmental Protection Agency of 
learning a lesson the easy way. While seeking judicial approval of a 
controversial cleanup plan for the Stauffer Chemical Superfund site, 
EPA officials offended U.S. Representative Mike Bilirakis, fought with 
the Florida Department of Environmental Protection, ignored Pinellas 
County health officials and angered Tarpon Springs residents.
    Now, the EPA has withdrawn the proposed plan from Federal court, 
ordered more testing and said it wants to work with all interested 
parties. Regaining trust is not going to be that easy.
    The cleanup plan was incomplete, if not outright flawed. The EPA 
and Stauffer's corporate owner both favored piling 300,000 cubic yards 
of contaminated soil into mounds and sealing them below and above 
ground to prevent leaks. But the EPA Ombudsman shattered confidence in 
that plan by exposing weaknesses in the ``pile and cap'' method at a 
comparable site in Denver, saying pollutants could leak into the ground 
without being detected.
    Stauffer is Pinellas County's only Superfund site and an obvious 
threat to human health. It sits on a bank of the Anclote River, 
surrounded by houses, businesses and an elementary school. Yet the EPA 
ignored county health officials and residents who feared the piled 
pollutants would leak into the aquifer or be undermined by a sinkhole. 
The Federal agency fought State environmental officials who wanted to 
reduce the amount of arsenic left in the soil. And two EPA officials 
walked out of a public hearing held by Bilirakis rather than answer 
residents' questions.
    Given such behavior, EPA officials shouldn't be surprised that much 
of the public has lost confidence in the agency. The EPA did the right 
thing by stopping the legal process, requiring Stauffer officials to 
study the site's geology and signing a cooperative agreement with the 
DEP. But EPA project manager John Blanchard won't rule out a return to 
the same ``pile and cap'' plan. The burden is on the EPA to persuade 
everyone that the next proposed cleanup will protect the environment 
and human health.
    Call it a temporary victory for residents such as Mary Mosley (who 
has been fighting Stauffer pollution for 22 years), politicians 
Bilirakis (who supported the EPA Ombudsman's intervention) and State 
Senator Jack Latvala (who pressured the DEP to get involved) and county 
health department official Mike Flanery (who questioned the plan's 
attention to drinking water safety).
    We now know there is no substitute for vigilance in the Superfund 
process.
                                 ______
                                 
               [From the Tampa Tribune, August 31, 2000]
                     Finally a Logical Move by EPA
                       (Tampa Tribune Editorial)
    The decision this week by the U.S. Environmental Protection Agency 
to formally withdraw its plan for cleaning up the Stauffer Chemical 
site near Tarpon Springs may not qualify as a true miracle, but it is 
darn close.
    After years of insensitivity and downright stubbornness, the 
country's chief environmental regulatory agency finally pulled the 
official consent decree that allows Stauffer Management to leave an 
estimated 300,000 cubic yards of hazardous soil onsite. The shelved 
plan consists of rounding up an estimated 300,000 cubic yards of 
hazardous soil, putting it in a mound, sealing it, and then injecting 
it with cement.
    After prodding from persistent resident activists, EPA decided 
additional tests are needed, including studies to determine the risk of 
sinkholes and whether drinking water supplies would be protected. EPA 
officials don't deserve much praise for this decision, because these 
most important studies should have been undertaken long ago--certainly 
before the so-called mound-and-cap method was chosen. As activist Mary 
Mosley told a reporter: ``It's a victory for the community. We knew 
that you can't fit a remedy without testing for the most obvious.''
    But caution and continued persistence is needed in the communities 
surrounding the hazardous waste site, which is on the EPA's Superfund 
list as one of the Nation's most contaminated. Some EPA officials were 
quick to point out Monday the proposed mount-and-cap cleanup method has 
not been totally ``scrapped.'' Such comments are disheartening, because 
they do not reflect an open mind--one reason many in the community are 
distrustful of EPA officials. EPA officials must keep an open mind 
during this review and study period.
    The EPA is charged with protecting the environment and health of 
residents, and it has a duty to require Stauffer Management to 
undertake a cleanup method that will accomplish that without any 
doubt--no matter the cost to the company. As U.S. Representative Mike 
Bilirakis, R-Palm Harbor, said in a statement: ``We must all remain 
actively involved in this process to secure a cleanup of the Stauffer 
site consistent with the public health and safety.''
  

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
